<html>
<title> - HOUSTON STRONG: HURRICANE HARVEY LESSONS LEARNED AND THE PATH FORWARD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 HOUSTON STRONG: HURRICANE HARVEY LESSONS LEARNED AND THE PATH FORWARD

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2018

                               __________

                           Serial No. 115-56

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
       
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-894 PDF               WASHINGTON : 2018                                      
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. George A. ``Tony'' Robinson, Regional Administrator, Region 
  VI, Federal Emergency Management Agency (FEMA), U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Rear Admiral Paul F. Thomas, Commander, Eighth Coast Guard 
  District, United States Coast Guard, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Colonel Lars N. Zetterstrom, Commanding Officer, Galveston 
  District, United States Army Corps of Engineers (ACE), 
  Department of the Army, U.S. Department of Defense:
  Oral Statement.................................................    15
  Prepared Statement.............................................    18
Ms. Beth Van Duyne, Regional Administrator, Region VI, U.S. 
  Department of Housing and Urban Development (HUD):
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                                Panel II

Mr. R. Jack Cagle, Commissioner, Harris County, Texas:
  Oral Statement.................................................    51
  Prepared Statement.............................................    53
Hon. Sylvester Turner, Mayor, Houston, Texas:
  Oral Statement.................................................    57
  Prepared Statement.............................................    59
Hon. Allen Owen, Mayor, Missouri City, Texas:
  Oral Statement.................................................    60
  Prepared Statement.............................................    63
Mr. Mark Sloan, Emergency Management Coordinator, Office of 
  Homeland Security And Emergency Management, Harris County, 
  Texas:
  Oral Statement.................................................    74
  Prepared Statement.............................................    75
Ms. Carol Moore, Disaster Chair, Texas State Conference, National 
  Association for the Advancement of Colored People:
  Oral Statement.................................................    77
  Prepared Statement.............................................    78

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Map............................................................    25
The Honorable Michael C. Burgess, a Representative in Congress 
  From the State of Texas:
  Statement of the American Hospital Association.................    40
  Letter Submitted by the Texas Hospital Association.............    45
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Statement of George P. Bush, Commissioner, General Land Office, 
    State of Texas...............................................    79
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, 2018 Hurricane Season Will Bring Another Battery of 
    Storms.......................................................    93
  Article, Houston police chief recalls drowned officer as 
    ``sweet, gentle''............................................   108
  Photos.........................................................   110
The Honorable John Culberson, a Representative in Congress From 
  the State of Texas:
  Article, Flood Threat Known Early--Corps Predicted the 
    Reservoir Spill Before Harvey Hit............................    97
The Honorable Al Green, a Representative in Congress From the 
  State of Texas:
  Information Submitted by the Texas State Conference of NAACP 
    Units........................................................   102

                                APPENDIX

The Honorable Al Green, a Representative in Congress From the 
  State of Texas:
  Article, Survey Finds Unprecedented Psychological Distress 
    After Harvey.................................................   115
  Article, Record reservoir flooding was predicted even before 
    Harvey hit Houston...........................................   117
  Article, U.S. Army Corps of Engineers to release water from two 
    Houston-area dams: statement.................................   120
  Article, $500 million in Ike relief is still unspent. Will 
    Texas do better after Harvey?................................   120
  Article, Climate change displacement is becoming the new 
    gentrification-here's how to stop it.........................   123
  Article, Federal housing agency announces $57.8 million to 
    Texas for Harvey recovery....................................   128
  Article, Four months after Hurricane Harvey, four major 
    questions about recovery for 2018............................   129


 HOUSTON STRONG: HURRICANE HARVEY LESSONS LEARNED AND THE PATH FORWARD

                              ----------                              


                         Monday, April 9, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                       Cypress, TX.
    The committee met, pursuant to notice, at 11:12 a.m., at 
the Berry Center, 8877 Barker Cypress, Cypress, Texas, Hon. 
Michael T. McCaul [Chairman of the committee] presiding.
    Present: Representatives McCaul [presiding], Bacon, 
Thompson, and Jackson Lee.
    Also present: Representatives Burgess, Culberson, Gene 
Green, and Al Green.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today as a follow-up to our 
previous hearing in March on the lessons learned from the 2017 
hurricane season by specifically focusing our efforts to 
respond to and recover from Hurricane Harvey.
    Before I begin, I would like to note that we have a number 
of Members that are not on the Committee of Homeland Security 
attending today, and I would ask unanimous consent that they be 
allowed to participate in today's hearing.
    Without objection, so ordered.
    In accordance with committee rules, the Chairman and 
Ranking Member are entitled to an opening statement of 5 
minutes each. Other Members may submit opening statements for 
the record.
    I appreciate the effort taken on behalf of all those 
involved to have this important field hearing take place, and I 
especially want to thank the Berry Center for hosting us.
    This is an official Congressional hearing, so we must abide 
by certain rules of the Committee on Homeland Security and the 
House of Representatives. I kindly wish to remind our guests 
today that demonstrations from the audience, including applause 
and verbal outbursts, as well as any use of signs or placards, 
are a violation of the rules of the House of Representatives. 
It is important that we respect the decorum and the rules of 
this committee.
    I have also been requested to state that photography and 
cameras are limited to accredited press only.
    I now recognize myself for an opening statement.
    We are here today to ensure that we continue to shine a 
light on the needs of our region post-Hurricane Harvey in a 
building that was integral to the response efforts. When the 
waters were rising, everyone was paying attention, but now that 
they have receded, we must not forget.
    There were many cities and towns across the country that 
felt the wrath of a devastating natural disaster in 2017. 
However, few were impacted like the communities in this area 
where we sit.
    When Harvey hit last August, it was the first Category 4 
hurricane to make landfall on the continental United States 
since 2004. Approximately 34 trillion gallons of rainwater 
punished our State. This led to 1.4 million Texans evacuating 
their homes and 300,000 households without power.
    In the aftermath, over $160 billion in damage was left 
behind. It was the second most expensive storm in American 
history and the most expensive storm in our State's history.
    But these are numbers and stats anyone can read about. I 
was on the ground during the hurricane to oversee response 
efforts and toured many neighborhoods immediately afterwards. 
Roads had turned into rivers and front yards looked like lonely 
islands. Cars were abandoned, homes were destroyed, and despair 
was everywhere I looked.
    But as I visited shelters and met with the victims, I could 
see with my own eyes just how personally and emotionally 
devastating this storm had been.
    Moms and dads, brothers and sisters, even small children 
were taken from us. I will never forget how painful it was to 
see so many people suffer.
    While this has been one of the greatest natural disasters 
known to mankind, it was one of the most compassionate 
humanitarian missions I have ever witnessed and even though our 
State was hurting, I have never been more proud to call myself 
a Texan.
    Brave first responders rescued people who were stranded on 
rooftops or stuck in vehicles. Thousands of ordinary citizens 
became extraordinary heroes, hopping into their own boats and 
searching for anyone who needed help.
    There are so many untold stories of heroic actions of 
bravery. It really was a shining light during such a dark time. 
Seeing our communities come together, Texans saving Texas, is a 
true testament to what our State is really all about.
    But this went beyond Texas. I was proud of our country's 
efforts and the outpouring of support we received during this 
tragedy.
    There was strong coordination between Federal, State, and 
local officials, with FEMA, the Coast Guard, and the Army Corps 
of Engineers playing key roles. Not only were about 20,000 
lives saved--think about that, 20,000 lives saved. My 
grandfather survived the Galveston hurricane where 10,000 lives 
were taken, but these brave heroes saved 20,000 lives. Over 5 
million meals and 5 million liters of drinking water were 
delivered to those in need. This is the kind of teamwork that 
is vital to a successful recovery, and I am proud that my State 
has the great capacity to carry that out.
    Since that time, I am proud to say also that both parties 
in Washington have come together, and those here on this panel, 
to pass supplemental relief packages that provide billions of 
dollars for FEMA's Disaster Relief Fund, HUD's Community 
Development Block Grants, and Army Corps of Engineers flood 
mitigation projects. We must always make sure that FEMA and 
other relevant agencies have the resources they need to respond 
to these disasters.
    Last July, the House passed the first-ever comprehensive 
reauthorization of the Department of Homeland Security with 
bipartisan support. This will strengthen our first responders 
and front-line defenders, and I am encouraged the Senate is 
finally taking action. This bill has many key provisions that 
will help the Department of Homeland Security better prepare 
for natural disasters.
    So while recovering from Harvey continues to be a struggle 
and a challenge for people affected in Texas, I want Texans to 
know that the Nation is still behind them, and I and these 
Members remain here to help.
    I would like to personally thank each of today's witnesses 
for being here to discuss how we are continuing to work to 
recover from Harvey and how we can better prepare for the next 
dangerous natural disaster. This committee is grateful for your 
service and for all of your hard work during Hurricane Harvey, 
and we look forward to hearing your testimony.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 9, 2018
    We are here today to ensure that we continue to shine a light on 
the needs of our region post-Hurricane Harvey in a building that was 
integral to the response efforts. When the waters were rising, everyone 
was paying attention, but now that they've receded, we must not forget.
    There were many cities and towns across the country that felt the 
wrath of a devastating natural disaster in 2017. However, few were 
impacted like the communities in this area.
    When Harvey hit last August, it was the first Category 4 hurricane 
to make landfall on the continental United States since 2004. 
Approximately 34 trillion gallons of rainwater punished our State. This 
led to 1.4 million Texans evacuating their homes and 300,000 households 
were without power.
    In the aftermath, over $160 billion in damage was left behind. It 
was the second most expensive storm in American history and the most 
expensive storm in our State's history.
    But these are numbers and statistics anyone can read about. I was 
on the ground during the hurricane to oversee response efforts and 
toured many neighborhoods immediately after. Roads had turned into 
rivers and front yards looked like lonely islands. Cars were abandoned, 
homes were destroyed, and despair was everywhere I looked.
    As I visited shelters and met with victims, I could see with my own 
eyes just how personally and emotionally devastating this storm had 
been.
    Moms and dads, brothers and sisters, even small children were taken 
from us. I will never forget how painful it was to see so many people 
suffer.
    While this was one of the greatest natural disasters known to 
mankind, it was one of the most compassionate humanitarian missions. 
Even though our State was hurting, I have never been prouder to call 
myself a Texan. Brave first responders rescued people who were stranded 
on rooftops or stuck in flooded vehicles.
    Thousands of ordinary citizens became extraordinary heroes, hopping 
into their own boats and searching for anyone who needed help.
    There are so many untold stories of heroic actions of bravery. It 
really was the shining light during the dark times.
    Seeing our communities come together--Texans saving Texas--is a 
true testament to what our State is all about.
    But this went beyond Texas. I was proud of our country's efforts 
and the outpouring support we received during this tragedy.
    There was strong coordination between Federal, State, and local 
officials, with FEMA, the Coast Guard, and the Army Corps of Engineers 
playing key roles. Not only were about 20,000 lives saved, but over 5 
million meals and 5 million liters of drinking water were delivered to 
those in need. This is the kind of teamwork that is vital to a 
successful recovery.
    Since that time, I am proud to say that both parties in Washington 
have come together to pass supplemental relief packages that provide 
billions of dollars for FEMA's Disaster Relief Fund, HUD's Community 
Development Block Grants, and Army Corps of Engineers flood mitigation 
projects. We must always make sure FEMA and other relevant agencies 
have the resources they need to respond to disasters.
    Last July, the House passed the first-ever comprehensive 
reauthorization of the Department of Homeland Security with 
overwhelming bipartisan support. This will strengthen our first 
responders and front-line defenders and I am encouraged the Senate has 
finally started to take action on this. This bill has many key 
provisions that will help DHS better prepare for natural disasters.
    While recovering from Harvey continues to be a struggle and 
challenge for people affected in Texas, I want Texans to know that the 
Nation is still behind them and I remain here to help.
    I would like to personally thank each of today's witnesses for 
being here today to discuss how we are continuing to work to recover 
from Harvey and how we can better prepare for the next dangerous 
natural disaster.
    This committee is grateful for your service and for all of your 
hard work during Hurricane Harvey and we look forward to hearing your 
testimony.

    Chairman McCaul. With that, the Chair recognizes the 
Ranking Member, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, for holding today's 
hearing on lessons learned and a path forward from Hurricane 
Harvey.
    I would like to begin today by recognizing two Houston-area 
Democratic Members joining us for today's hearing, 
Congresswoman Sheila Jackson Lee, a senior Member of the 
Committee on Homeland Security who represents the 18th District 
of Texas, and Congressman Al Green, a former Member of this 
committee who represents the 9th District of Texas, including 
part of the city of Houston and other communities in Harris and 
Fort Bend Counties. I am sure that Congressman Gene Green, who 
also represents a part of Houston, might come before this 
hearing is over.
    We are pleased to have these Members participate in today's 
hearing as they continue to advocate on behalf of their 
constituents in the wake of Hurricane Harvey, which made 
landfall as a Category 4 storm in August, causing approximately 
$125 billion in damages. Harvey was just one of 17 named storms 
in 2017. Last year's Atlantic hurricane season was one of the 
most active on record. Compared to the debacle in Puerto Rico 
and the U.S. Virgin Islands after Hurricane Maria, the Federal 
response to Hurricane Harvey in support of State and local 
efforts was, in a word, better.
    FEMA had supplies and personnel pre-positioned before 
Harvey made landfall. FEMA also provided 3 million meals and 3 
million liters of water for Harvey survivors. Soon after the 
storm made landfall, there were more than 31,000 Federal 
employees on the ground in support of the response.
    That said, we know there is still significant room for 
improvement for how FEMA and its Federal partners responded to 
Harvey, particularly in underserved communities with vulnerable 
populations and in outlying areas. Often those with the least 
means live in the areas hardest hit by disasters, so we must be 
particularly cognizant of the needs of these communities during 
both response and recovery.
    For the witnesses on the panel, I hope to hear about your 
support to and coordination with State and local partners on 
response and recovery efforts after Hurricane Harvey. I also 
want to hear about the lessons Harvey and other 2017 storms 
have to teach us as we approach the 2018 hurricane season.
    For the witnesses on the second panel, I hope to hear your 
perspectives on the Federal response efforts and learn what can 
we do to support your recovery going forward.
    Finally, I note reports of troubling failures by the 
American Red Cross to provide expected assistance to those 
affected by Harvey to the point of being a no-show in many 
communities. For an agency chartered by Congress and authorized 
in the Stafford Act to provide much-needed assistance to 
Americans in times of disaster, this is unacceptable. I hope to 
hear from our witnesses today about their experiences with the 
Red Cross after Harvey.
    Mr. Chairman, preparing for, responding to, and recovering 
from natural disasters like Hurricane Harvey takes all 
stakeholders coming together and doing their part on behalf of 
survivors. Of course, the Federal Government plays an important 
role in that effort.
    As I said when Administrator Brock Long testified before 
this committee recently, FEMA's mission is supposed to be 
helping people before, during, and after disasters. It is our 
job to conduct the oversight necessary to ensure the agency 
fulfills that mission.
    I look forward to our discussion today, as well as the 
testimony from the witnesses, and I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 9, 2018
    Hurricane Harvey made landfall as a Category 4 storm in August and 
caused approximately $125 BILLION in damages. Harvey was just one of 17 
named storms in 2017, last year's Atlantic hurricane season one of the 
most active on record.
    Compared to the debacle in Puerto Rico and the U.S. Virgin Islands 
after Hurricane Maria, the Federal response to Hurricane Harvey in 
support of State and local efforts was, in a word, ``better.''
    FEMA had supplies and personnel pre-positioned before Harvey made 
landfall. FEMA also provided 3 million meals and 3 million liters of 
water for Harvey survivors.
    Soon after the storm made landfall, there were more than 31,000 
Federal employees on the ground in support of the response.
    That said, we know there is still significant room for improvement 
in how FEMA and its Federal partners responded to Harvey, particularly 
in underserved communities, with vulnerable populations, and in 
outlying areas.
    Often those with the least means live in the areas hardest hit by 
disasters, so we must be particularly cognizant of the needs of these 
communities during both response and recovery.
    For the witnesses on the first panel, I hope to hear about your 
support to and coordination with State and local partners on response 
and recovery efforts after Hurricane Harvey.
    I also want to hear about what lessons Harvey and the other 2017 
storms have to teach us as we approach the 2018 hurricane season.
    For the witnesses on the second panel, I hope to hear your 
perspectives on the Federal response efforts and learn what we can do 
to support your recovery going forward.
    Finally, I would note reports of troubling failures by the American 
Red Cross to provide expected assistance to those affected by Harvey, 
to the point of being a ``no-show'' in many communities.
    For an agency chartered by Congress and authorized in the Stafford 
Act to provide much-needed assistance to Americans in times of 
disaster, this is unacceptable.
    I hope to hear from our witnesses today about their experiences 
with the Red Cross after Harvey.
    Preparing for, responding to, and recovering from natural disasters 
like Hurricane Harvey takes all stakeholders coming together and doing 
their part on behalf of survivors.
    Of course, the Federal Government plays an important role in that 
effort.
    As I said when Administrator Brock Long testified before this 
committee recently, FEMA's mission is supposed to be ``helping people 
before, during, and after disasters.''
    It is our job to conduct the oversight necessary to ensure the 
agency fulfills that mission.

    Chairman McCaul. Other Members are reminded they may submit 
opening statements for the record.
    We are pleased to have two distinguished panels of 
witnesses before us today on this important topic.
    Our first panel includes Mr. Tony Robinson, the Regional 
Administrator for FEMA, Region VI. I want to thank you, sir, 
for your efforts. We worked very closely both here and when we 
were in Austin with the Department of Public Safety, and the 
response efforts were done so well.
    Rear Admiral Paul F. Thomas, the Commander of the United 
States Coast Guard, Eighth District. Thank you for all of your 
efforts in saving lives in Texas.
    Colonel Lars Zetterstrom, the Commanding Officer of the 
United States Army Corps of Engineers, Galveston District. 
Thank you, sir.
    Finally, Ms. Beth Van Duyne, the regional administrator for 
the U.S. Department of Housing and Urban Development, Region 
VI.
    I want to thank all of you for being here. Your full 
written statements will appear in the record.
    The Chair now recognizes Administrator Robinson for his 
testimony.

      STATEMENT OF GEORGE A. ``TONY'' ROBINSON, REGIONAL 
 ADMINISTRATOR, REGION VI, FEDERAL EMERGENCY MANAGEMENT AGENCY 
          (FEMA), U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Robinson. Good morning, Chairman McCaul, Ranking Member 
Thompson, and Members of the committee. My name is Tony 
Robinson, and I am the regional administrator of the Federal 
Emergency Management Agency's Region VI. Thank you for holding 
this hearing in the Houston area and providing this opportunity 
to discuss the lessons learned from Hurricane Harvey and the 
path forward for FEMA and our State and local partners.
    A number of Members of this committee, including Chairman 
McCaul and Congresswoman Sheila Jackson Lee, have districts 
that were severely impacted when Hurricane Harvey made landfall 
in the State of Texas last August.
    When Harvey hit Texas as a Category 4 hurricane, it caused 
a great deal of wind damage and record-breaking lingering 
rainfall equivalent to approximately 33 trillion gallons 
falling in less than a week. By the time it exited Texas, 
Harvey was like three weather events combined in two separate 
landfalls, and unprecedented flooding.
    Recovering from Hurricane Harvey will take a number of 
years, and FEMA is committed to being responsive to our State 
and local partners as they continue the recovery process. There 
is still much work left to do, but working in a continued 
partnership at all levels of government, including partners 
from the voluntary agencies and private sector, we will recover 
``Texas Strong.''
    Because of Hurricane Harvey's size and scale, we learned a 
number of valuable lessons, not least of which was the 
resiliency and bravery of the people of Texas. Neighbors 
helping neighbors saved the lives of untold numbers of Texans 
in cities like Houston and Corpus and the suburbs of Montgomery 
and Jefferson Counties, and in small towns like Rockport and 
Nederland. Citizens are our greatest assets, and just as they 
played a crucial role in response, they must also be the 
drivers of the recovery.
    Governor Abbott's leadership and the Texas Division of 
Emergency Management, along with local governments and 
municipalities and other State agencies, should be commended 
for the work they did in saving lives as the storm struck and 
lingered over the State. Their sound preparations were highly 
effective, and they were organized in ways that enabled FEMA 
and others to be highly effective partners in the response and 
recovery efforts.
    Working with our partners in the face of the largest storm 
to hit the continental United States since 2005, FEMA has 
deployed thousands of workers and billions of dollars to help 
Texas with response and recovery. We have paid over $8.6 
billion to handle over 90,000 flood insurance claims. We have 
handled over 895,000 registrations for FEMA assistance. We have 
completed over 600,000 home inspections. We have approved over 
$1.5 billion in housing and other disaster-related expenses. 
Together with our Federal partners like the Small Business 
Administration, we have placed $13.5 billion into the hands of 
survivors.
    Last month, Administrator Long testified to you about his 
vision of disasters being Federally-supported, State-managed, 
and locally-executed. To that end, we continue to innovate how 
we carry out our programs. An example of this concept can be 
seen in how we approached the housing mission in Texas, FEMA 
supporting the State with funds, expertise, and resources to 
deliver a more flexible housing approach. For Hurricane Harvey, 
a multi-pronged approach to the housing mission has been 
implemented, allowing a number of different options including a 
permanent housing repair program and recreational vehicles that 
were not available in 2016. These options were added with 
programs designed to allow people to return home and shelter 
there as they completed the needed repairs.
    These options, along with the State taking a lead role, 
were implemented to provide scalability and flexibility to work 
with local jurisdictions on solutions that best matched their 
needs.
    We recognized early in the event that solutions that work 
in Houston are different than what is needed in Victoria or 
Beaumont, and applying lessons learned from the 2016 floods in 
Louisiana provided additional options to meet those different 
needs.
    While the housing mission has not been without its 
challenges, the lessons learned at the State, local, and 
Federal level will allow us to further reform and reduce the 
complexity of the program of the future. I commend the effort 
and the courage of the State of Texas and the General Land 
Office for partnering with FEMA to address temporary housing 
solutions.
    Lessons learned from this historic season and FEMA's 
strategic plan will help us and our State and local partners 
handle the emergency management needs of our country to build a 
culture of preparedness, enhancing our capability to respond to 
catastrophic events, and reducing the complexity of our program 
delivery.
    Some of the lessons we learned in Harvey reiterate these 
goals, such as a level of planning, training, and exercise 
together we did at all levels in Texas. This builds capacity 
and capability that serves survivors and communities.
    We also learned we need to close the insurance gaps for 
individuals and public facilities, and we need to invest more 
in mitigation prior to a disaster.
    At FEMA, we are constantly reviewing our program delivery, 
decision-making processes, and responses to ensure that we 
improve, minimize errors, and better serve survivors on their 
worst day.
    Thank you for the opportunity to testify, and I look 
forward to any questions you may have.
    [The prepared statement of Mr. Robinson follows:]
           Prepared Statement of George A. ``Tony'' Robinson
                             April 9, 2018
                              introduction
    Good morning, Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. My name is Tony Robinson, and I am the regional 
administrator of the Federal Emergency Management Agency's (FEMA) 
Region 6. Region 6 is comprised of five States, Texas, Louisiana, 
Arkansas, Oklahoma, and New Mexico. I'd like to thank you for holding 
this hearing in the Houston area and providing this opportunity to 
discuss the lessons learned from Hurricane Harvey and the path forward 
for FEMA and our State and local partners.
    Many Members of this committee, including Chairman McCaul and 
Congresswoman Jackson Lee, have districts that were severely impacted 
when Hurricane Harvey unleashed massive amounts of rain on the State of 
Texas last August.
    Together, in close partnership with the State of Texas, ably led by 
Governor Abbott and his excellent team at the Texas Division of 
Emergency Management, known as TDEM--and their partnership with mayors, 
county judges, and local emergency managers--we have built strong 
response and recovery capabilities to serve Texans. FEMA's regional and 
National assets integrated into this structure to work across an 
impacted area of more than 37,000 square miles to assist in response 
and recovery operations.
    When Hurricane Harvey hit Texas as a Category 4 hurricane, it 
caused a great deal of wind damage and record-breaking rainfall 
equivalent to approximately 33 trillion gallons in less than the span 
of a week. That flooding directly impacted millions of people from our 
Nation's fourth-largest city, Houston, as well as small and medium-size 
communities along the coast and into the interior of the State.
    Recovering from Hurricane Harvey will take a number of years, and 
FEMA is committed to being responsive to our State and local partners 
as they continue the recovery process. There is still much work left to 
do, but working in a continued partnership at all levels of government, 
including partners from the voluntary agencies and private sector, we 
will recover ``Texas Strong.''
                   hurricane harvey--lessons learned
    Because of Hurricane Harvey's size and scale, we learned a number 
of valuable lessons, not least of which was the resiliency and bravery 
of the people of Texas. The flooding caused by the unprecedented 
rainfall transformed many everyday Texans into heroes and first 
responders. Neighbors helping neighbors, whether in cities like 
Houston, or Corpus Christi, or in the suburbs of Montgomery and 
Jefferson counties, or small towns from Rockport to Nederland, saved 
the lives of untold numbers of Texans. At FEMA Region 6, we are 
constantly reminding those we serve that, ``You are the help until help 
arrives,'' and Texans can be very proud of the way that they rose to 
the challenges created by Hurricane Harvey.
    Texans weren't the only ones who answered the call. Volunteers from 
across the Nation, in particular those from Louisiana, including the 
Cajun Navy, added their boats and supplies to the rescue efforts of so 
many volunteers in Texas. Through their actions and unrelenting 
efforts, Texans, and those volunteers who came in from across the 
Nation, showed that ``Texas Strong,'' was not just a slogan, but a 
fact. That strength was also visible in the people from the coastal 
bend to the border with Louisiana, who were willing to risk their lives 
to help out friend and stranger alike in those crucial early hours of 
the disaster.
    The State of Texas, and TDEM in particular, along with local 
governments and municipalities, should be commended for the work they 
did in saving lives as the storm struck and lingered over the State, 
creating immense challenges across such a wide swath of land. The State 
clearly takes emergency management very seriously and it has spent 
considerable resources preparing for dealing with natural and man-made 
disasters. Their sound preparations were highly effective, and they 
were organized in ways that enabled FEMA and others to be highly 
effective partners in the response and recovery efforts.
    Another important lesson that we have taken away from the impact of 
Hurricane Harvey is the importance of pre-disaster preparation. When 
FEMA's Administrator Brock Long spoke to you last month about the 
agency's strategic plan, he mentioned that building a culture of 
preparedness and readying the Nation for catastrophic disasters are two 
of our three main strategic goals. Hurricane Harvey is a prime example 
of what a difference being prepared can make.
    One area where we have made progress in building a culture of 
preparedness is the strong relationship that was already in place 
between FEMA and TDEM. We worked so well together in this disaster 
because we have spent years developing a strong partnership. That was 
crucial as we supported the State of Texas in its response and rescue 
efforts. Because our leadership and staff already had strong working 
relationships, our ability to communicate and coordinate was greatly 
enhanced.
    One area where we have not made nearly enough progress in building 
a culture of preparedness is in educating the public of the value of 
purchasing flood insurance. Too many people in Texas, and throughout 
the Nation, do not understand the importance of carrying flood 
insurance, regardless of whether they are in a flood-prone area or not. 
Ensuring the public knows the value of the protections provided by 
carrying flood insurance, which in most cases is a low-cost protective 
measure, would help ensure those affected by flood are made as whole as 
possible. As seen with Hurricane Harvey, many of us learned very 
painful lesson about the need to have flood insurance. As people work 
on their own personal recoveries they are coming to the unfortunate 
realization that Stafford Act programs offered through FEMA are not a 
form of insurance and the grant dollars we have available are not 
sufficient to make them whole, nor in fact was that ever the purpose of 
FEMA's Individual Assistance programs.
    As we work to better educate the public about what assistance is 
available after a disaster, we must do more to promote awareness of the 
National Flood Insurance Program and other options to purchase flood 
insurance. Our agency's goal is to double the number of flood insurance 
policies. Hurricane Harvey provides a powerful lesson about the 
importance of having flood insurance with the average payout being more 
than $80,000, compared to an average Individual Assistance grant that 
was under $7,000. Clearly, $80,000 is going to get you a lot further 
along the path of recovery than $7,000 will. That should help us drive 
home the importance of investing in a flood insurance policy.
    Administrator Long also testified last month about his vision of 
disasters being ``Federally-supported, State-managed, and locally-
executed.'' To that end, Hurricane Harvey also taught us that we need 
to do more to empower the States to handle the challenge of a disaster-
created housing mission. Texas stepped up to the plate in response to 
Harvey and sought to have a multi-pronged approach to the housing 
mission, allowing local jurisdictions to pick from a number of 
different options including mobile housing units and other programs 
designed to allow people to return home and shelter there as they 
completed the needed repairs. This brings us to our agency's third 
strategic goal: To reduce the complexity of FEMA programs. There is 
still much work left to be done, but the partnership we have with the 
General Land Office of the State of Texas provides an innovative 
approach to streamline how we address disaster housing. While the 
housing mission has not been without its challenges, the lessons 
learned at the local, State, and Federal level will allow us to further 
reform and reduce the complexity of our housing missions in the future.
    Another important lesson learned was the changing nature of 
communications during both the short-term response and long-term 
recovery phases of a disaster. The challenges and opportunities created 
by cellular technology, the internet, and social media provided FEMA, 
TDEM, and local emergency mangers new ways to interact with the general 
public. The public has also grown more diverse leading to additional 
focus on languages beyond just English and Spanish, to be inclusive of 
those with different communication needs such as the deaf community. 
During the initial response phase, people used social media to provide 
the locations of people needing rescue, to report on conditions, and to 
facilitate the coordination of volunteer activities and resources. 
During the recovery phase, FEMA employed tools such as the FEMA mobile 
application and Facebook Live to provide real-time updates and 
disseminate important information. As we prepare for future disasters 
FEMA must be mindful of changing communities and methods of 
communication to be certain that accurate and timely information is 
distributed and useful information is received.
    At FEMA, we are constantly reviewing our program delivery, 
decision-making processes, and responses to ensure that we improve, 
minimize errors, and better serve survivors on their worst day. We also 
are eager to work with Congress, and this committee in its oversight 
capacity, to determine if legislative changes are required, and to 
ensure that we are executing our programs consistent with Congressional 
intent. We have learned, and will continue to learn, from this historic 
disaster.
                            the path forward
    As we plan for the future and work on the long-term recovery from 
Hurricane Harvey, we must also consider future threats. We are less 
than 60 days out from the start of the 2018 hurricane season and we 
have to be cognizant of very real threats that may be on the horizon.
    In response to the historic nature of Hurricane Harvey, FEMA's 
response will be larger and longer-lasting than normal. We are opening 
a Long-Term Recovery Office so that we can be an effective and 
responsive partner to State and local officials as they drive the 
recovery efforts. This office will hire additional staff and will 
remain open for the next few years to ensure that we can respond to the 
extraordinary needs generated by this disaster.
    Additionally, FEMA will be working closely with our partners at all 
levels to increase the promotion of flood insurance so that individuals 
and businesses are better able to manage and fund their own recoveries 
from future disasters. Greater emphasis on the importance of flood 
insurance will be key to creating the culture of preparedness that is 
one of our agency's strategic goals.
    We are working with our Federal, State, and local partners to 
review and revise procedures to streamline and simplify the delivery of 
our programs, so that we can provide a process that is easier for the 
public, eliminates duplication of effort, and will allow for a more 
timely response to their concerns.
    To help our local and State partners build communities that are 
more resilient we will work on making sure that mitigation funding and 
planning receives greater emphasis. As an area that is no stranger to 
natural disasters, we must do more to ensure that construction and 
development takes place in a way that is consistent with mitigating the 
impact of future hurricanes and other potential disasters.
    We will also work with our stakeholders and partners on a 
communication strategy meant to empower individuals and communities to 
prepare for the disasters that are inevitable in our region. FEMA will 
continue to work to improve our programs, communication strategies, and 
to support our partners. But from response to recovery it is local 
communities and individual citizens who must lead the way. We will do 
all we can to empower them to do so.
                               conclusion
    Hurricane Harvey caused significant damage to many jurisdictions 
throughout Texas. FEMA remains committed to working with our Federal, 
State, and local partners to make the State more resilient and to 
support the recovery no matter how long it takes. Through our mutual 
efforts, we will benefit by having learned many valuable lessons that 
will allow us to build a culture of preparedness in Texas and 
throughout the Nation.
    Thank you for the opportunity to testify, and I look forward to any 
questions you may have.

    Chairman McCaul. Thank you, Mr. Robinson.
    The Chair now recognizes Rear Admiral Thomas.

  STATEMENT OF REAR ADMIRAL PAUL F. THOMAS, COMMANDER, EIGHTH 
     COAST GUARD DISTRICT, UNITED STATES COAST GUARD, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Thomas. Good morning, Chairman McCaul, Ranking 
Member Thompson, distinguished Members of the committee. It is 
my pleasure to be with you today to discuss the Coast Guard's 
response to Hurricane Harvey.
    As the Federal Government's maritime first responder and an 
armed service within the Department of Homeland Security, the 
Coast Guard is uniquely positioned to operate across the 
response spectrum and serve as a bridge between the Department 
of Defense and local, State, and other Federal agencies in any 
disaster response, and we did that during Harvey.
    When Harvey formed in the Gulf of Mexico, Coast Guard crews 
worked around the clock to ensure the safety of our people, 
assets, and facilities to direct actions in order to minimize 
the risk to commercial ports and to prepare for the search-and-
rescue missions that we knew were to come. Even before Harvey 
made landfall in south Texas, Coast Guard air crews rescued a 
dozen mariners from the motor vessel Gulf Justice as she was 
aground and foundering in high winds and heavy seas at the 
leading edge of the storm.
    Harvey raged on for the next 5 days, and Coast Guard crews 
and aircraft and shallow water boats battled tropical storm 
winds and near-zero visibility in a treacherous urban 
environment to rescue stranded victims, many of whom suffered 
from serious medical conditions and needed immediate treatment.
    While our Coast Guard crews directly effected the rescue of 
more than 11,000 people in that time period, using our 
facilities, our command-and-control capability, and the on-
scene initiative that defines our enlisted work force, Coast 
Guard men and women directed and facilitated the rescue of tens 
of thousands.
    Even before the storm cleared Texas, our crews were on the 
water, working with partner agencies to restore critical 
channels and aids to navigation, and to ensure the port 
facilities were able to safely receive ships and restart 
operations here in the Port of Houston and throughout Texas. 
Those efforts ensured that the area refineries not severely 
damaged by the storm were able to receive feedback and continue 
to operate.
    In the weeks and months following the storm, Coast Guard 
women and men responded to more than 670 pollution sites and 
removed over 58,000 gallons of oil and more than 8,500 pounds 
of hazardous materials that were spread through coastal Texas 
by the storm and the floods.
    As the commander responsible for Coast Guard operations in 
a 26-State region, including all of Texas, I am tremendously 
proud of what our Coast Guard men and women accomplished in the 
face of this historic storm, even while many of them suffered 
damage to their own homes and properties alongside their fellow 
Texans.
    But I am also acutely aware that these efforts did not come 
without significant costs that impacted our ability to maintain 
a proper response posture and to execute all missions 
throughout the eighth Coast Guard district. Certainly, there is 
a readiness cost as we operated boats and aircraft well above 
planned rates, and we deferred maintenance and training in 
order to surge forces from around the eighth district and 
around the Nation here to Texas.
    As you know, Coast Guard facilities along the coast of 
Texas suffered significant damage and must be rebuilt in order 
to restore the full function of those units. Of course, there 
is an opportunity cost associated with diverting Coast Guard 
resources from other missions, particularly our interdiction 
missions where adversaries take advantage of reduced Coast 
Guard presence.
    Thanks to the support of this Congress and the 
administration, we are beginning to offset those costs. Over 
$100 million of the supplemental funding provided by Congress 
to the Coast Guard in the wake of this hurricane season will be 
put to work right here in Texas. We are restoring the readiness 
of our aircraft and air crews, recapitalizing our shallow water 
rescue equipment, and rebuilding destroyed Coast Guard 
facilities to standards intended to withstand the storms of the 
future.
    We have also taken steps to ensure we are even better 
prepared for hurricanes and all contingencies in the future. 
Here in Texas, we have coordinated with the Governor's staff, 
the National Guard, and Texas Task Force 1 to improve our joint 
operations for urban search and rescue, and we have engaged 
Marine Corps Amphibious Unit 4 in Galveston so that we can plan 
and train together and very quickly bring their tremendous 
high-water operations capability into the fight.
    Throughout the Coast Guard we are working to better track 
and respond to calls for help that come to us through social 
media, and to use social media heat maps to focus our response 
efforts.
    Mr. Chairman, Members of the committee, the men and women 
of the eighth Coast Guard district are proud and privileged to 
be members of the world's greatest Coast Guard, and we 
appreciate your continued strong support of our service. We 
continue to stand with Texas, alongside Texans, ready for 
whatever comes next.
    Thank you for the opportunity to be with you this morning, 
and I look forward to your questions.
    [The prepared statement of Admiral Thomas follows:]
                  Prepared Statement of Paul F. Thomas
                             April 9, 2018
                              introduction
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. It is my pleasure to be here 
today to discuss the Coast Guard's preparations for the next Atlantic 
hurricane season, lessons learned from the 2017 hurricane season, and 
the demands contingency responses place on the Coast Guard.
    First, let me thank you for the outstanding support this committee 
has given the Coast Guard, especially as it relates to the supplemental 
funding for hurricane response activities. This critical infusion 
allows the Service not only to rebuild damaged and destroyed 
facilities, but also provides the ability to rebuild to modern 
resiliency standards, ensuring the best chance of withstanding future 
disasters.
    The U.S. Coast Guard is the world's premier military, multi-
mission, maritime service responsible for the safety, security, and 
stewardship of U.S. waters and hundreds of miles seaward. At all times, 
a military service and branch of the U.S. Armed Forces, a Federal law 
enforcement agency, a regulatory body, a first responder, and a member 
of the U.S. intelligence community, the Coast Guard stands the watch 
and serves a Nation whose economic prosperity and National security are 
inextricably linked to broad maritime interests.
    As the Nation's maritime first responder, the Coast Guard has 
unique capabilities, capacity, and authorities that allow it to play a 
critical role in disaster response. Today I would like to discuss the 
Coast Guard's primary missions in disaster response, its strengths, 
limitations, and some issues that demand our focus as we look toward 
the 2018 hurricane season.
                 primary missions in disaster response
    The Coast Guard's primary missions in domestic disaster response 
are:
    1. Saving lives in distress, and ensuring the safety and 
        survivability of its own forces and assets for immediate post-
        disaster response operations;
    2. Security and reconstitution of ports, waterways, and critical 
        maritime infrastructure;
    3. Environmental response operations (oil, chemical, and hazardous 
        material); and
    4. Support to other agencies in a whole-of-Government response 
        effort.
    Saving lives in distress remains our first priority. During 
Hurricanes HARVEY, IRMA, MARIA, and NATE, Coast Guard women and men in 
vessels, aircraft, vehicles, and on foot rescued nearly 12,000 people 
and over 1,500 pets.
    For each of these storms and all natural disasters along our 
coastline, Coast Guard crews are typically the first Federal responders 
to enter an impacted area, right alongside our State, local, Tribal, 
and territorial responders, to conduct rescues and assess damage. I 
should note that in an average year, the Coast Guard saves 3,600 lives. 
The Coast Guard tripled that number during HARVEY alone in a matter of 
days.
    In addition to search and rescue operations, the Coast Guard flows 
forces into the impacted regions to restore ports and waterways, 
respond to pollution, provide security and additional law enforcement 
capability where necessary, and protect off-shore petrochemical 
platforms. Within 5 weeks, Hurricanes HARVEY, IRMA, MARIA, and NATE 
impacted over 2,500 miles of shoreline.\1\ The Coast Guard responded to 
1,269 aids to navigation discrepancies, handled 290 pollution cases, 
and targeted and assessed thousands of grounded vessels, with more than 
4,200 removed to date. Coast Guard damage assessment teams were on-
scene within hours determining the status of ports and waterways, 
documenting environmental hazards, assessing the impacts to Coast Guard 
facilities and capabilities, and leveraging technology, such as the 
employment of electronic aids to navigation, to facilitate the 
reopening of key ports and waterways.
---------------------------------------------------------------------------
    \1\ Using CRS method of Shoreline Measurement: Texas: 367 mi, 
Louisiana: 397 mi, Florida: 1,350 mi, Puerto Rico: 311 mi, USVI: 117 
mi.
---------------------------------------------------------------------------
    The Coast Guard response during the 2017 hurricane season was 
historic and overwhelmingly successful. However, as an organization 
dedicated to continuous improvement and increased resiliency the Coast 
Guard inherently knows there are lessons to be learned, even after a 
successful contingency response. The Coast Guard has identified several 
strategic and over 100 tactical-level lessons learned. The Coast Guard 
is tracking, and will continue to track, these issues until they have 
been resolved. The Service is updating policies and plans, improving 
capabilities, sharing best practices, and working with FEMA and State 
partners to improve processes. As we approach the start of the Atlantic 
hurricane season on June 1, 2018, the Coast Guard will conduct fifty-
two natural disaster exercises at its District and Sector Commands.
                             our strengths
    The Coast Guard has several key strengths that enable quick and 
effective response to natural disasters. The first of these strengths 
begins with its people, whose bias for action and adaptability to 
rapidly changing circumstances and uncertainty never ceases to fill me 
with pride and admiration.
    Coast Guard cutters, aircraft, and boats are built to respond to a 
variety of missions without the need for any significant 
reconfiguration. Cutters conducting counter-drug patrols in the Transit 
Zone can quickly divert to disaster areas to provide command and 
control, deliver rotary-wing air capability from the sea, conduct 
refueling, and provide forward staging facilities. Coast Guard aircraft 
that normally perform law enforcement surveillance to thwart 
transnational maritime criminal activities can be dynamically 
repositioned and re-tasked to deliver disaster relief supplies, 
additional responders, and equipment to affected areas.
    Additionally, Coast Guard forces are on station at key locations 
around the Nation, most of them on short-notice recall, which can 
respond quickly to emergent events. When a major catastrophe occurs or 
is anticipated, the Service can reposition forces quickly to that area 
to optimize the response.
    The Coast Guard enjoys an agile and decentralized command-and-
control structure, which provides operational commanders the authority 
to move forces quickly to respond to large contingencies. Two Area 
Commanders, and their nine subordinate District Commanders, can shift 
and reallocate forces from one region to another based on levels of 
risk and anticipated demand for operational capabilities.
    The Coast Guard has also developed and regularly exercises 
Continuity of Operations Plans for relocating command and control 
functions out of harm's way to strategically advantageous positions to 
effectively conduct response and recovery operations. During the 2017 
hurricanes, seven major shore commands and one District command shifted 
out of the path of the storms to alternate facilities, resulting in 
only minor disruptions and no loss of command and control.
    In addition to fielding flexible, multi-mission forces and 
effective command-and-control systems, the Coast Guard also benefits 
from a unique mix of broad standing authorities, as well as extensive 
experience operating within both military and other interagency 
response organizations.
    As a military service, the Coast Guard can be a supported or 
supporting commander, and its forces are frequently integrated with 
U.S. Department of Defense (DOD) services in Joint Task Force 
organizations. The Service regularly provides forces in support of DOD 
exercises, Combatant Commander contingency plans, and theater security 
cooperation activities. This routinely exercised relationship develops 
close cooperation at the service level, enabling Coast Guard and DOD 
forces to integrate seamlessly during disaster response operations.
    In addition to its military role, the Coast Guard routinely works 
with other Federal agencies, State and local governments, non-
governmental agencies, and international organizations under its U.S. 
Code, Title 14 law enforcement and regulatory responsibilities.
    The Coast Guard is the Nation's ``maritime first responder'' and 
has a leading role in executing the National Response Framework (NRF) 
for disaster situations. Its personnel are well-trained and experienced 
in response operations, which make them a sound choice to be designated 
for key leadership positions in the NRF structure. This ability to 
operate concurrently in both military Joint Task Force and civilian NRF 
structures enhances unity of effort during whole-of-Government 
responses across organizations and dramatically improves the 
effectiveness of disaster response, which makes the Coast Guard a truly 
unique Federal agency.
                            our limitations
    Despite the many strengths the Coast Guard brings to disaster 
response, the Service has limitations that must be considered.
    Across the 2017 hurricane response operations, more than 3,000 
Coast Guard women and men, and 200 assets or platforms from across the 
service, from places as far away as Alaska, Hawaii, and Maine responded 
to save nearly 12,000 citizens in distress. The hurricane response had 
a significant impact on Coast Guard operations. The Coast Guard is 
small in comparison to the other Armed Services. With only 40,600 
active duty, 7,000 reserve, and 8,500 civilian personnel, responding to 
a major natural disaster requires balancing risk in other geographic 
regions and mission areas in order to flow forces and capabilities into 
the major disaster response.
    Residual risk was spread across the Coast Guard, with a keen eye 
toward meeting minimal mission standards in most, but not all, 
locations. Given the heavy demand for aviation capabilities following 
each of the storms, all aviation training was stopped until the later 
stages of recovery efforts were reached. The level of forces typically 
allocated to performing counter-drug, fisheries enforcement, and 
migrant interdiction operations in the Eastern Pacific Ocean, Caribbean 
Sea, and Florida Straits were reduced as well.
    The Service has a limited capacity to respond to prolonged and 
sequential events. While the Coast Guard is well-positioned for 
immediate and effective first response, plans to sustain operations and 
hand-off responsibilities once a crisis has been stabilized are primary 
considerations for Coast Guard commanders responding to natural 
disasters. During 2017, the initial hurricane response spanned multiple 
months, with some response operations continuing today. The Coast Guard 
endured risk exposure across all 11 missions with service-wide impacts 
to training, personnel readiness, and maintenance of equipment. To 
sustain prolonged response operations, the Service had to sacrifice 
preparedness for the next contingency response. When discussing 
resiliency, infrastructure and assets immediately come to mind. 
However, the resiliency of the Coast Guard as an organization is 
equally critical to mitigating the secondary effects of responding to 
emergent events. The Coast Guard must be able to meet the needs of the 
Nation, through a resilient and well-trained workforce, while 
simultaneously answering the call for help during a disaster.
    The age and condition of the Coast Guard's assets is another 
concern, and is one that the administration, with the support of 
Congress, is working hard to improve. As more modern and capable 
cutters repositioned for hurricane response, the Coast Guard Cutter 
ALERT, a 48-year-old cutter, held the line in the Eastern Pacific 
Ocean. The crew performed admirably, including a 2-week period as the 
only cutter operating in the Eastern Pacific.
                    issues to focus on going forward
    Last, there are several areas that will require continued energy 
and focus in the months and years ahead in order to enhance the Coast 
Guard's National disaster response capacity and capability.
    When the Coast Guard has the opportunity to recapitalize its 
facilities, it needs to make them more storm-resilient and survivable. 
In fact, several shore facilities that were rebuilt following Hurricane 
IKE suffered minimal damages along the paths of HARVEY and IRMA, a 
testament to modern building codes and standards.
    Continued investment in recapitalizing Coast Guard resources is 
paramount. The need for modernized assets, such as the Offshore Patrol 
Cutter and Waterway Commerce Cutters, to replace an aging fleet is 
highlighted by the National Security Cutter's superior ability to 
coordinate and communicate with Coast Guard, Department of Defense, and 
interagency resources during contingency responses.
    Investing in the Coast Guard's infrastructure supports its greatest 
resource: Its people. Although the Service deployed approximately 3,000 
additional Coast Guard women and men to support response operations, 
many more Coast Guardsmen from within the impacted areas responded to 
help those that were displaced and distressed, even as they and their 
loved ones were also displaced. The Coast Guard had to relocate over 
700 Coast Guard members and dependents after their homes were damaged 
to the point of being uninhabitable.
    Many do not realize the residual risk associated with surging 
resources to an incident. No amount of response capacity and capability 
will be effective without a foundation of preparedness. Having enough 
well-trained and properly-equipped personnel, the right assets, and 
adequate contingency infrastructure in place prior to an event is vital 
to sustained success during a major disaster response, and to the 
reconstitution of the impacted area. It is too late to train 
responders, procure new equipment, or find alternate command posts when 
a hurricane is barreling toward the coast. As has been shown time and 
again, investment in the Coast Guard pays dividends when they are 
needed most.
                               conclusion
    The Coast Guard is well-positioned to respond to natural disasters 
due to its unique blend of authorities, capabilities, and capacity. 
Flexible, multi-mission forces and agile command-and-control systems 
provide the solid foundation from which we can respond to major 
catastrophes. When combined with broad authorities and extensive 
experience operating with diverse partners, the Coast Guard provides a 
vital service to our Nation. As an organization that strives to better 
serve the Nation through continual improvement, the Coast Guard 
evaluates its successes and failures to optimize performance through 
applying both strategic and tactical-level lessons learned. The Coast 
Guard's dedication to on-going self-improvement will ensure that it is 
best positioned to deliver the level of service the Nation expects and 
deserves well into the future.
    Thank you for the opportunity to testify before you today and for 
your on-going support of the men and women of the Coast Guard. I look 
forward to your questions.

    Chairman McCaul. Thank you, Admiral. The State of Texas is 
forever grateful. We appreciate what you did.
    The Chair recognizes Colonel Zetterstrom.

 STATEMENT OF COLONEL LARS N. ZETTERSTROM, COMMANDING OFFICER, 
   GALVESTON DISTRICT, UNITED STATES ARMY CORPS OF ENGINEERS 
   (ACE), DEPARTMENT OF THE ARMY, U.S. DEPARTMENT OF DEFENSE

    Colonel Zetterstrom. Good morning, Chairman McCaul and 
Ranking Member Thompson, and distinguished Members of the 
committee. I am honored to testify before you today to discuss 
the authorities and responsibilities of the U.S. Army Corps of 
Engineers during disaster response and recovery operations, 
focusing on Hurricane Harvey and its impacts to the coast of 
Texas. I am Colonel Lars Zetterstrom, and I am the Commander of 
the Galveston District of the U.S. Army Corps of Engineers.
    The Corps conducts its emergency response and recovery 
operations under two authorities, the Stafford Act and Public 
Law 84-99. Under the Stafford Act, we and other Federal 
agencies support FEMA under the National Response and Recovery 
Framework. In this capacity, the Corps is the lead Federal 
agency for Emergency Support Function 3, Public Works and 
Engineering. ESF-3 provides temporary emergency power, 
temporary roofing, debris management, emergency infrastructure 
assessment, critical public facility restoration, temporary 
housing, and demolition and structural stabilization. Under 
Public Law 84-99, we prepare for disasters through planning, 
coordination, and training with local, State, and Federal 
partners. The Corps can also assist State and local entities in 
flood fight operations or through implementation of advanced 
measures to prevent or reduce storm incident outcomes. Public 
Law 84-99 authorizes the Corps to repair damage to Federal 
flood infrastructure projects, and works with States and 
municipalities to rehabilitate and restore eligible non-Federal 
flood infrastructure to pre-storm conditions.
    When disasters occur, Corps teams and other resources are 
mobilized from across the Nation to assist the local Corps 
district. As part of this mission, the Corps has more than 50 
specially-trained response teams, supported by contracting, to 
perform the wide range of missions that I just described.
    On the 25th of August, 2017, Category 4 Hurricane Harvey 
made landfall near Rockport, Texas. Large amounts of rainfall 
fell across southeastern coastal Texas, causing record 
flooding. FEMA tasked 27 total mission assignments totaling 
$126 million to the Corps to assist in Harvey response and 
recovery efforts. Since August 22, 2017, nearly 1,000 Corps 
personnel have deployed to support response and recovery 
efforts. Currently, 78 Corps employees are deployed supporting 
11 active recovery mission assignments. Active mission 
assignments currently total $39 million, and we are expected to 
complete them no later than the end of June.
    In our housing mission, in 31 of the disaster-impacted 
Texas counties, we have responded to 3,100 applicants that are 
approved for FEMA Temporary Housing Assistance to date. We have 
inspected approximately 400 haul-and-install unit 
installations, and certified approximately 150 mobile housing 
units as ready for occupancy each week. To date, the Corps has 
assessed over 3,300 private sites and over 1,200 commercial 
sites. The Corps assessed more than 330 potential group sites 
and completed the construction or improvements to one existing 
group site.
    Corps subject-matter experts continue to provide State and 
county officials with technical assistance for debris removal 
and disposal.
    The Corps installed a temporary school and a city hall, and 
we are currently installing a volunteer fire department and an 
additional temporary school.
    We provided over 1 million sandbags to local governments, 
and we are currently designing repairs to three flood damage 
reduction projects, and assessing seven more impacted by 
Harvey.
    The Galveston District is tasked with maintaining over 
1,000 miles of Federally-authorized navigation channels in 
Texas. We accomplish this through our hydrographic surveys and 
maintenance dredging.
    In a normal year we dredge more than 25 million cubic yards 
of sediment accumulation, known as shoaling. An additional 9 
million cubic yards of shoaling have been identified post-
Harvey so far. Harvey impacted nearly all of the Nation's 
navigation projects within the Galveston District's area of 
responsibility. We are an active member of the Gulf Coast Joint 
Hurricane Response Team since its inception in 2005. This team, 
in advance of each hurricane season, conducts monthly meetings 
to prepare for navigation impacts due to coastal storms.
    Within days of Hurricane Harvey's landfall, we had 
mobilized more than 15 dredges and 24 hydrographic survey 
vessels to ensure that we could rapidly survey and restore 
navigation to the coast of Texas. A few channel restrictions 
persist today, some within the upper reaches of the Houston 
Ship Channel and currently at the Port of Brownsville Entrance 
Channel.
    The Galveston District has partnered with the Harris County 
Flood Control District since the 1930's on reducing risks in 
the Houston area. Before Harvey reached the Houston area, the 
District deployed staff to the Addicks and Barker Reservoir 
Dams for 24-hour-a-day condition inspections. The dams were 
operated in accordance with the Water Control Manual during 
Harvey, which was an episodic, record-breaking rainstorm event 
that dropped approximately 36 inches of rain within the Addicks 
and Barker watersheds, and as much as 51 inches of rain in 
locations across the Houston region. The Addicks and Barker 
Dams structures performed as designed during the event. The 
District also embedded members of its staff in regional 
Emergency Management Centers during Harvey to communicate the 
risk with those agencies, the media, and the public.
    In addition to the Buffalo Bayou and Tributaries, also 
known as the Addicks and Barker Dams flood risk reduction 
projects, the Corps has or is partnering with the Harris County 
Flood Control District on a number of additional flood damage 
reduction projects. The District and Harris County Flood 
Control District physically completed construction of the Sims 
Bayou project in July 2016. While the project did incur some 
erosion damage, no flooding of structures occurred along Sims 
Bayou during Harvey. The Greens Bayou Flood Risk Management 
Project is currently under construction and is scheduled for 
completion in 2020. The Corps has also reimbursed Harris County 
Flood Control District for its completed increments of work 
along the Brays Bayou project.
    For the path forward, in response to a 2013 dam safety 
modification study, the District is currently constructing new 
outlet structures and outlet channels at both the Addicks and 
Barker Dams. This current construction project is scheduled for 
completion in April 2020. Additional studies to analyze the 
needs for rehabilitation of the Addicks and Barker spillways 
and the return flow ditches of the existing authorized project, 
and also to assess the potential for additional nonstructural 
or structural measures to reduce the risks of flooding in the 
vicinity of Addicks and Barker reservoirs, or to develop tools 
to identify best practices in flood plain management are also 
contemplated. The Corps continues to partner closely and 
discuss current and future opportunities with Federal, State, 
and local partners.
    The Corps remains fully committed and capable of executing 
its civil works activities across the Nation despite our heavy 
involvement in these on-going response and recovery operations 
due to Hurricanes Harvey, Irma, and Maria. We also remain ready 
and poised to assist in future incidents as they may occur.
    This concludes my testimony, and I look forward to 
answering your questions. Thank you.
    [The prepared statement of Colonel Zetterstrom follows:]
               Prepared Statement of Lars N. Zetterstrom
                             April 9, 2018
    Mr. Chairman and distinguished Members of the committee: I am 
honored to testify before you today to discuss the authorities and 
responsibilities of the U.S. Army Corps of Engineers (Corps) during 
disaster response and recovery operations, focusing on Hurricane Harvey 
and its impacts to the Houston, Texas area. I am Colonel Lars 
Zetterstrom, Commander, Corps Galveston District.
    The Corps conducts its emergency response and recovery activities 
under two basic authorities: The Stafford Disaster and Emergency 
Assistance Act (Stafford Act); and Public Law 84-99 Flood Control and 
Coastal Emergencies, 33 U.S.C. 701n, as amended (Pub. L. 84-99). Under 
the Stafford Act, we and other Federal agencies support the Federal 
Emergency Management Agency (FEMA) under the National Response and 
Recovery Framework. In this capacity, the Corps is the lead Federal 
agency for Emergency Support Function 3 (Public Works and Engineering), 
and Recovery Support Function (RSF)--Infrastructure Systems but works 
under the Federal Coordinating Officer's (FCO) direction. ESF-3 
provides temporary emergency power, temporary roofing, debris 
management, emergency infrastructure assessment, critical public 
facility restoration, temporary housing, demolition/structural 
stabilization, and support to FEMA command and control Nodes/ESF-3. The 
Infrastructure Systems RSF works to efficiently facilitate the 
restoration of infrastructure systems and services to support a viable, 
sustainable community and improves resilience to and protection form 
future hazards. Under Pub. L. 84-99, we prepare for disasters through 
planning, coordination, and training with local, State, Federal 
partners. The Corps can also assist State and local entities in flood 
fight operations or through implementation of advance measures to 
prevent/reduce storm incident damages. After the emergency incident, 
Pub. L. 84-99 authorizes the Corps to repair damage to Federal flood 
infrastructure projects, and work with States/municipalities to 
rehabilitate and restore eligible non-Federal flood infrastructure to 
pre-storm conditions.
    When disasters occur, Corps teams and other resources are mobilized 
from across the country to assist the local Corps districts that are 
responding to the incident. As part of this mission, the Corps has more 
than 50 specially-trained response teams, supported by emergency 
contracts, to perform the wide range of public works and engineering-
related support missions I just described. Additionally, the Corps uses 
pre-awarded contracts that can be quickly activated for missions such 
as debris removal, temporary roofing, generator installation, and 
dredging.
    2017 Hurricane Season.--With regard to hurricane activity, 2017 was 
an unusually active season. The Corps was, and continues to be, 
involved in the FEMA-led Federal response and recovery operations in 
support of multiple incidents, including Hurricanes Harvey, Irma, and 
Maria.
    Hurricane Harvey.--On August 25, 2017, Category 4 Hurricane Harvey 
made landfall along the central Texas coast near Rockport, Texas, 
between Port Aransas and Port O'Connor and the President approved a 
Major Disaster Declaration for Texas. Large amounts of rainfall fell 
across the greater Houston metropolitan area causing record flooding. 
FEMA tasked 27 total mission assignments totaling $126 million to the 
Corps to assist in Hurricane Harvey response and recovery efforts. 
Since August 22, 2017, nearly 1,000 Corps personnel have been deployed 
to support response and recovery efforts. Currently, 120 Corps 
employees are deployed supporting 11 active recovery mission 
assignments. Active mission assignments total $39 million and are 
expected to be completed no later than June 30, 2018.
    Temporary Emergency Power.--The Corps completed its temporary 
emergency power mission assignment in Texas by completing 45 generator 
installations.
    Temporary Housing.--In the 31 disaster-impacted Texas counties, 
more than 3,100 applicants are approved for FEMA Direct Temporary 
Housing Assistance to date. The Corps is inspecting approximately 400 
haul and install unit installations a day and certifying approximately 
150 mobile housing units as ready for occupancy per week. To date, the 
Corps has assessed over 3,300 private sites (homeowner property) and 
over 1,200 commercial mobile home parks. In addition to installing 
units on individual home sites, the Corps assessed more than 330 
potential group site locations and completed construction of 
improvements to an existing group site.
    Debris Management Oversight.--Debris teams led by Corps subject-
matter experts continue to provide State and county officials with 
technical assistance in defining requirements and monitoring debris 
removal and disposal operations in 10 counties.
    Critical Public Facilities.--The construction of critical public 
facilities temporary buildings are still on-going. The Corps was 
assigned a mission to construct four public facilities--installation of 
two temporary schools, a city hall and a volunteer fire department. Two 
of these facilities have been completed and two are on-going.
    Pub. L. 84-99 Assistance.--In anticipation of Harvey's landfall the 
Corps increased its flood fight supplies from 500 thousand to 2 million 
on hand including sandbags and sand barriers. The Corps provided over 1 
million sandbags to local governments for Hurricane Harvey. The Corps 
is currently designing repairs for three flood damage reduction 
projects damaged during Harvey and assessing seven additional projects 
for repairs.
    Navigation Restoration.--The Galveston District is tasked with 
monitoring and maintaining over 1,000 miles of Federally-authorized 
navigation channels located within the Texas Coast. Sediment is 
naturally and continually deposited within these channels. The 
Galveston District monitors these channels through hydrographic 
surveys, and performs maintenance of these channels by removing 
sediment through maintenance dredging.
    In a normal year, the Galveston District removes approximately 25 
million cubic yards of regularly recurring sediment accumulation (or 
shoaling) from Federally-authorized navigation channels, most of which 
results from normal tidal fluctuations, river flows, wave energies, and 
similar phenomena. This year, an additional 9 million cubic yards of 
shoaling--over one-third of the average annual requirement--was 
observed within Coastal Texas as a result of Hurricane Harvey. The 
storm was unique in that Harvey affected the majority of the 400 miles 
of the Texas Coast, and impacted nearly all of the navigation projects 
within the Galveston District's area of responsibility.
    Galveston District staff was prepared to respond to Hurricane 
Harvey in part because the district has been an active member of the 
Gulf Coast Joint Hurricane Response Team since its inception in 2005. 
This team consists of representatives from Federal, State, and local 
agencies that share roles in ensuring that maritime commerce and 
military vessels are provided safe access to gulf coast port 
facilities. Members include the United States Coast Guard, the National 
Oceanic and Atmospheric Administration, local Port Authorities, pilots 
associations, and the brownwater (tug) industry. In advance of each 
hurricane season, the team meets to discuss protocols and conduct 
monthly dry-run exercises, which simulate hurricanes entering the Gulf 
of Mexico.
    Within days of Hurricane Harvey's landfall, the Galveston District 
had mobilized 15 pieces of dredging equipment to areas most affected by 
hurricane-related shoaling. At the peak of the assessment phase, the 
Galveston District was managing 24 hydrographic survey vessels, and was 
able to perform assessment surveys of 95 percent of the high and 
moderate use channels within 2 weeks of Hurricane Harvey's landfall.
    The majority of draft restrictions were alleviated through 
maintenance dredging within the first 90 days of response efforts. 
However, Harvey-related dredging operations are still on-going. A few 
channel restrictions persist, mostly within the upper reaches of the 
Houston Ship Channel. Repairs to dredged material placement areas and 
shoreline erosion are anticipated to commence in late fiscal year 2018 
and extend through fiscal year 2019.
    To date, The Galveston District has received approximately $65 
million to address navigation damages from Hurricane Harvey.
    Flood Risk Management.--The Galveston District has partnered with 
the Harris County Flood Control District (HCFCD) since the 1930's on 
reducing flood risks in the Houston area.
    Before Hurricane Harvey reached the Houston area, the District 
deployed staff to the Addicks and Barker (A&B) Reservoir Dams for 24 
hrs/day condition inspections. The A&B dams were operated according to 
the Water Control Manual during Hurricane Harvey, which was an 
episodic, record-breaking rainstorm incident. It dropped approximately 
36 inches of rain in the A&B watersheds, and as much as 51 inches in 
locations across the Houston region. The A&B Dams structures performed 
as designed during the incident. The District also deployed members of 
its staff to regional Emergency Management Centers in Houston during 
Harvey to communicate the risk of A&B Dam operations with agencies, 
media, and public, as conditions unfolded.
    In addition to the Buffalo Bayou and Tributaries (Addicks and 
Barker Dams) flood damage reduction project, the Corps has or is 
partnering with the HCFCD on the construction of three additional flood 
damage reduction projects. Each of these projects performed as designed 
to reduce flood risk during Hurricane Harvey. The District and HCFCD 
physically completed construction of the Sims Bayou project in July 
2016. While the project did incur erosion damage, no flooding of 
structures occurred along Sims Bayou during Harvey. The Greens Bayou 
was funded to completion in 2016 and mitigation work is scheduled to 
complete in 2020. The Corps has also reimbursed HCFCD for completed 
construction on the Brays Bayou project.
    Path Forward.--In response to a 2013 dam safety modification study, 
the District is constructing a new outlet structure, parabolic 
spillway, stilling basin, and outlet channels and grouting and 
abandoning the existing outlet structure at both the A&B. This action 
is under way after completing a dam safety modification study in 2012. 
The current construction work is scheduled for completion in April 
2020. Additional studies to analyze the needs for rehabilitation of the 
A&B spillway structures and return flow ditches of the existing 
authorized project, to assess the potential for additional non-
structural or structural measures to reduce the risks of flooding in 
the vicinity of A&B reservoirs, and/or to develop tools to identify 
best practices in flood plain management may be warranted. The Corps 
continues to discuss current and potential future efforts with the 
HCFCD.
    The Corps remains fully committed and capable of executing its 
other Civil Works activities across the Nation despite our heavy 
involvement in these on-going response and recovery operations. We also 
remain ready and poised to assist in future incidents as they may 
occur. This concludes my testimony and I look forward to answering any 
questions you might have. Thank you.

    Chairman McCaul. Thank you, Colonel.
    The Chair recognizes Ms. Van Duyne.

STATEMENT OF BETH VAN DUYNE, REGIONAL ADMINISTRATOR, REGION VI, 
     U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT (HUD)

    Ms. Van Duyne. Thank you, Chairman. Chairman McCaul, 
Ranking Member Thompson, and Congress Members, thank you for 
inviting the Department of Housing and Urban Development to 
discuss our efforts to assist the people of Texas recover from 
Hurricane Harvey.
    There has been exceptional collaboration, cooperation, and 
communications between HUD and FEMA, the Governor's Office, the 
Texas General Land Office, the Governor's Commission to Rebuild 
Texas, and other Federal and local partners.
    In the response phase of a disaster, FEMA is the Federal 
agency responsible for providing emergency short-term housing 
assistance. During this phase, HUD staff has worked tirelessly 
with FEMA to rapidly re-house Texans, many of whom lost 
everything. Nearly 100 HUD employees from across the country 
volunteered to help Texas families deployed to FEMA's joint 
field office, emergency shelters, and disaster recovery 
centers. Working together, they managed to secure temporary 
and, in many cases, permanent housing for survivors.
    Immediately after a Presidentially-declared disaster, HUD 
offers flexibilities to assist the urgent needs of affected 
families. These include providing State and local governments 
the ability to redirect their existing block grant assistance 
to meet the urgent needs of their citizens, simplifying the 
notification process for regulatory waivers aimed at cutting 
red tape in the recovery process. For example, HUD reduced the 
comment period on certain formula funding from 30 days to 7, 
suspended rules to allow CDBG grantees to replace affordable 
housing units, and allowed grantees to pay for additional 
support services.
    Immediately following the declaration, HUD also issued a 
90-day foreclosure moratorium for homeowners with mortgages 
insured by the Federal Housing Administration. FHA subsequently 
extended this moratorium until February 21, and even introduced 
a new option to help struggling homeowners remain in their 
homes through an interest-free second loan covering up to 12 
months of missed payments.
    All of this is done to give borrowers the breathing room 
they need to stay in their homes and begin to rebuild.
    HUD created a long-term recovery strike team last November 
to stimulate and augment the recovery planning in smaller areas 
like Rockport, Port Arthur, and Newton, which were severely 
impacted by Harvey. The concept was simple: Reach out to these 
communities, cut red tape, and help them put together plans and 
leverage available resources based on their needs and 
priorities. HUD did not ask them to travel to Austin or to the 
District of Columbia; we went to them.
    The strike team brought together leaders from other Federal 
agencies including HUD, FEMA, SBA, USDA, along with the GLO 
disaster recovery staff and emergency management officials from 
the State and local partners to identify Federal and State 
resources and share best practices to empower local leaders to 
immediately begin to plan the long-term recovery of their 
communities.
    At some point following a major disaster, response gives 
way to recovery, and it is during the disaster recovery phase 
when HUD plays a more direct role. HUD's primary disaster 
assistance, the Community Development Block Grant Disaster 
Recovery Grant, is designed to address unmet needs as 
communities work toward their long-term recovery strategies.
    In September, President Trump signed legislation that 
appropriates $7.4 billion through HUD's CDBGDR program. HUD 
promptly allocated $5 billion of these funds to the State of 
Texas to help hard-hit areas recover, and an additional $58 
million remaining from a prior appropriation. In allocating 
CDBGDR funds, HUD relies on information from FEMA and SBA and 
the number of seriously damaged homes that lack insurance and 
businesses that fail to qualify for SBA's disaster loan 
program.
    CDBGDR grants support a wide variety of activities, 
including housing redevelopment, business assistance, and 
repair of damaged infrastructure. Unfortunately, Texas is no 
stranger to natural disasters, and that means that the State, 
through the GLO, has considerable expertise in administering 
CDBGDR.
    The GLO submitted a plan for the $58 million and is 
currently preparing an action plan for the $5 billion that will 
be informed by comments from Texas citizens. Once finalized, 
this plan will be submitted to HUD for review. HUD will 
expedite its review and plan to ensure the funds are put to 
work on behalf of the people as quickly as possible.
    In February, President Trump signed a budget agreement with 
an additional $28 billion to support long-term recovery in 
areas impacted by disasters in 2017, as well as mitigation 
investments in areas that experienced disasters dating back to 
2015. This week, HUD will announce an allocation of disaster 
recovery funds consistent with statutory directives. Texas will 
share in this funding based on the Department's analysis of 
unmet housing, business, and infrastructure needs.
    In closing, our prayers continue to be with those families 
and individuals still recovering from these devastating 
hurricanes. HUD will continue to work with Congress and 
alongside local partners to ensure that the long-term housing 
recovery needs of the people of Texas are met.
    I thank you for the opportunity to be here today to 
represent HUD. Mr. Chairman, I would be happy to answer any 
questions you or the other Members may have at this time.
    [The prepared statement of Ms. Van Duyne follows:]
                  Prepared Statement of Beth Van Duyne
                             April 9, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of this 
committee, thank you for inviting the Department of Housing and Urban 
Development (HUD) to discuss our efforts to assist the people of Texas 
recover from Hurricane Harvey.
    Before Harvey even made landfall, HUD's Washington and Texas 
offices were working with the Federal Emergency Management Agency 
(FEMA) and Governor Greg Abbott's office on response and recovery 
preparation. HUD staff was immediately sent to FEMA's Regional Office 
in Denton, Texas, and then to its Joint Field Office in Austin to 
coordinate efforts with Federal, State, and local partners.
    There has been exemplary collaboration, cooperation, and 
communications between HUD and FEMA, the Governor's office, the Texas 
General Land Office (GLO), and other Federal and local partners. HUD is 
in constant contact with Governor Abbott, GLO Commissioner George Bush, 
FEMA field coordinating officer Kevin Hannes, senior deputy director of 
GLO's Community and Revitalization Office Pete Phillips, and chair of 
the Governor's Commission to Rebuild Texas John Sharpe.
                         hud's initial response
    In the response phase of a disaster, FEMA, not HUD, is the Federal 
agency responsible for providing emergency, short-term housing 
assistance through its Individual Assistance (IA) and Transitional 
Sheltering Assistance (TSA) programs. HUD's primary disaster 
assistance, the Community Development Block Grant-Disaster Recovery 
(CDBG-DR) grant, is intended to facilitate long-term recovery needs 
after all other disaster assistance--from FEMA, the Small Business 
Administration (SBA), other Federal agencies, the National Flood 
Insurance Program, and private insurers--has been exhausted. CDBG-DR 
funds are designed to address unmet needs as communities work toward 
their long-term recovery strategies.
    However, there are steps HUD can and did take in the wake of 
Hurricane Harvey. Immediately after a Presidentially-declared major 
disaster, HUD offers States and local governments, homeowners, public 
housing authorities, and private owners of HUD assisted housing certain 
program flexibilities to assist the urgent needs of families impacted 
by the disaster.
    Some of those flexibilities include:
  <bullet> Providing State and local units of government the ability to 
        redirect their existing block grant assistance to meet the 
        urgent needs of their citizens;
  <bullet> Offering and simplifying the notification process for 19 
        regulatory and administrative waivers aimed at cutting red tape 
        in the disaster recovery process. For example, HUD reduced red 
        tape by reducing the comment period on certain HUD formula 
        funding from 30 days to 7 days, suspending rules to allow CDBG 
        grantees to replace affordable housing units that were lost as 
        a result of the hurricanes and flooding, suspending the cap 
        limiting CDBG expenditures for public services to 15 percent, 
        and allowing CDBG grantees to pay for additional support 
        services for individuals and families affected by the 
        hurricanes; and
  <bullet> Immediately issuing a 90-day foreclosure moratorium for 
        homeowners with mortgages insured by the Federal Housing 
        Administration (FHA). FHA subsequently extended this moratorium 
        until February 21, 2018, and even introduced a new option to 
        help struggling homeowners remain in their homes through an 
        interest-free second loan covering up to 12 months of missed 
        payments. All of this is done to give borrowers the breathing 
        room they need to stay in their homes and begin to rebuild.
    The work of HUD's staff has been commendable. They worked 
tirelessly with FEMA to rapidly rehouse Texans, many of whom lost 
everything. Working together, they managed to secure temporary--and, in 
many cases, permanent--housing for survivors.
    Moreover, nearly 100 HUD employees from other parts of the country 
volunteered to help Texas families, deploying to FEMA's Joint Field 
Office, emergency shelters, and Disaster Recovery Centers.
    HUD played an integral role in initial response and recovery and 
will continue to support, along with the help of Congress, the people 
of Texas through the long-term recovery process.
                          disaster strike team
    HUD created a Federal/State Long-Term Recovery Strike Team last 
November to support the long-term planning needs of smaller, more rural 
areas severely impacted by Harvey. The concept was simple: Reach out to 
these communities, cut red tape, and get them help. HUD did not ask 
that they travel to Austin or Fort Worth--HUD went to them. The strike 
team brought together top leaders from other Federal agencies, along 
with disaster recovery staff and emergency management officials from 
the State, with local partners to raise awareness of available Federal 
resources and share best practices.
                      long-term disaster recovery
    Mr. Chairman, at some point following a major disaster like Harvey, 
response must give way to recovery. It is during the disaster recovery 
phase when HUD plays a larger, more direct role, as the Coordinating 
Agency for the Housing Recovery Support Function (RSF).
    On September 8, 2017, President Trump signed legislation that 
appropriated $7.4 billion through HUD's CDBG-DR program. HUD promptly 
allocated $5 billion of these funds to the State of Texas to help hard-
hit areas recover.
    In allocating CDBG-DR funds, HUD relies on information from FEMA 
and the Small Business Administration (SBA) on the number of seriously-
damaged homes that lack insurance and businesses that failed to qualify 
for SBA's disaster loan program. HUD's analysis found approximately 
65,000 which had serious damage that was not covered by other funding 
sources. Similarly, more than 4,000 businesses suffered serious damage 
from flooding that was not covered by insurance or other resources.
    CDBG-DR grants support a wide variety of activities including 
housing redevelopment, business assistance, and repair of damaged 
infrastructure. Congress directed HUD to make these funds available for 
residents in the ``most impacted and distressed'' areas in the State. 
In early February, HUD published a notice identifying these hard-hit 
areas requiring that 80 percent of the $5 billion be targeted to 16 
East Texas counties: Harris, Jefferson, Orange, Galveston, Fort Bend, 
Brazoria, Montgomery, Liberty, Hardin, Chambers, Aransas, Wharton, San 
Patricio, San Jacinto, Nueces, and Victoria, and 11 Zip Codes with 
relatively concentrated damage.
    In addition, HUD staff contacted hundreds of local public housing 
authorities throughout Texas and private owners of HUD assisted 
multifamily rental housing to determine their damage and continues to 
work with the public housing authorities and private owners to rebuild 
these affordable rental housing units. HUD is committed to working with 
State, local, and private-sector partners to address the unmet housing 
needs of all families including individuals with disabilities.
                           recovery planning
    Unfortunately, Texas is no stranger to natural disasters, and that 
means the State, through the GLO, has considerable expertise in 
administering CDBG-DR.
    To date, HUD made two CDBG-DR allocations to the State in response 
to Harvey--the $5 billion previously mentioned and an additional $58 
million remaining from a prior appropriation. The GLO submitted a plan 
for the $58 million and is currently preparing an action plan for the 
$5 billion that will be informed by public comments received from Texas 
citizens. Once finalized, this plan will be submitted to HUD for 
review. HUD will expedite its review and approval of these plans to 
ensure the funds are put to work on behalf of the people as quickly as 
possible.
    In February, President Trump signed a budget agreement that 
included $28 billion in CDBG-DR funding to support long-term recovery 
in areas impacted by disasters in 2017, as well as mitigation 
investments in areas that experienced disasters dating back to 2015. 
Congress directed HUD to allocate these funds quickly and that is 
precisely what HUD intends to do. Very shortly, HUD will announce an 
allocation of disaster recovery funds consistent with statutory 
directives. Texas will share in this funding based on the Department's 
analysis of unmet housing, business, and infrastructure needs.
    In closing, our prayers continue to be with those families and 
individuals still recovering from these devastating hurricanes. HUD 
will continue to work with Congress and alongside local partners to 
ensure the long-term housing recovery needs of the people of Texas are 
met. I thank you for the opportunity to be here on behalf of HUD today 
Mr. Chairman, and I would be more than happy to answer any questions 
you or the committee Members may have at this time.

    Chairman McCaul. Thank you, Ms. Van Duyne.
    The Chair recognizes himself for questions.
    Before I begin, I do want to say this was one of the best 
recovery efforts I have witnessed. The picture on the far right 
side there embodies that effort. It has a Department of Public 
Safety official, an active-duty Special Forces, a Coast 
Guardsman, a Texas Guardsman, all working together in the same 
boat with the American flag in this area to save lives. So I 
want to thank everybody in the room responsible for that.
    Now we are in the recovery/rebuilding phase, which 
includes, in my judgment, flood mitigation, as the FEMA 
Director mentioned.
    I want to refer to this map. This goes back to 1940. The 
Army Corps of Engineers produced this map that created the 
Barker and Addicks Reservoir, but it also addressed another 
issue that they recognized was a problem or an issue back in 
1940, and it was the Cypress Creek, which is outlined in the 
red there. At the time, that point in time, they recommended 
that a levee system be built to contain further flooding into 
Barker and Addicks.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman McCaul. What happened in Hurricane Harvey? I think 
it is very instructive, looking at this map, because when 
Hurricane Harvey hit, we had a watershed moment, a watershed 
waterfall moment, from Cypress Creek into Barker and Addicks, 
into Buffalo Bayou, and into downtown Houston.
    So as we look at flood mitigation projects, we have had 
three floods in 2 years. I can't think of anything more 
important. In fact, it is my highest priority to build that 
third reservoir that should have been built a long time ago in 
the Cypress Creek area.
    As I talked to the Governor, Governor Abbott, he tells me 
it is his highest priority as well for the greater Houston 
area.
    So, Colonel, you and I have talked about this, but can you 
describe and explain to me where we are in the process of 
building this third reservoir?
    Colonel Zetterstrom. So currently, Chairman, we are in the 
process of proposing to conduct a 216 study that is authorized 
under Award 86 to be able to evaluate existing flood control 
projects to determine any impacts and any environmental changes 
associated with that project. As you are aware, for the Corps 
to undertake any type of activity, we need to have authority, 
appropriations, and a non-Federal sponsor. In this case we have 
a non-Federal sponsor, the Harris County Flood Control 
District, that has expressed their intent to partner with the 
Corps, and we have the authority to be able to conduct this 
study. Certainly, Congress has appropriated $17 billion 
additional in the bipartisan budget act. At this time, 
headquarters, assistant secretary of the Army for Civil Works 
and Administration, are determining what studies and projects 
will be allocated to funding by that bipartisan budget act.
    Chairman McCaul. Thank you, and you are correct. We 
appropriated $132 billion in the three supplementals to assist 
in this recovery and rebuilding effort, and it was the intent 
of Congress to include flood mitigation projects in that 
appropriations bill.
    I know the first step is a study. But again, there is a 
sense of an emergency here, a feeling of an emergency in this 
area, the third time in 2 years that this has happened. So can 
you tell me where is the study in the process, and how long 
will that study take? Then how soon can we expect this 
reservoir to be built for the people of Texas?
    Colonel Zetterstrom. First I would like to just highlight 
that the original third reservoir was in Wide Oak. As your 
diagram depicted, the area that was highlighted was a levee 
structure that was envisioned to prevent water from jumping the 
Cypress Creek Watershed into the Addicks Watershed. So the 
modern third reservoir really would potentially be a 
modification of a plan called Plan 5, which was initially 
studied by a study that was funded by the Texas Water 
Development Board and the Harris County Flood Control District.
    That study really was looked at localized retention and 
wasn't envisioned to have a systems beneficial impact outside 
of the Cypress Creek Watershed. So we really need to evaluate 
the third reservoir to determine if it is the best alternative 
to be able to account for the dynamic that you described where 
water flows from the Cypress Creek Watershed into Addicks and 
Barker Watershed, and to evaluate all the other various 
alternatives that could potentially be studied and evaluated 
and proposed as future alternatives, and to then present to 
Congress in a report for potential authorization by a future 
Water Resources Development Act.
    Chairman McCaul. I know there is some expedited language in 
the supplemental, but moving forward--I am not an engineer, but 
I know from my constituents what happened in Hurricane Harvey, 
and I also know that it flooded the Barker and Addicks 
Reservoirs, after which there was a controlled release into the 
neighborhoods below. That was on Monday, August 28, and I heard 
this a lot--it happened at 1:30 in the morning.
    I know there are 2 p.m., every afternoon there are 
conference calls. Can you explain to these residents why such 
little advanced notice was given when a controlled release 
dumped all this water into the neighborhood? Especially, 
couldn't this have been foreseen earlier where notification 
could have been given more in advance and in the daytime?
    Colonel Zetterstrom. OK. I would like to describe the 
process that we used with the local governments to share 
information, in association with the Addicks and Barker Dams 
and Reservoirs.
    For recollection, on the 24th of August, Hurricane Harvey 
was still out over the Gulf. It did not make landfall until 
late in the evening on the 25th of August, and didn't reach the 
Houston area until the 26th of August. We began communicating 
and sharing information with our local partners on the 24th of 
August. We conducted our first Addicks and Barker emergency 
coordination team call and provided the modeling conducted for 
the Addicks and Barker Reservoirs with our partners on the 25th 
of August, and then continued to share that information 
throughout the entire storm.
    We also embedded liaisons with city, county, and State 
emergency operation centers to ensure that we were sharing 
information as seamlessly as possible.
    Chairman McCaul. My time has expired. We are going to hear 
testimony from the Mayor of Houston after this panel, and we 
may hear a different version of that story; I don't know. But I 
know this is a matter that is under investigation, and we will 
see how that plays out. But I know that a lot of residents were 
very upset with that decision at that point in time, and I will 
work with my Department of Homeland Security partners at FEMA 
and the Coast Guard moving forward with lessons learned, how we 
can do a better job moving forward, and also how we can 
streamline the process of FEMA and maybe have some legislative 
proposals to make FEMA work even better after these types of 
disasters.
    With that, the Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Robinson, are you aware of any outstanding 
reimbursements that units of Government have in your shop 
relative to this disaster?
    Mr. Robinson. Sir, in reference to the public assistance 
program?
    Mr. Thompson. Yes.
    Mr. Robinson. We are working continuously with local 
governments and non-profits to be able to help with our program 
delivery managers, work through the public assistance program 
to scope their damages. So we are kind-of in that phase right 
now. We have gone out and done some advance funding for their 
emergency protective measures. The debris removal operations 
are now working toward those permanent work projects, working 
with them to develop the scope of the damages and cost 
estimates on those.
    Mr. Thompson. So you are aware.
    Mr. Robinson. Yes, sir.
    Mr. Thompson. Is it your testimony that those 
reimbursements are not, in your mind, outstanding, that they 
are just normal?
    Mr. Robinson. The process of how the public assistance 
programs work, we are still working on some of those scopes of 
work, collecting documentation. We have advanced some funds to 
be able to take care of the most immediate needs. On the 
permanent work, some of that process is just now starting.
    Mr. Thompson. So have you shared that information with 
those units of Government that they could get advanced monies 
for this?
    Mr. Robinson. Working with the State of Texas, we have 
advance money. We have regularly scheduled calls and meetings 
with local jurisdictions, along with State of Texas and their 
program delivery managers working at the public assistance 
program.
    Mr. Thompson. FEMA does not do it; the State of Texas is 
responsible.
    Mr. Robinson. We provide the money to the State of Texas, 
who then provides the money to the local governments or non-
profits.
    Mr. Thompson. So what kind of oversight do you provide the 
State of Texas in terms of making sure that they do this?
    Mr. Robinson. We work very closely with them developing 
that scope of work, looking at the cost estimating----
    Mr. Thompson. Oversight.
    Mr. Robinson [continuing]. And then the grant management of 
that, of those grants.
    Mr. Thompson. So if somebody made a request as to the 
status of any of those requests, you would have information on 
it?
    Mr. Robinson. Yes, sir.
    Mr. Thompson. Can you provide the committee the status of 
that information?
    Mr. Robinson. Yes, sir.
    Mr. Thompson. Thank you. Are you aware of the Red Cross 
being a no-show in certain areas during this storm?
    Mr. Robinson. Sir, I am not. The Red Cross works directly 
with local governments, and we partner with them on ESF-6, mass 
care, mass response framework.
    Mr. Thompson. So it is just your----
    Mr. Robinson. I am not.
    Mr. Thompson. You don't have any information----
    Mr. Robinson. I do not.
    Mr. Thompson. OK. Thank you very much.
    Colonel, taking off from what the Chairman talked about on 
his concerns from an after-action standpoint, are there things 
that you think that could have been done differently or better 
given what occurred?
    Colonel Zetterstrom. Ranking Member, I think one of the big 
lessons learned was just the fact that the various levels of 
government and the public partnered very closely to ensure that 
the impacts of Hurricane Harvey were minimized to the greatest 
extent possible. We have the Addicks and Barker emergency 
coordination team call process. It is a process that we are 
constantly updating with our partners. We will continue to use 
that process to ensure that the appropriate information is 
shared to ensure that the right decisions are being made at the 
appropriate levels of the government in the future.
    With regard to some other lessons, obviously with 
navigation and restoration, navigation is responsible for more 
than one-third of Texas' gross domestic product. So we will 
leverage contracting capability, specifically multiple order 
task order contracts for both hydrographic surveying, hopper 
dredging, and we are working on a new contract mechanism for 
pipeline dredging to ensure that we can restore navigation back 
to all of the industry that operates off of those navigation 
channels in Texas.
    Mr. Thompson. So is your testimony that, from an after-
action standpoint, everything worked?
    Colonel Zetterstrom. Harvey was an episodic event. It is 
being referred to as the largest rainfall event in the history 
of the continental United States. We made concerted efforts to 
ensure that all the appropriate information was shared with all 
of the decision makers and the public. I would say that no risk 
communication program is ever perfect, but we did make 
appropriate notifications, and we did provide the information 
necessary.
    In addition to what I have already described, we leveraged 
social media extensively to communicate directly with the 
public. We also published multiple news releases and press 
releases, and I deployed my civilian deputy to conduct 
multiple-times-a-day press conferences.
    Mr. Thompson. I understand what you did. I am saying that 
looking at it after the fact. The only thing I will ask you to 
do is if you have anything in writing relative to your review 
of what the Corps' mission was in this respect, that you think 
you need to do better, would you provide it to the committee?
    Colonel Zetterstrom. Yes, Ranking Member.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
Nebraska, General Bacon.
    Mr. Bacon. Thank you, and thank all four of you for being 
here, and thanks to your organizations for working hard for 
fellow citizens in a crisis emergency situation.
    The data I heard this morning, 5 feet of rain in many 
places, 6 feet in some--I mean, that is just a tremendous 
amount and just puts in perspective the emergency this whole 
area encountered. So I thank you all for--to your organizations 
for the work you did.
    My first question is, if all four of you could think about 
a shortcoming or two that you encountered, whether it was in 
your planning, maybe resources, and just share it with us up 
here, and what have you done to alleviate, perhaps, those 
shortcomings.
    We will start off with the Director. Thank you.
    Mr. Robinson. Thanks. So, a couple of things. I think 
Administrator Long, when he was here, unveiled the strategic 
plan, and I think it is really spot-on, that this can't just be 
FEMA's strategic plan but it has to really be adopted by the 
whole community, because it really does have to focus the 
emergency management community, and that starts with the 
private citizen. So how do we build a culture of preparedness? 
Because what we have seen here is Texans helping Texans, and 
that really is the culture of preparedness we need to build.
    How do we get in the schools' basic first aid so that you 
can put a tourniquet on somebody, you can stop the bleeding, 
you can open an airway, you know how to make a calm and 
collected 9-1-1 call with the right information to get the 
responders there quickly, and then continue to build that on 
the community level as we move forward? I think that is first 
and foremost.
    Then, how do we ready the Nation for catastrophic events? 
So what you have heard here, it is about partnerships, not only 
at this table at the Federal level but at the local, State, and 
Federal level, with our private sector and our volunteer 
agencies all have to work together.
    Then finally, reducing the complexity of the FEMA programs, 
how do we work together and continue to learn from this event 
so that we reduce the complexity of our programs?
    Mr. Bacon. Because rest assured, we will have to do this 
again somewhere, so we want to build on it.
    Admiral Thomas.
    Admiral Thomas. Congressman, thank you for the question. I 
know that you know from your Air Force time that when a 
military organization undertakes an operation like this, we 
follow it up with a comprehensive lessons learned, and we 
developed literally hundreds of tactical lessons learned and 
dozens at the strategic level. I will touch on just a few that 
are really important to me as an operational commander.
    In the Coast Guard, we were not ready for the 9-1-1 system 
to essentially become overwhelmed and for those calls to roll 
over to our operation center here in Houston, in my office in 
New Orleans, in Norfolk, and our headquarters in Washington, 
DC. So we are working hard to make sure we are ready for that 
to happen again, if it does. We were not ready to dispatch 
those calls and to track the resources that we dispatched. We 
are working hard to do that.
    We were not ready to take calls for help on social media, 
and we are working hard to fix that.
    Mr. Bacon. A new mode of communication we have to build on.
    Admiral Thomas. Yes, sir.
    One of the key lessons that I really want to highlight to 
this committee because it is so important, and it is really 
thanks to your efforts that we were able to be successful in 
Houston because we had a facility that was rebuilt, and it was 
rebuilt to the right standards of resiliency. I know, 
Congressman Jackson Lee, you were there with us. Because of 
that, and despite the rapid rainfall, we were able to continue 
to operate.
    So a lot of lessons learned. For me as an operator, the 
keys are around our urban search-and-rescue mission and the 
fact that we need the right facilities in order to be able to 
serve the people when they need us.
    Mr. Bacon. Thank you for your candor. I think it is 
important we always build on lessons learned so we are ready 
for the next one.
    Colonel Zetterstrom.
    Colonel Zetterstrom. So, yes, Congressman. I briefly 
discussed our navigation authority. So expanding our 
contracting capabilities certainly is a key lesson learned, to 
be able to rapidly award new contracts or modify existing ones, 
and also to increase our hydrographic survey capability, and we 
are proposing to do that in conjunction with other Federal 
partners like NOAA, to leverage their hydrographic survey 
capability.
    Obviously for flood risk management, there is inherent 
residual risk in any flood risk management project. So when a 
project is constructed, it is never possible to completely 
ameliorate all the risk associated with future flooding. So 
that remains a challenge, the ability to communicate that there 
is inherently always residual risk. It is not flood control or 
flood prevention, it is flood risk reduction.
    Certainly, our ability to do that as an agency is tied back 
to our authorities and appropriations. The Corps of Engineers 
Nation-wide has $96 billion of authorized but unconstructed 
civil works projects. So our ability to be able to partner with 
our local partners is tied directly to our authorities and our 
appropriations.
    Mr. Bacon. Thank you. When I was a commander, we had a 100-
year flood in the Missouri, and the Army Corps was very 
important to that. We did 400,000 sandbags, so I appreciate 
partnering with your team.
    Ms. Van Duyne.
    Ms. Van Duyne. Thank you very much. I would say, first and 
foremost, it would be wonderful if we could put more education 
into allowing our citizens to know the need for flood 
insurance. I think that would have helped a number of our 
homeowners that were affected by that.
    I would say No. 2 is trying to get more of our local 
leaders that empowerment that they need to start working on 
their planning as soon as the accident happens, as soon as the 
disaster happens. Having those relationships, having them know 
exactly who to call for questions, would be wonderful. We 
waited a few months, and I think if we had actually gone to 
some of these areas sooner, their plans could have already been 
in action.
    I think another thing that we need to do is start looking 
at technology and taking advantage of the opportunities that 
brand-new technology puts into our hands. For example, an 
Airbnb model and having a database of available housing units, 
and having an app that people can go to, I know that Rebuild 
Texas is working on that, and I know that after this disaster 
we are going to be looking at best practices of being able to 
put more of those things together.
    Mr. Bacon. Thank you.
    It looks like I am out of time, so I will yield back.
    Chairman McCaul. The Chair recognizes the gentle lady from 
Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, Ranking Member, let me 
express my deep appreciation for your presence here today, and 
hopefully I can capture the pain of those who are not able to 
be here, because my community is still in pain and still 
hurting, and I believe that this hearing hopefully will 
emphasize their pain and that they will have the opportunity to 
have the engagement of all the resources here while they are 
still suffering from Hurricane Harvey.
    I want to acknowledge how quickly the city of Houston stood 
up a shelter in the immediate moments of Hurricane Harvey when 
the amount of water was not expected. The NASA Jet Propulsion 
Laboratory indicated that there were 275 trillion pounds of 
water which caused the crust in and around Houston to deform 
and sink nearly 1 inch because of the weight.
    Mr. Chairman, I hope at the conclusion of the first panel 
you will allow me to just read some names into the record, 
probably unheard-of names, who were so crucial in and around 
our community.
    I think it is important to note that in the midst of our 
hearing, researchers have already indicated that 14 tropical 
storms are going to come in 2018. There will be about seven 
that will be Category 3 or higher. In 2017, there was a total 
of 17 tropical storms, but only 11 were predicted. I think we 
have great reason to be concerned today, and also to be 
prepared, and I think that will be part of the line of 
questioning that I will now proceed with.
    In the waning days of the hurricane, I introduced H.R. 3686 
for $174 billion to help this region, which I believe still is 
the amount to help us going forward because it will be many 
years before we repair.
    We also introduced H.R. 3990 to help our small businesses, 
and I am hoping that, working with Congressman Brady, that this 
will be a part of our plan submitted to HUD under the block 
grant distribution.
    We also believe that there needs to be a FEMA modernization 
bill that establishes both response and recovery. Mr. Robinson, 
I will be asking you questions on the recovery that we are 
dealing with right now.
    Most people don't know the name of Dr. Leroy Gillam, but 
Dr. Gillam was in a parking lot with about 200 people, 50 
children that were sick who had not had food for over 2 days. 
An infant was sick and vomiting with a fever. There were four 
Vietnam vets with PTSD, and Dr. Gillam himself was a heart 
patient. We scrambled to get him the rescue of the Coast Guard.
    These are many stories that we will not hear.
    Right now, the people that were probably rescued are in 
hotels, and some of them are in apartments. In a meeting that I 
held on March 5, those people came and said they are desperate 
because they believe they will be evicted around April 23 or 
28.
    Mr. Robinson, I am asking for an extension. I am asking for 
a response to these people who are frightened and fearful that 
they will have no place to go. Can you help me with that, Mr. 
Robinson?
    Mr. Robinson. Ma'am, we are working with the State of Texas 
for the transition of the shelter assistance program. We do 
expect that they will give us an extension request probably 
sometime in the next week.
    Ms. Jackson Lee. Will that include individuals that are in 
apartments, that have been placed in apartments? We are 
defining whether they have been placed by Red Cross or FEMA, 
but I believe they have been--I think you saw some of them at 
our hearing.
    Mr. Robinson. Yes. If we are looking at if they are in a 
direct lease program, that may be up to 18 months. We are 
working with your office to see if there are any cases that we 
need to look into.
    Ms. Jackson Lee. Thank you very much.
    Let me thank the Admiral for your leadership. Obviously, we 
were having two phones to our ears, trying to work with you, 
and you were rescuing--Dr. Gillam was rescued by dump trucks 
and the Coast Guard.
    What do you need from the command site perspective, from 
the outreach perspective, to be able to get to crisis areas 
during the time of the crisis?
    Admiral Thomas. Thank you for the question, Congresswoman, 
and thanks again for being there with our crews and helping us 
understand the needs of your constituents while we were trying 
to triage all those calls for help.
    We are very grateful as an organization for the money that 
we have gotten recently in our supplemental that will help us 
restore our readiness and do things like improve our command-
and-control capability and our ability to work across all the 
agencies. We will continue to work with your office through our 
staff to let you know what our additional needs may be in that 
regard.
    Ms. Jackson Lee. I look forward to it.
    Let me ask Colonel Zetterstrom and Ms. Van Duyne the 
questions together.
    Thank you, Colonel, for your work. As you well know, this 
was devastating. People are frightened. In a town hall meeting 
or a civic club meeting that I was at, I met one father who 
reminded me of his experience of being in dark and dirty water 
with his children, unexpectedly having water come in where it 
had never come before, and that even when it rains now, his 
family panics. That is what a lot of people are, panicking in 
their homes.
    So my question to you following up with Chairman McCaul is 
the question of retention pools, and when will you begin the 
study that so many of us have advocated for and put in 
legislation for, to study how the bayous work, Green Bayou in 
particular?
    Ms. Van Duyne, we are needing direct payments. I think you 
are well aware of the requests by our county and city 
governments and Members of Congress advocating that direct 
funding down to the city and county so they begin to help 
people who do not have resources for their houses who are still 
in disrepair, as it is in northeast Houston, large parts of my 
district.
    Mr. Zetterstrom, can you answer the retention pool and the 
study, please?
    Colonel Zetterstrom. Yes, Congresswoman. So, with regard to 
the study, I described with Chairman McCaul the 216 study. I 
think the study you are referring to is the Greater Regional 
Watershed Assessment that we have discussed many times. Again, 
the district has expressed the studies and projects that it has 
determined it thinks it is eligible for consideration under the 
legislation approved by Congress and the bipartisan budget act.
    So every district has communicated those studies and 
projects that they believe are eligible, and currently 
headquarters and Assistant Secretary of the Army for Civil 
Works, and ultimately the administration, are still determining 
the final allocation of those funds to provide to the district 
so we can begin the great work that the Corps does when it is 
given the resources.
    Ms. Jackson Lee. Is that the Army Corps headquarters in 
Washington? Because we really can't wait. Is that where we need 
to put pressure on, Colonel?
    Colonel Zetterstrom. Yes, Congresswoman. But, I mean, the 
Corps is working this initiative as quickly as possible, but 
this is $17 billion, and so certainly we want to ensure that 
the funds are allocated prudently and allocated to the most 
high-priority requirements.
    Ms. Jackson Lee. Let me just say, we are hurting, and we 
will put the pressure where it needs to be. We thank you for 
your service.
    Ms. Van Duyne, on the housing direct payments, direct 
payments of community block grant dollars into the county and 
city governments?
    Ms. Van Duyne. I appreciate that, and I want to thank your 
staff, by the way. In the weeks and the months following the 
hurricane, not only did they participate in all the calls that 
we had when I came to your office to visit them, but they have 
reached out to us with any questions and concerns that they 
have, and I appreciate that level of communication.
    Ms. Jackson Lee. Thank you.
    Ms. Van Duyne. As you know, we have been in contact with 
both the city of Houston and the county, Harris County, 
regarding payments. We had a meeting recently in Washington 
with the GLO's office at those meetings. We are waiting right 
now for the GLO's office to provide their State plan. They have 
the ability within the State plan to have sub-grantees, which 
could include the city or the county.
    Ms. Jackson Lee. Well, we will be working to make sure that 
we can just maybe--the Texas Land Board Commissioner has been 
very helpful. I want to make that very clear. But I do believe 
that we want just a direct payment from HUD to those counties 
and cities, with obviously the affirmation of the State and the 
Texas Land Commission. So we will be working with you. We know 
we are working on some matters to get that word to you from 
Members of Congress, and we hope that you can push word back to 
Washington that they need to move as quickly as possible. There 
is just a long line of people everywhere you go who are living 
in homes that are in disrepair.
    Mr. Chairman, thank you very much, and I hope I will be 
able to cite these names because we are still very much in 
pain. Thank you so very much.
    Chairman McCaul. The gentlelady yields back.
    The gentleman from Texas, Mr. Culberson, is recognized.
    Mr. Culberson. Thank you, Mr. Chairman.
    First of all, I want to thank each one of you for your 
service to the country and the extraordinary efforts that you 
have put forth to help people in Texas, Louisiana, and Florida, 
and Puerto Rico and the Islands, to recover from these terrible 
storms.
    The most urgent need we face today is to make sure that the 
money that Congress appropriated reaches the people who have 
lost so much. We, each one of us that represent the Houston 
area, have got constituents living on the second floor of their 
homes with all the sheetrock torn out on the ground floor. My 
brother was living in a driveway--in his trailer in a driveway 
up until a few weeks ago. He is just now back in the house, 
living upstairs.
    One of our greatest frustrations as Members of Congress is 
when we pass legislation and appropriate money, and we are 
aiming it at disaster recovery, is the length of time that it 
takes to reach the hands of the people who are hurting the 
most.
    So I am following up on Congressman Lee's question, because 
she is exactly right, we have a lot of people here who are 
really hurting.
    Administrator Robinson, I wanted to ask about something you 
have authority yourself to do right away, and that is to waive 
this rental assistance problem that we have where if a 
homeowner's housing costs are less than 30 percent of their 
monthly income, they are denied rental assistance. But the 
Stafford Act and Disaster Assistance Act that Congress passed 
many years ago says that disaster assistance has to be based on 
whether you suffered a disaster. If you are flooded, you are 
flooded.
    I represent a lot of folks who are absolutely not wealthy. 
They have all their money tied up in their house. A family, for 
example, of four, with $210,000 in income, has to continue to 
pay their mortgage on a home that is flooded while they are 
renting an apartment and they have a number of kids who are 
going to school in that school district. So they have all those 
costs involved, and they are denied rental assistance, and this 
has happened many times.
    Another individual who is single who has the same income 
but doesn't have the same costs is granted rental assistance. 
Now, that is a rule that you have the authority to waive.
    When will you waive that rule, and what do we need to do to 
help ensure that that rule is waived so people can get the 
rental assistance they desperately need?
    Mr. Robinson. The 30 percent or less, if that is what you 
are paying for housing, current policy doesn't allow for 
recertification of rental assistance. I was on the call when 
Governor Abbott and yourself met with Administrator Long. We 
are working right now with our headquarters policy and counsel 
to work through that, and we will be following up with you 
right after this hearing.
    Mr. Culberson. Actually, your FEMA rules say that you are 
not going to take income into account. FEMA guidelines say you 
are not supposed to take income into account. The Stafford Act 
says you are not supposed to take income into account. So you 
are still studying about when or how you are going to waive 
this rule?
    Mr. Robinson. Yes, sir.
    Mr. Culberson. OK. That needs to be expedited. Whatever 
needs to happen, we need to get it done right away. I am 
privileged to have--my constituents have given me the time and 
the seniority to become a subcommittee chairman on 
Appropriations, and we all worked together as a team. The Texas 
delegation worked with the Florida delegation to pass these 
emergency hurricane supplemental appropriations bills. They 
totaled $141 billion. I spearheaded the effort in the House. I 
made sure that we dealt with a lot of things in this 
legislation. In fact, Colonel Zetterstrom, the commanding 
general said this is the largest appropriation for flood 
mitigation repair and rebuilding that he has ever seen.
    So we have a variety of financial tools at our disposal, 
Mr. Robinson. I really need your help in ensuring that the 
rental waiver, that rental assistance rule is waived so people 
can get help right away, and I will do everything I can to help 
expedite that. But that has to happen just as quickly as 
possible.
    Ms. Van Duyne, if I could ask about the money that the 
Congress appropriated, there is an additional $5 billion slug 
of disaster relief funding that has been allocated to Texas 
that is headed our way. What needs to happen for that money to 
be distributed as quickly as humanly possible?
    Ms. Van Duyne. We are working with the GLO's office right 
now to make sure that they have their plan in. As you know, 
Congress requires that CBDG funding be provided to the most 
impacted in the distressed areas. Gathering that does take, 
unfortunately, a little bit of time. But Congress also requires 
that grantees develop plans for the use of those funds. So we 
are working with the GLO's office to approve their plan. We 
have cut in time the amount of time necessary to review that 
from 90 days to 45 days.
    Mr. Culberson. For public comment.
    Ms. Van Duyne. It is our----
    Mr. Culberson. We thank you for that.
    Ms. Van Duyne. Not just for public comments but for 
actually HUD's review.
    Mr. Culberson. To review.
    Ms. Van Duyne. We have also cut down the public comment 
period, but that was something requested by the GLO's office. 
We are expecting that once the action plan has been approved, 
it will be 1 to 2 weeks before they can actually start 
receiving funds.
    Mr. Culberson. I know that HUD--for people here in the 
audience who are from flooded neighborhoods, if they are going 
to be communicating with their neighbors and family members, 
when Congress passes legislation, it authorizes the Treasury to 
release the money, in this case to HUD for the CDBG for 
disaster relief funds, and then the grantee you are referring 
to is the General Land Office.
    Ms. Van Duyne. Right.
    Mr. Culberson. So you then send the money to the General 
Land Office, and it is up to the General Land Office to 
distribute the money to individual homeowners, correct?
    Ms. Van Duyne. Based on the plan that HUD approves, yes.
    Mr. Culberson. The GLO is expediting that plan, but they 
haven't gotten it to you yet.
    Ms. Van Duyne. Yes.
    Mr. Culberson. That is where they would need the help, do 
everything we can to encourage Commissioner Bush and the GLO to 
get these plans put together and get them approved by HUD as 
quickly as possible, get money in the hands of people who have 
been injured.
    Ms. Van Duyne. Absolutely.
    Mr. Culberson. You also have authority at HUD to waive a 
rule that says that 70 percent of those CDBG disaster relief 
funds have to go to low to moderate income. Again, I represent 
an area of west Houston where people have got their entire life 
savings sunk in their home. They are not wealthy, but their 
homes have been destroyed, and that is their biggest source of 
equity in their life. I have asked--I know the members of the 
Texas delegation have asked that the 70 percent rule be waived.
    What is the status of that waiver request so that 50 
percent of the money can go to low to moderate income, and the 
other 50 percent can go to everybody else who has been flooded?
    Ms. Van Duyne. At this time we are waiting for the plan to 
actually come in for applications. So we haven't received any 
applications to be able to have any kind of evidence to move 
that number. If, at the time----
    Mr. Culberson. What are you waiting on?
    Ms. Van Duyne. We haven't gotten any applications yet.
    Mr. Culberson. From who?
    Ms. Van Duyne. We are waiting for the evidence base to be 
able to change that, to say that the 70 percent is not a 
reasonable amount. If at some point in time, when we actually 
start getting applications, we realize that that number is too 
high and it does need to be changed, we can always review that.
    Mr. Culberson. Are you waiting on the General Land Office, 
or who?
    Ms. Van Duyne. We are waiting on the General Land Office, 
yes, to create their plan, but applications for that money, 
when it comes in. So if there is a need for additional monies 
beyond the 30 percent of the $5 billion for more than the low 
to moderate income, we will have an opportunity to review that 
at the time when we have data.
    Mr. Culberson. We need to work with and encourage 
Commissioner Bush to get that plan done as quickly as possible.
    Ms. Van Duyne. Yes. At this point in time we don't have any 
data to be able to change that ruling, but that can be 
revisited.
    Mr. Culberson. Another intense source of frustration--and 
thank you, Mr. Chairman, for the extra time--is that there is 
still $5 million sitting around from Hurricane Ike. That is 
just inexcusable. I mean, things have got to change. I can tell 
you, as a senior member of the Appropriations Committee, I am 
going to use every financial tool at my disposal to light a 
fire under every bureaucracy that I can find that is sitting on 
this money. It is not acceptable.
    Ms. Van Duyne. I understand the $5 million has been 
allocated to projects. It has not been spent.
    Mr. Culberson. That is 2008. This is not going to happen on 
Hurricane Harvey. Things are going to change.
    Ms. Van Duyne. We have actually put in stop-gaps for that 
which require that the funds, from the time they are actually 
appropriated and obligated, be spent within 2 years.
    Mr. Culberson. OK, and I look forward to working with you 
on that, because I intend to do whatever it takes to light a 
fire under whoever is necessary.
    As a subcommittee chairman on Appropriations, we are sort 
of like the CFO of these agencies, and we have the ability to 
stop the flow of money within the agency, and I do intend to do 
whatever it takes to make sure that people that are hurting get 
their money as quickly as humanly possible.
    Ms. Van Duyne. Appreciate that.
    Mr. Culberson. Thank you.
    Chairman McCaul. Thank you, sir.
    The Chair recognizes the gentleman from Texas, Mr. Gene 
Green.
    Mr. Gene Green. Thank you, Mr. Chairman, for having this 
hearing. I guess in Texas we would call it the shoulda, woulda, 
coulda hearing. Hopefully we learn from this.
    I am a native Houstonian. In the last number of years, we 
had Tropical Storm Allison that dropped 36 inches of rain over 
north and east Houston, Harris County. Of course, we had the 
tax day floods that devastated certain members, and also the 
Memorial Day floods.
    But in 2001 we had Allison, in 2008 we had Ike, and here we 
have Harvey, and it seems like every 7 years the Lord blesses 
us with these catastrophic events, and we need to do better in 
responding.
    My first question for FEMA, the decision to go to the State 
to get the GLO involved in it, I served 20 years in the 
legislature in the 1970's and 1980's, and I never knew the 
State land office to have any kind of disaster experience. Why 
the decision this time? Because that didn't happen in Ike, it 
didn't happen in Allison, to go to the General Land Office.
    Mr. Robinson. Sir, I think we looked at the 2016 floods and 
the experience we had in Louisiana and we felt, as the 
Administrator said, that providing the option where these 
events are locally-executed, State-managed, and Federally-
supported makes a lot of sense, because a one-size-fits-all 
doesn't fit communities, and it certainly wouldn't fit an area 
41,000 square feet with different demographics.
    So we went to the State, asked them. The General Land 
Office has a lot of experience with HUD Community Development 
Block Grants, so they partnered with us to deliver housing 
programs jointly so that we did that together.
    Mr. Gene Green. I know from the next panel, the mayor and 
the county commissioners, I don't remember the State land 
office having any interface at all with local governments on a 
regular basis, much less all of a sudden in a disaster doing 
that. That is why I think if you have a relationship with the 
city of Houston or anyone in CDBG, with HUD, if you send that 
money to the county or the city, and this is a disaster, I 
don't see why we would get the State involved, because the 
State, as you know, is having trouble getting their plans 
together and is keeping that money from getting to the local 
community who has a regular way that they deal with their 
constituents. I would think that maybe in Louisiana they have 
it, but in Texas we don't have that. The State doesn't have 
that much experience except for the law enforcement and, of 
course, when we have the flooding, every law enforcement, every 
EMS, everybody else is out there.
    I was just wondering why--what works in Louisiana may not 
work in Texas, and I had to tell that to a lot of my new 
constituents after Katrina. They would say, well, we don't do 
this thing in Louisiana. I would say, well, you are in Texas 
now. So I think our local governments can be responsible for 
the direct more than having another level in the State that has 
no experience in doing disaster recovery.
    The other thing, and I am glad that Congressman Culberson 
talked about it, up until literally Harvey, with some of our 
flood control projects with the Corps of Engineers, I was told 
on many projects in my area of north and east Houston that the 
cost/benefit analysis would not work. Our houses may be worth 
$60,000, and if you have a $200,000 house you can get more bang 
for your money.
    But now I understand, and I know through my county 
commissioner, Ellis--in fact, I have three county commissioners 
I work with, Commissioner Cagle who I see out there, 
Commissioner Morman, and Commissioner Ellis--that all of a 
sudden that cost/benefit analysis has changed, particularly on 
the hunting bayou. I was in a meeting before this this morning 
that we do every month in that area, and we are still having 
issues with why the hunting bayou that goes into the Houston 
ship channel, the cost/benefit analysis, I am glad it has been 
changed. Again, just because you are poor and you get flooded, 
the problem we have in our neighborhood--and I know that all of 
us should have flood insurance, but if you have a constituency 
who typically are seniors and not wealthy, flood insurance is a 
luxury, and sometimes they are living in those flood-prone 
areas. So their premiums are so high, they can't afford it.
    So Federal law right now says that if you have received a 
FEMA grant from 2001 or 2008 or any of these, then you are 
supposed to cover yourself with flood insurance. Well, after a 
few years and you get low into it and your premiums go up 
because you are in a flood-prone area, you can't afford it. I 
have constituents who are both Medicaid and Medicare who had to 
cancel their flood insurance because they couldn't afford it, 
and they are not receiving any help. Thank goodness we had a 
lot of non-profits, churches, communities helping those folks 
get back in their homes, because they can't afford to move 
either.
    So I am hoping that we will look at something on flood 
insurance and look at the affordability of the flood insurance 
for some of the areas where the property may not be worth a 
quarter of a million dollars, but it is also that people can't 
afford the premiums on the flood insurance. I think that needs 
to be considered.
    One of the things on FEMA, like I said, I have been through 
lots of disasters, and it seemed like that we were reinventing 
the wheel. I was on the conference calls every day for the 
first couple of weeks, and I remember when we had Allison that 
we had FEMA centers, one-stop centers in the communities. I 
kept hearing on the phone we were going to do that, but then I 
understand the county decided to do--and I talked to the county 
judge, who is a friend--we would have a big center in Baytown, 
one in Katie, and then one at Green Point Mall, which is great. 
That is near our district; in fact, actually in Congressman 
Lee's district.
    But it took us a while to get FEMA locations in the 
district. In fact, I was at the church this morning. You had 
one that was the first one there, and then you had one in 
Congressman Lee's district. But I remember at one time we had 
five of these, and the people could go to their neighborhood 
and do it without having somebody from near east-end Houston or 
near north side. They can't go to Katie. They can't even get to 
Green Point even, much less Baytown.
    So I would hope FEMA would look at what was successful in 
previous storms that would do it. I want to thank FEMA because 
we were in session trying to come up with money for disaster 
relief, and I would be home on Saturdays and I would work with 
my State legislators, and I thank FEMA for sending a lot of 
these young folks with laptops to different churches in our 
district on a Saturday to be able to help people who may not be 
internet-friendly. In fact, some of my constituents probably 
have to call their grandchildren to figure out how to file 
something. My grandkids tell me that, too.
    But I would hope that FEMA would look at some of the 
successes in earlier disasters instead of trying to reinvent 
the wheel all of a sudden. That is a concern.
    But, Mr. Chairman, I don't serve on the committee, and I 
thank you for the courtesy of letting me be here today. I serve 
on Energy and Commerce, so I work on energy and health care. 
But when the water is up to your door, you don't worry about 
what committee you are on. So, thank you.
    Chairman McCaul. Thank you.
    The Chair recognizes the gentleman from Texas, Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Although I am not from the Houston area, I did spend 3 
years at Texas Medical Center many, many years ago, so I am 
familiar with the terrain and the weather in the Houston area.
    Mr. Chairman, I am pleased that you have called this 
hearing today. I certainly want to thank our witnesses on this 
panel and the next panel. They were crucial in the response 
efforts.
    But I also just want to take a minute to recognize the work 
done by our hospitals and medical personnel to ensure that 
their involvement is included in the record. I have testimony 
from the American Hospital Association, and I have a letter 
from the CEO of the Texas Hospital Association and the 
Associations' Hurricane Harvey Analysis Report outlining Texas 
hospitals' preparation strategies and priorities for future 
disaster response, and I would ask unanimous consent to include 
those items in the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
             Statement of the American Hospital Association
                             April 9, 2018
    On behalf of our nearly 5,000 member hospitals, health systems, and 
other health care organizations, and our clinician partners--including 
more than 270,000 affiliated physicians, 2 million nurses and other 
caregivers--and the 43,000 health care leaders who belong to our 
professional membership groups, the American Hospital Association (AHA) 
appreciates the opportunity to submit comments on emergency 
preparedness and lessons learned from Hurricane Harvey.
    On August 25, 2017, Hurricane Harvey made landfall on San Jose 
Island, Texas, south of Houston, as a Category 4 hurricane. After 
striking land, Harvey weakened to a tropical storm and, for 2 days, 
dropped heavy rainfall, causing wide-spread flash flooding. Over the 
course of a week, the storm caused record-breaking destruction, with 
more than 60 inches of rain and entire communities destroyed by 
flooding. Tragically, the storm caused 90 deaths and an untold number 
of injuries, both physical and psychological.
    The Nation witnessed the best of humanity as neighbors saved each 
other from flood waters, emergency officials plucked stranded citizens 
from the roofs of their cars and homes, and strangers came to one 
another's rescue. Throughout the storm and its aftermath, the women and 
men of Houston's hospitals tended to their patients and provided care, 
even when their own families were being ravaged by the storm. These 
heroes cared for premature babies and patients just out of surgery 
during the worst of the storm and subsequent flooding. When hospital 
personnel could no longer operate due to safety concerns, they 
evacuated their patients to safety. Whenever possible, they kept the 
hospital doors open throughout the storm, even when they had to ration 
supplies to ensure every patient received high-quality care. These 
hospital heroes saved lives under the most difficult circumstances. We 
are incredibly proud of the women and men that provided care for those 
in need before, during, and after Hurricane Harvey.
                 lessons learned from hurricane harvey
    Hurricane Harvey was atypical in that it morphed into a massive 
storm in a very short amount of time. In previous hurricanes, 
communities have had more time to prepare and evacuate. It also moved 
slowly rather than quickly passing over the Houston area, allowing 
record rainfall to pile up and cause severe flooding.
    While Hurricane Harvey was atypical, the lessons learned from the 
storm are not. We have discovered similar findings from other storms in 
other States and in previous storms in Texas. While we have seen vast 
improvement in emergency preparedness since Hurricane Katrina in 2005, 
there remain issues that have yet to be resolved.
    Summaries of some of the main lessons learned by hospitals during 
Hurricane Harvey follow.
1. Lack of Availability of General Population Shelter Facilities to 
        Take Medically Fragile People
    During Hurricane Harvey many people with medical needs, such as 
those requiring dialysis or those who are ventilator-dependent, were 
turned away from shelters because the shelters were not equipped to 
handle their medical needs. This population turned to hospital 
emergency departments, despite not requiring acute medical attention, 
which stressed hospital resources, including personnel, food, and 
linen.
    The lack of shelters for medically fragile populations has been a 
consistent challenge for hospitals during emergency situations. While 
there are laws that require general population shelters to be staffed 
and equipped to meet the needs of medically fragile populations, such 
as having the ability to provide dialysis and medical oxygen, the 
reality is that general population shelters rarely have these 
capabilities. There needs to be focused attention, planning, and 
resources by local, State, and Federal Government, and key partners to 
ensure that general population shelters are staffed, funded, and 
equipped to be able to meet the needs of medically fragile populations 
in the future.
2. Inappropriate Reliance on Hospitals as Shelters
    As people were rescued from flood waters, hospitals were used as 
evacuation sites by emergency officials and ordinary citizens. The 
large number of people seeking shelter, in addition to the hospitals' 
existing patient populations, compounded by a shortage of hospital 
staff and the length of the storm, created serious resource challenges 
for hospitals and imposed additional burden on the limited number of 
hospital employees who were able to get to work.
    The use of hospitals as shelters for the general population has 
been a consistent challenge for hospitals in emergency situations. Key 
partners need to educate their communities about appropriate evacuation 
sites before and during a storm.
3. Availability of Security
    The availability of adequate security varied for hospitals during 
Hurricane Harvey. For those without adequate security, there were 
concerns about safety. With incredible demand for private security 
across the entire region, hospitals faced logistical challenges 
obtaining private security. This also has been an issue for hospitals 
during previous disasters that needs to be addressed with appropriate 
stakeholders.
4. Delivery of Supplies
    Hospitals have a limited availability of supplies on hand at any 
given time. While they are used to having 3 to 4 days of ``ride out'' 
provisions, hospitals were challenged during Hurricane Harvey due to 
the amount of rainfall, which made many hospitals inaccessible for 5 to 
7 days. Key community stakeholders throughout the country need to 
convene to develop strategies for delivering necessary supplies during 
emergencies.
5. Communication
    During Hurricane Harvey, there were communication failures and 
challenges with State and Federal officials and the military. There was 
confusion about which hospitals were operational and which ones were 
evacuating, creating problems with resource allocation and placement of 
patients. In addition, there was confusion about hospital employees 
being exempt from mandated curfews due to being ``essential'' when 
traveling to and from work. In some circumstances, police turned away 
much-needed hospital personnel when they were traveling to work, even 
though these hospital employees had proper identification. 
Communication has been a consistent problem during previous 
emergencies. Local, State, and Federal Government and the military need 
to work with key stakeholders to ensure clear, timely, and consistent 
communication during disasters.
6. Effective Use of Volunteers and Donations
    Coordinating the extraordinary outpouring of volunteers and 
donations during Hurricane Harvey was a challenge for hospitals. 
Getting credentials checked was an onerous manual process for out-of-
State medical professionals and there were questions about the scope of 
liability protection for all medical volunteers. In addition, there 
were logistical challenges for the massive amounts of food, clothing, 
toys, and other items donated. Key stakeholders need to make the 
volunteer registry more robust so that volunteers from out-of-State can 
be effectively used during an emergency. States need to address and 
make clear the liability protections afforded to volunteers. In 
addition, planning for donations of large quantities of goods needs to 
be completed in advance at the local level, including a plan for 
clearly communicating which goods are needed.
7. Recovery
    When entire communities are devastated by a disaster, there are 
significant needs for mental health services. Engaging with local 
social workers, chaplains, psychologists, and other mental health 
providers to assist the community is paramount. In some instances, 
mental health providers from outside the community will be needed. 
Hospital employees face the strain of being separated from family and 
being in the middle of a highly stressful emergency, with unknown 
outcomes and dramatic episodes. In order to reduce anxiety and burnout, 
hospital employees must be offered mental health support in a timely 
manner.
    Other important recovery measures include flood mitigation, 
building inspector guidelines for those hospitals that are recovering 
from flooding, and ensuring public health threats are mitigated.
    Financial support is also critical in the recovery from disasters. 
In addition to the increased costs incurred as a direct result of the 
disaster, hospitals have lost revenue from closures, interrupted 
billing and claims filing, canceled patient care services, and 
decreased patient flow.
8. Stafford Act Modernization
    The Stafford Act of 1988 was designed to bring an orderly and 
systematic means of Federal disaster assistance for State and local 
governments in carrying out their responsibilities to aid citizens.
    The act prohibits investor-owned hospitals from qualifying for 
Federal Emergency Management Agency (FEMA) assistance. During Hurricane 
Harvey, numerous investor-owned hospitals provided critical resources 
to their communities and other not-for-profit hospitals, including 
taking in evacuated patients. The allocation of FEMA assistance should 
not be determined by the status of a hospital. The AHA strongly 
recommends that the Congress modernize the Stafford Act to allow all 
hospitals to recoup financial losses from a disaster.
  priorities for 2018 reauthorization of the pandemic and all hazards 
                            preparedness act
    Congress recognized hospitals' and health systems' critical role 
during disasters in the Pandemic and All Hazards Preparedness Act 
(PAHPA) by creating the Hospital Preparedness Program (HPP), the 
primary Federal funding mechanism for emergency preparedness. Since 
2002, the HPP has provided critical funding and other resources to aid 
hospitals' response to a wide range of emergencies. The HPP has 
supported greatly enhanced planning and response; facilitated the 
integration of public and private-sector emergency planning to increase 
the preparedness, response, and surge capacity of hospitals; and 
improved State and local infrastructure that help hospitals and health 
systems prepare for public health emergencies. These investments have 
contributed to saving lives during many emergencies, including 
Hurricane Harvey, the Boston Marathon bombing, the Ebola crisis and 
hurricanes in New York, Florida, and Puerto Rico.
    Reauthorization of PAHPA must occur by Oct. 1, 2018. Below we 
outline our priorities for future investment to help prepare and equip 
our health care system in advance of disasters and public health 
emergencies.
1. Preparedness Programs Should Be Authorized at Sufficient Levels
    The HPP and Public Health Emergency Preparedness (PHEP) programs 
are key to the foundational capabilities of health care and public 
health preparedness, respectively. These programs must be resourced at 
sufficient levels to ensure every community is prepared for disasters. 
In particular, HPP's highest level of appropriation was $515 million; 
yet, in recent years, the program has eroded to only $255 million, a 
vastly insufficient level given the task of preparing the health care 
system for a surge of patients, continuity of operations, and recovery. 
Following a year in which the Nation experienced record-setting natural 
disasters, and with projection of an increase in the severity and 
frequency of extreme weather events, we must do everything we can to 
ensure that the health care system has the resources needed to prepare 
for and respond to future disasters. In order to keep pace with the 
ever-changing and growing threats faced by hospitals, health care 
systems, and their communities, the AHA recommends that HPP be 
authorized to at least $515 million per year. Furthermore, as the 
Centers for Medicare & Medicaid Services emergency preparedness rule 
goes into effect, the Department of Health and Human Services (HHS) 
expects as many as 50,000 health care facilities to seek inclusion in 
health care coalitions. This level of authorized funding would allow 
rebuilding of the program as it transitions from capacity building to 
operationalizing health care coalitions. The AHA has endorsed H.R. 
4776, the Hospital Preparedness Program Reauthorization Act of 2018, 
which would increase the level of authorized funding for the HPP to 
$515 million for fiscal years 2019-2023, doubling its current level of 
appropriated funding. We strongly believe that this investment would go 
a long way to help better prepare and equip our health care system 
Nation-wide in advance of future disasters and public health 
emergencies.
2. Preparedness Programs Should Be Nation-wide
    The HPP and PHEP must continue to provide funding to all existing 
awardees--all States, territories/freely associated States, and four 
directly-funded large cities. There has been no evidence that 
drastically changing the program's formulas would provide any 
meaningful benefit or that the current formula is flawed. On the 
contrary, greatly reducing or eliminating funding from some 
jurisdictions puts other States at risk: Those States that border the 
eliminated State would take on additional burden from the unmet public 
health and medical needs in neighboring communities. Further, funding 
formulas that lean too heavily on risks from prior natural disasters 
ignore universal risks, such as an influenza pandemic or other 
outbreaks, and unpredictable threats such as acts of terrorism and mass 
shootings. Because disasters can and do occur everywhere in the U.S. 
States and territories, all jurisdictions must be properly resourced in 
order to have an adequate level of preparedness for all hazards.
3. Preparedness Programs Should Remain Distinct
    The HPP and PHEP programs should continue to be aligned and 
coordinated but should be maintained as separate, distinct programs. 
The two programs serve a different but complementary purpose. PHEP, 
administered by the Centers for Disease Control and Prevention (CDC), 
builds the capacity of State and local health departments to prevent, 
detect, and respond to emergencies. HPP, administered by the Office of 
the Assistant Secretary for Preparedness and Response (ASPR), prepares 
the health care delivery system to provide essential care to patients 
by ensuring continuity of care during disasters. Both programs are 
needed to save lives and protect the public from emergency-related 
illnesses and injuries and each should remain under the jurisdiction of 
the agency that currently oversee its administration.
4. Broadening the Definition of Eligible Awardees under the HPP
    The AHA supports introducing competition into determining HPP's 
awardees in order to permit HHS to fund innovation and improve the 
Nation's health security. In addition to States' and directly-funded 
cities' public health departments, we recommend that State and local 
hospital associations, as well as academic medical centers, be 
permitted to apply to serve as the awardee for their jurisdiction. This 
will allow HPP to fund those entities that present the most innovative 
approaches to health care delivery system readiness. A second benefit 
of introducing competition is the potential to address the misalignment 
between HPP's health care mission and its current awardees' public 
health mission. While most of the HPP's public health department 
awardees work well with their private-sector health care delivery 
system counterparts to enhance preparedness and response, others 
struggle to work collaboratively with the private health care system 
that they also regulate. Through this proposal, private health care 
entities or hospital associations that have the organizational capacity 
and initiative to lead sector-wide preparedness and response activities 
also would be able to compete for HPP funds for their State or 
jurisdiction, not just health departments.
5. Improving the Efficiency of the HPP through Limits on Awardee-level 
        Direct Costs
    According to data collected by ASPR, public health department 
awardees have taken an average of 21 percent of the HPP award off the 
top for direct costs (i.e., personnel, fringe, and travel), in addition 
to their indirect costs, for overseeing award and subcontracts. Some 
awardees have taken far more than 21 percent of the HPP award for their 
direct costs. Further, ASPR has reported that high-performing awardees 
tend to have lower awardee-level direct costs (ALDC). With the 
substantial reductions in HPP appropriations in recent years, we are 
concerned that this level of skimming of limited program funds for ALDC 
leaves inadequate amounts for use by health care coalitions and health 
care providers to meet the critical capabilities of the HPP program. We 
support the efforts that ASPR's team has undertaken during the current 
project period to ensure the appropriate use of HPP funds. In 
particular, for the 2017-2022 HPP project period, we are pleased that 
ASPR is improving the efficiency of the program and better supporting 
its partners in health care by limiting ALDC to no more than 18 percent 
of the HPP cooperative agreement award, which will gradually decrease 
to 15 percent by the last HPP budget period. The AHA supports 
permanently capping the ALDC to 15 percent of the HPP award moving 
forward.
6. Immediate Response Fund
    A pre-approved standing fund of emergency resources that would 
speed the public health response to disasters is necessary. We support 
the following principles in an immediate response fund for public 
health emergencies: Such a fund should supplement and not supplant 
existing, base public health and preparedness funds; it should not 
preclude supplemental emergency funding based on the scope, magnitude, 
and duration of the emergency at hand; and it should come with a 
mechanism to automatically replenish funds. Such a fund should be used 
in the short-term for acute emergencies that require a rapid response 
to saves lives and protect the public. The Secretary of HHS should 
administer the fund, with Congressional oversight, to ensure relevant 
agencies receive dollars when needed for response.
7. Medical Countermeasures
    The Public Health Emergency Medical Countermeasures Enterprise 
strategy and implementation plan should be strengthened to require 
coordination with State and local entities to ensure the products being 
developed reach the end-users in a timely and well-coordinated manner. 
Several programs created in previous authorizations have been 
successful and should be maintained, including emergency use 
authorization, the Strategic National Stockpile, and the Shelf-Life 
Extension Program for State and local stockpiles.
8. Environmental Health
    Environmental health is a branch of public health that examines all 
the physical, chemical, and biological factors external to a person and 
incorporates the assessment and control of those environmental factors 
that can potentially affect health. Environmental Health professionals 
are extremely important in all-hazard emergency preparedness response, 
recovery, and mitigation due to their understanding of how disasters 
impact the environment. Environmental health professionals function in 
areas of controlling disease-causing vectors, food safety inspections, 
safeguarding drinking water, preventing chemical and radiation 
exposure, protecting the public from bioterrorism, and ensuring healthy 
working and living environments. Environmental health workforce should 
be included in the National health security strategy and workforce 
development.
9. Planning for Whole of Community
    HHS should move away from an ``at-risk individuals'' definition to 
a more functional approach, including the functional needs of children 
and persons with disabilities. The current statutory definition of and 
references to ``at-risk individuals'' throughout PAHPA are insufficient 
at improving the preparedness and response of communities to each of 
the populations encompassed by that term. HHS (ASPR and CDC) should 
develop a strategic plan for addressing each of the key sub-population 
groups, e.g., pregnant women, children, and individuals with access and 
functional needs. PHEP and HPP must ensure awardees are engaging in 
meaningful planning and coordination with each of these subpopulations 
and the institutions that serve them.
10. Advisory Committees and Experts
    The National Advisory Committee on Children and Disasters should be 
reauthorized and utilized as an important resource for the Secretary of 
HHS. Federal representatives should be ex officio, non-voting members, 
and the committee should incorporate additional expertise, such as 
mental and behavioral health and children with special health care 
needs. The National Preparedness and Response Science Board (previously 
called the National Biodefense Science Board) also should be 
reauthorized and strengthened to serve as a resource for the Secretary. 
CDC's Children's Preparedness Unit (CPU) should be authorized to ensure 
the unit becomes permanent. CPU should provide technical assistance to 
PHEP awardees to assist with their plans.
   always there, ready to care--the 24/7 role of america's hospitals
    Hospitals are at the center of every emergency that our Nation 
confronts, from natural disasters to deadly diseases to biological 
warfare, terrorism, and radiological and nuclear events. Readiness is 
an imperative for America's hospitals, one of the cornerstones of their 
essential commitment to safeguard the health of the public.
    The women and men of America's hospitals are critically important 
resources in responding to a disaster. It is when communities are 
pushed to the limits, such as when Hurricane Harvey hit, that we 
recognize that these everyday heroes' dedication to their patients and 
communities is beyond measure. We applaud their 24 hours a day, 7 days 
a week commitment and dedication.
                                 ______
                                 
           Letter Submitted by the Texas Hospital Association
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, United States House of 
        Representatives, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, United States House of 
        Representatives, Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: On behalf of the 
450 hospitals and health systems that comprise the Texas Hospital 
Association, I am pleased to submit, as written testimony before the 
House Homeland Security Committee, THA's report on hospitals' response 
and recovery experiences during and after Hurricane Harvey.
    As you know, Hurricane Harvey was a storm of historic proportions. 
Its size, scale, and economic impact are unparalleled in the Nation's 
history. Nonetheless, just 20 Gulf Coast hospitals closed or evacuated 
during the storm--a remarkable feat given the storm's impact and a 
testament to hospitals' on-going emergency readiness investment and 
preparation and the industry's resiliency.
    During the historic Category 4 hurricane, THA worked with hospitals 
all along the Gulf Coast and with local, State, and Federal authorities 
to coordinate response and relief efforts. THA is incredibly proud of 
every hospital in the affected areas that went above and beyond to 
prioritize care not only of patients but also of those seeking shelter 
from the storm in what was a protracted, challenging event.
    Findings in THA's report are the result of feedback shared by 
hospitals from Harvey-affected areas and agency partners. The report 
identifies areas for improvement to better equip hospitals, 
governmental agencies and other organizations for the next disaster and 
to delineate specific next steps to take in the improvement process.
    The report* includes specific recommendations on:
---------------------------------------------------------------------------
    * The report is retained in the committee files and available at: 
https://www.tha.org/Harvey.
---------------------------------------------------------------------------
  <bullet> Clarifying shelter facility requirements to care for 
        residents with medical challenges.
  <bullet> Providing adequate security for hospital facilities.
  <bullet> Coordinating communications with law enforcement, military, 
        and civilian groups.
    Thank you again for the opportunity to submit written testimony. 
Texas hospitals were and continue to be integral in the recovery 
efforts of our Gulf Coast communities, and THA appreciates the 
committee's work on this issue.
    If you have any questions about the report or Texas hospitals' 
response and on-going needs, please contact THA or THA's Federal 
representative.
            Sincerely,
                                                  Ted Shaw,
                         President/CEO, Texas Hospital Association.

    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Robinson, you were kind enough to take a phone call 
from me the Friday before the storm sequence really got under 
way, and I appreciated you doing that, and I felt it was 
important.
    Mr. Robinson, the FEMA Region VI headquarters is in Texas, 
the area that I represent. Mr. Robinson, on Monday, the 
following Monday, I went down to the Region VI headquarters and 
saw first-hand your personnel deep in their activities with the 
response. I guess the question comes as far as the staffing. It 
looked like there were a lot of people. There were a lot of 
hands on deck. But this was a storm of the magnitude that no 
one had ever seen before. So with respect to staffing, what are 
your thoughts, what are your conclusions, having gone through 
this and looking forward to what is the next hurricane season? 
How are you doing from a staffing perspective?
    Mr. Robinson. Thank you, Dr. Burgess, and thank you for 
your focus on preparedness. I know you have an event coming up 
at the end of the month, so thanks for focusing on 
preparedness.
    For Hurricane Harvey, as you said, we had a pretty big 
footprint here in Texas, and I can't say enough about our 
partners at the local and State levels. There is a lot of great 
capability here, so that really is a force multiplier for us as 
well.
    As an agency, we are currently looking at our force 
strength and what are the things we need to do going into the 
2018 season. Obviously, the 2017 hurricane season and the 
wildfires really taxed our system. One of the things that we 
did employ was a surge capacity force, which is members of the 
DHS family volunteered, came to work, got some just-in-time 
training, went out to the field. That was highly successful, it 
really was, and I want to thank the men and women of DHS and 
other Federal agencies who stepped up and came to the plate.
    We also reached out to State emergency managers and brought 
them in to augment our work force, and that was another very 
successful thing, so we can continue to build on those as we 
look at what are our continued staffing needs as we go into the 
2018 season.
    Mr. Burgess. Thank you for that.
    I will just, Mr. Chairman, make the observation that in 
September, the Energy and Commerce Committee had a field 
hearing in San Juan, Puerto Rico, and I think there it was like 
17,000 Federal employees in Puerto Rico at that time. At the 
same time you were working so hard here to recover, they had 
obviously been significantly impacted.
    It brings up the question, Administrator Robinson, and I 
have unfortunately seen a number of times where we have been 
through disasters--Rita; Katrina, of course, down here; Sandy 
in the upper East Coast--and it always seems like we are 
rebuilding structures that were damaged by the last storm, and 
yet you are required to rebuild to the current code. Is that a 
problem in going forward? Should we be building for greater 
resiliency, expecting the next storm might be worse?
    Mr. Robinson. I think that fits right into our 
Administrator's strategic plan where we talk about building a 
culture of preparedness. We do have to look at building more 
resiliency as we build back. So we are really looking, as we 
scope and cost-estimate the projects here in Texas for 
permanent work, as we are building in our mitigation programs, 
when we are building those, we are building back to higher 
codes and standards. We think that is vitally important.
    Mr. Burgess. Good.
    Admiral Thomas, you mentioned social media heat maps, a 
phrase I had not heard before. So you actually were monitoring 
the Twitter feeds and the Facebook feeds while this was going 
on?
    Admiral Thomas. Congressman, thanks for the question. It 
points out the incredible innovation, ingenuity, and 
flexibility of our Coast Guard work force. It became apparent 
to us pretty early on that people were reaching out to the 
Coast Guard through Facebook, through Twitter and Instagram. We 
had Coast Guard men and women around the country on their own 
develop heat maps and send them to our office in New Orleans so 
we could see where the concentration of those social media 
outreaches were coming from.
    We are going to try to do that in a more structured way in 
the future. But it just is another example of how the entire 
Coast Guard team pitched in to help us out here in Houston.
    Mr. Burgess. I would encourage the structure, because if 
you watch cable news coverage of this event, and an interviewer 
would be interviewing a very sympathetic figure, and at the 
conclusion of the interview, of course, the interviewer is 
going off to something else, but the sympathetic figure is 
still waiting on help to arrive and worried that they are going 
to survive the storm sequence. So I thank you for that effort, 
and I thank the people who took their own initiative to do 
that, and I think it is extremely important that we use all 
possible means.
    Then finally, Ms. Van Duyne, let me just ask you a question 
on the Community Development Block Grant issue. I always 
thought the Community Development Block Grant was a way to get 
money to the local level faster than going through State 
agencies. Is that not correct? Are the CDBG funds not going 
directly to municipalities and county facilities?
    Ms. Van Duyne. There is CDBG, and then there is CDBGDR. 
Disaster recovery grants can go to a number of different 
places. They have additional restrictions on them, and when 
dealing with the scope and the size of the various cities, 
communities, small and rural that were affected, our 
relationship with the GLO is actually quite extensive, and they 
have spent billions of dollars on CDBG and CDBGDR moneys within 
the State of Texas. It was a natural fit, and I think the 
Governor agreed that that was a natural fit for the CDBGDR 
program to be run through.
    Again, we provide them with a number of flexibilities, 
including the idea of being able to grant to States and 
counties as they see fit. But we believe the local level is the 
best level to know what their needs are.
    Mr. Burgess. I agree with that, and I think that was Mr. 
Culberson's point, that the money has to get to the place where 
it is needed as fast as it possibly can.
    Thank you, Mr. Chairman, for letting me be here. I will 
yield back.
    Chairman McCaul. Thank you.
    The gentleman yields.
    The Chair recognizes the gentleman from Texas, Mr. Al 
Green.
    Mr. Al Green. Thank you, Mr. Chairman. We were informed 
that the mics would always be hot.
    [Laughter.]
    Mr. Al Green. I also thank the Ranking Member, Mr. 
Thompson, for his outstanding work in this area as well. Thank 
you for allowing me to be an interloper today.
    Thank you to the witnesses for appearing.
    I also want to thank many of the persons who will have a 
hands-on experience with much of what we will do going forward, 
the county commissioners, city council persons, persons who are 
associated with hospitals, persons who are on the ground and 
have an understanding of what is going on, which may be a good 
segue into this CDBGDR funding.
    In 2015, when we had the Memorial Day flood, is it your 
recollection that the funds were allocated to Houston directly, 
or were they sent to Houston by and through some other entity?
    Ms. Van Duyne. I believe that they were sent through--quite 
honestly, I have been with the agency for a year, so that would 
be beyond my scope. I apologize for that.
    Mr. Al Green. I would like to have someone check.
    Ms. Van Duyne. If you let me know the information, I am 
happy to get that to you.
    Mr. Al Green. Please do. I greatly appreciate it.
    I am concerned about the funds going through an entity as 
opposed to coming directly to Houston, and the rationale would 
be better shared with you, I am sure, when the mayor testifies. 
But Houston has shown that it is responsible. Houston is not 
unlike many other large urban areas where these funds have been 
directly sent to them such that they can get them to the points 
of need immediately. So I want to add my voice to those who are 
calling for Houston to receive direct funding. I think it is 
exceedingly important that we do so.
    Moving now to previous disasters, we spent a lot of money 
on recovery after Harvey, tax day, Memorial Day, a lot of money 
on recovery. This really is a time for us to spend a lot of 
money on prevention. It is my hope that we will give serious 
consideration to some legislation that I sponsored and my 
colleagues, over 100 of them, co-sponsored, and that was to 
deal with the various creeks and tributaries, Greens Bayou, 
Brays Bayou, Huntington White Oak Bayou. All of these, if 
properly completed, will allow us to eliminate some and 
mitigate a lot of the flooding. We just have to complete them.
    We have tried to craft legislation working with 
Congressperson Culberson such that areas that have been 
repeatedly inundated will receive some attention.
    We have a place called Meyerland in Houston, Texas. Persons 
are repeatedly having to move out of their homes.
    So, Colonel, in terms of dealing with these preventive 
measures, can you give me some sense of how you will approach 
this question of prevention that has plagued us not for just 
this year or the last 3 years but literally decades in some 
cases with some of these projects? Your response, please.
    Colonel Zetterstrom. Yes, Congressman. Thank you for the 
question.
    The Corps calculates that flood risk management projects 
return $9 in flood risk mitigation for every dollar spent in 
structural solutions. However, I have previously testified that 
the Corps has more than $96 billion of authorized but yet 
unconstructed projects at this time. Some of it, I think, is 
tied to Congressman Gene Green's comments about cost/benefit 
ratios and the National economic development threshold where a 
flood risk management project has to ensure that the benefits 
outweigh the costs and that we propose alternatives that have 
the highest net excess benefits.
    There are some creative ways. You mentioned Greens. We are 
actually constructing Greens Bayou project because of some 
creative solutions to require the contractors to actually re-
sell the borrowed material from the excavated detention basins 
or the channels, and therefore reduce the cost of the projects.
    Some of this, as you have indicated in the legislation of 
the bipartisan budget act, was specifically directed to the 
five States and two territories directly impacted by Hurricanes 
Harvey, Irma, and Maria. So the Galveston District is still 
waiting on the allocation of what funds it will receive from 
that legislation.
    Mr. Al Green. May I, Colonel, ask you about Brays?
    Colonel Zetterstrom. So Brays actually is an on-going--it 
is a Section 211-F project. It is a project that the Galveston 
District receives Federal funds typically on an annual basis to 
reimburse increments of completed construction by the Harris 
County Flood Control District. In fiscal year 2017, for 
instance, I think we received approximately $11 million to 
reimburse the flood control district. Obviously, the 2018 
omnibus was recently passed, so I don't yet know what the 
future funding might be to complete that project. But certainly 
what you described in your question about these authorized 
flood risk management projects that haven't been completed I 
think is at the heart of the discussion about our ability to be 
able to partner and to complete these projects in the future.
    Mr. Al Green. Well, when we worked on these projects to 
include all of these various projects, these bayous, if you 
will, we worked with the Corps, we worked with the local, the 
county, and we came up with the number of $311 million: $311 
million spent to save billions makes a lot of sense. I am sure 
it makes sense to you, too. So let's see what we can do to get 
the $311 million quickly.
    Let me share this with you. I have small cities also, 
Stafford and Missouri City, and the reimbursement for them is a 
problem. Mr. Robinson, these small cities, you will hear more 
about their concerns in a moment, but can you give me some 
sense of how you are going to expedite help to the small 
cities?
    Mr. Robinson. Yes, sir. We signed an auxiliary manager 
agreement with the city that is working with the Texas Division 
of Emergency Management that is meeting with them regularly to 
look at their scope and cost and disasters. We have expedited 
some funding for emergency protective measures, so the Category 
A and B, the emergency removal and emergency protective 
measures. We will continue to work with them as we get the 
documentation put together to reimburse them, or even provide 
some advance reimbursement.
    Mr. Al Green. If I have a small city that contends that 
they have gone through all of the paperwork and they are still 
not getting the help, who do I need to talk to to expedite 
things?
    Mr. Robinson. I can give you a point of contact at our 
field office to be able to work with, and we will work with 
your office to make sure we address that. I think we are going 
to have a discussion tomorrow with the Missouri City mayor so 
we can work through their reimbursement.
    Mr. Al Green. Mr. Chairman, I just want to ask one more 
question.
    NFIP, tell me where we are in terms of the balance in the 
coffer.
    Mr. Robinson. The National Flood Insurance Program?
    Mr. Al Green. Yes.
    Mr. Robinson. I will have to get back with you on that.
    Mr. Al Green. You know that is exceedingly important. NFIP 
has to be shored up, and that is a Congressional 
responsibility. I am not eschewing our responsibility, but I do 
need to know what is there so that we can propose appropriate 
legislation for NFIP.
    Mr. Chairman, thank you for being generous with the time.
    Chairman McCaul. The gentleman yields back.
    The gentle lady from Texas, Ms. Sheila Jackson Lee, is 
recognized for the submission of questions for the record.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Colonel, one of the questions that I asked was about 
retention ponds, and I don't think you were able to get that, 
if my recollection serves well. So I would like to see where 
they are in terms of having that back in writing.
    Let me collectively indicate as well a process, Colonel, 
for expedited work and repair. Greens Bayou I would put in your 
eye primarily because it is a bayou that has begun work or had 
work begun before Hurricane Harvey. I would appreciate a 
written response back on that.
    Direct payment, I appreciate a response in terms of HUD 
listening to our plea and getting that done.
    Finally, maybe I was in Washington but I don't recall 
Administrator Brock being here in Houston. You know, I have 
invited him. We are in the midst of recovery. I think it would 
be more than appropriate for him to visit and understand what 
recovery is and the people who are still suffering. So I would 
appreciate you carrying forward that request.
    Mr. Chairman would be gracious enough to allow me to call 
off the names of some of those who were working so intensely, 
from first responders to cities and others, at the end of the 
hearing. I thank Mr. Chairman. I put those requests into the 
record.
    The last one is I gave you numbers about future floods or 
future hurricanes. I would like to have a response from all of 
you of how prepared you think we are for the hurricane season 
coming up in 2018. I would appreciate if all of you would give 
a response to that.
    Thank you, Mr. Chairman.
    Chairman McCaul. The gentle lady yields back.
    In the spirit of bipartisanship, the Chair recognizes Mr. 
Culberson for one question.
    Mr. Culberson. Thank you, Mr. Chairman.
    Since I know everyone in the room has their cell phones 
turned off, if there was a kidnapping in the area, we would all 
get an Amber alert, even with your phones turned off. I want to 
ask, since we have all these State and county officials here, 
and city officials here in the room, with your help and 
guidance, could we all come up with a plan to create a flood 
alert system? The technology is so good. The Corps knew several 
days in advance, and I know was communicating with local 
officials, what neighborhoods were going to get flooded when 
the water spilled around the dam.
    We should be able to create a flood alert system that can 
alert your phone, whether you have a flip phone or a smart 
phone, depending on where you live, that water is coming, 
because that water that hit everybody early Monday morning is 
what caused the problem.
    So why don't we all work together, Mr. Chairman, to find a 
way to pass legislation, working with our State and local 
partners, to create a flood alert system for people whose homes 
are in danger of being flooded? It needs to be done.
    Chairman McCaul. Excellent idea.
    I want to thank the witnesses for your valuable testimony. 
Lessons learned is more of a looking at things through a 
critical eye. But I just want to thank all four witnesses and 
who you represent, and everybody in the room who was part of 
the response and recovery effort, for your service to not only 
this Nation but to this great State of Texas.
    So with that, we are going to take a short break and then 
come back for a second panel.
    [Recess.]
    Chairman McCaul. We are pleased to welcome our second panel 
of witnesses. Our second panel includes the Honorable R. Jack 
Cagle, commissioner for Harris County, Texas, Precinct 4; the 
Honorable Sylvester Turner, the mayor of Houston, Texas; the 
Honorable Allen Owen, the mayor of Missouri City, Texas; Mr. 
Mark Sloan, the emergency management coordinator for Harris 
County, Texas; and finally, Ms. Carol Moore, the disaster chair 
of the Texas State Conference of the National Association for 
the Advancement of Colored People. Thank you all for being here 
today.
    Your full statement will appear in the record.
    The Chair now recognizes Commissioner Cagle for his 
testimony.

 STATEMENT OF R. JACK CAGLE, COMMISSIONER, HARRIS COUNTY, TEXAS

    Mr. Cagle. Chairman McCaul, thank you. Ranking Member 
Thompson and the fellow Members of this panel, I appreciate you 
being here so much.
    In preparation for my thoughts today, those of you--and I 
have six U.S. representatives in Precinct 4 here in Harris 
County that I deal with--you know that I tend to try to read a 
little more obscure works of literature to break those normally 
wasted hours between midnight and 4 in the morning. In 
preparation for the day I was reading St. Augustine.
    He made a comment that in his reflection of God, that even 
though there were many words that he could use in his books to 
try to describe God, it was as if he was still mute.
    Today, as we have been hearing this testimony before you, 
as we described the wonders of what has occurred in our midst 
with Harvey, all of these words are but a droplet when we 
compare it against those things that occurred when we had 14 
months of rain in 4 days here in Harris County and along our 
coast.
    Chairman, as you came in, and, Ranking Member, as you came 
in, you noticed some pieces of equipment that were outside. As 
the storm started to come into Harris County, we were utilizing 
those bits of equipment to try to ready ourselves for what we 
knew would come, a Gradall machine which picks up and clears 
our ditches, our dump trucks to where we would saw and cut 
those things that might impede. So we utilized that equipment 
to ready for the blast that would become Harvey.
    As Harvey came, then we began to continue to use that 
equipment to bring out our barricades and to move them, and 
move them again as the storm began to rise, and to clear the 
pathway so our first responders could be there. Your road and 
bridge crews were the ones that were there, like the old 
Seabees of World War II that cleared the pathway for the 
infantrymen. Your road and bridge crews in this county and in 
the city were the ones that were there first, responding before 
the first responders so that the first responders could do 
their job, putting up the barricades, moving them, and moving 
again.
    As the storms rose, we began to do our rescue operations, 
and the first rescue we had to do was we had to rescue the 
rescuers, because the courthouse where the sheriffs and the 
constables were operating out of, it flooded. So we moved them 
into our road and bridge camps, which actually turned out to be 
a wonderful thing since I was living there at the road and 
bridge camp at the time, and those guys were well-fed.
    So as we began to come together to find resources that were 
there. We then also, as Congresswoman Sheila Jackson Lee 
mentioned, began to use our dump trucks as our rescue vehicles, 
designed normally to haul debris. Now we used them to haul 
people in the midst of the storm. We began to call it Operation 
Dunkirk. We didn't know what we had, but whatever it was that 
we had, we used it every opportunity.
    You noticed out there those dump trucks. You also noticed 
outside our buses, which are normally reserved for our senior 
adult program. But during the storm, they were the people 
movers. We would use the dump trucks to move in, to pick up 
folks, haul the folks out, and then put them in our buses to 
take them to the shelters that were springing up everywhere.
    We are so grateful to the partnership of our school 
districts. I have nine in Precinct 4 that I serve. In that zone 
we were able to work with them, to work with the city of 
Houston, to work with the NRG Center, so as there was a need 
that arose, people came together. As we needed to rescue 
people, we found an amazing thing occurring in our midst.
    I would get the phone call from a city council member, 
which we have had a number who have been here today with the 
city of Houston, saying we have a group of folks over here, we 
need your help. But by the time we got there, in Kingwood or in 
Spring Branch or in other areas, we found that neighbors helped 
neighbors, and we did not as often have to go into the high 
water as we would have normally expected.
    Let me share with you something else, that we have a unique 
situation here in Harris County that is different from anywhere 
else in the country. You see, Precinct 4 is one-fourth of 
Harris County. I worked with a body in Harris County which, if 
Harris County were a State, it would be larger than the entire 
population of Louisiana. We heard from Louisiana earlier.
    Precinct 4, if it were a State, would be larger than 10 
States. I have seven cities that I serve. Earlier, Congressman 
Green was making a reference to his smaller cities, but they 
are only smaller cities in comparison to the city of Houston. 
They are actually significant cities in comparison to other 
cities throughout the State of Texas.
    On the west, I represent a part of Katy. Off of 290, I 
represent Jersey Village. Off of 249, Tomball. Off of 45, I 
represent the Township of Woodlands and Old Town Spring. Off of 
59, I represent Humboldt. Then all through the region, I 
welcome and nestle the beautiful city of Houston within the 
arms of Harris County Precinct 4 and Harris County.
    But where there is not a city, we have more than 2 million 
people in this county that do not have a mayor, and your county 
has to render those services directly to those people. That is 
why I welcome the comments of Congressman Green and of Sheila 
Jackson Lee with regard to the desire to bring funding directly 
to the city of Houston, but do not forget the unincorporated 
Harris County.
    The city of Houston would be the fourth-largest city in the 
country, but unincorporated Harris County, if it were a city, 
would be the fifth-largest city in the country, in the Nation. 
So bring it directly to the county as well as to the city. Do 
not forget those populations to which we have as many 
underserved populations outside Beltway 8 as we have within 
Beltway 8 within the county, and we need to not forget their 
needs as well.
    So as the rescue continued, then we began the operation of 
the removal, and the removal operation was serious. But through 
cooperation with the city, with the county, with the 
contractors that we had in place, we began to remove debris at 
a remarkable rate. We were able to remove more debris every 2 
days than we removed in the tax day flood.
    The tax day flood we have heard reference to was a 500-year 
flood event. Memorial Day is a 500-year flood event. We in 
Harris County actually, in the last 3 years, we were in a 
drought, and during that drought we talked, Congressman McCaul 
and Congressman Culberson--Congressman Poe is not here, he 
could not be with us today, but he was involved in this--of 
trying to come up with ways of trying to create some means of 
creating a multi-purpose leg, a third reservoir that might have 
water for us when we were in the drought, as well as having 
storm protection.
    But there was not that public support at the time. I would 
submit to you that after Harvey we have the public support, and 
the time is now for us to begin to look forward, to ready 
ourselves for the future and to cooperate with the State, with 
the county, with the cities, and with all others that are here 
so that we can make our place a safer place, so that we do not 
have to ready ourselves nor reach in the moan of heroic 
endeavor but that we can hail the wisdom of these bodies coming 
together to prepare for the future.
    I yield the rest of my time. Thank you.
    [The prepared statement of Mr. Cagle follows:]
                  Prepared Statement of R. Jack Cagle
                             April 9, 2018
                                it came
    Hurricane Harvey was the worst flood event to ever impact the 
Harris County region. A few statistics helps put the storm in 
perspective:
  <bullet> The storm dumped about 1 trillion gallons of water over 
        Harris County, producing the largest recorded rainfall event in 
        the continental United States and flooding 8 percent of the 
        county.
  <bullet> Damage estimates range from $120 billion to $180 billion.
  <bullet> In Precinct 4, nearly 11,000 homes flooded with more than 2 
        feet of water. More than 130,000 homes and businesses 
        throughout Houston and Harris County flooded and 600,000 cars 
        were damaged.
  <bullet> The hurricane killed 36 people.
  <bullet> The storm generated an estimated 8 million cubic yards of 
        debris in Houston. By comparison, Hurricane Ike produced more 
        than 5 million cubic yards of debris in the area. That's nearly 
        the same amount of debris caused by Hurricane Alicia (1983) and 
        Tropical Storm Allison (2001) combined.
                                we came
    During the worst of the storm, Precinct 4 employees worked to 
provide essential services, even while some dealt with flooding in 
their own homes. Some of these services included operating a 24-hour 
phone bank the week of Harvey, providing updates to the public through 
social media, and rescuing flood victims. Precinct 4 also had staff at 
the Emergency Operations Center (EOC), providing updates on the latest 
disaster developments 24 hours per day for 9 days of EOC operation.
    Precinct 4's Road & Bridge Department started preparing for Harvey 
days before the storm hit and stayed busy through the clean-up phase. 
Although their official duties included clearing roadways for emergency 
responders and closing flooded roads, Road & Bridge crews did much 
more. Many staff members willingly put themselves at risk rescuing 
flood victims. In the mean time, other staff members located staging 
areas and emergency supplies until permanent shelters could be 
established.
    Precinct 4 deployed 14 maintenance trucks for rescue service and 
two Senior Adult Program passenger buses to transport flood victims 
throughout the precinct. Additionally, Precinct 4 mobilized its 18-
wheeler and flatbed trailer, usually utilized to haul equipment, to 
relocate the Office of Emergency Management's equipment to NRG Park.
    The high waters threatened the integrity of several levees 
throughout Harris County. One harrowing moment concerned the evacuation 
of the Inverness Forest subdivision. Harris County Flood Control 
District discovered that the levee had been compromised. Precinct 4 
Road & Bridge crews along with deputies from the Harris County 
Sheriff's Office and the Constable's Office rushed into the 
neighborhood to evacuate the remaining citizens under the threat of a 
complete levee collapse. Thankfully, the water began to recede and 
flood control staff along with community engineers were able to shore 
up the compromised portions of the levee before a full breach occurred.
                              we overcame
    Once the storm passed, Precinct 4 opened a self-help storm debris 
drop-off site for the public that eased demand on county debris removal 
services and benefitted constituents who did not wish to wait for 
county pickup. We are grateful for U.S. representatives Michael McCaul 
and Kevin Brady for petitioning FEMA to allow us to operate the self-
help storm debris drop-off site at 13928 Humble Road in Tomball. We 
operated the site daily from 9 a.m. to 5 p.m. through December and 
collected 194,648 cubic yards of debris. Of that number, 21,803 cubic 
yards was dropped off by the public.
    One of the FEMA requirements of the self-help storm debris drop-off 
site was that owners must accompany their load. This requirement made 
it extremely difficult for nonprofits, community organizations, 
volunteers, and church groups mucking out and removing debris from the 
homes of constituents unable to help themselves. Requiring homeowners 
to accompany those loads impeded the process and made it much more 
difficult.
    We also managed to remove a record 534,109 cubic yards of debris in 
three passes in partnership with contractors and TxDOT. During the 
first pass of debris removal, Precinct 4 cleared approximately 260 
homes per day and completed debris removal in record time. In 
comparison, Precinct 4 took 3 weeks to complete the first pass of 
debris removal after the Tax Day Flood. After Harvey, our Road & Bridge 
crews in conjunction with our contractors removed about the same amount 
of volume in 2 days.
    Our progress was slowed by high demand for contractors and the FEMA 
requirement that homeowners needed to wait for inspectors before we 
could remove their debris.
    In addition, Precinct 4 helped organize two Disaster Recovery Fairs 
and assigned staff to work at food distribution sites. We are grateful 
for cooler donations from RTIC and water donations from HEB, Kroger, 
and Wal-Mart. Other duties included building temporary roads at the 
self-help storm debris drop-off site in Tomball as well as cleaning up 
damaged parks and flooded county buildings. Some staff even volunteered 
at food banks and shelters or were diverted to other tasks during the 
storm.
    The county also moved quickly to help residents rebuild after 
Harvey. FEMA requires owners of flooded homes to have a permit to 
rebuild. To expedite the process, county staff went door-to-door in all 
flooded areas to issue permits.
    During the recovery phase, Harris County Public Health offered free 
water testing at 4 locations in Precinct 4, while Harris County Flood 
Control District gauged interest in a home buyout program.
                         to continue overcoming
    As we near the next hurricane season, it's now imperative to begin 
work on additional flood control projects and repair the systems we 
already have.
    My top priorities include the following:
    1. Build a third reservoir that takes into consideration the 
        anticipated growth of the region and the lessons learned from 
        the might and size of Harvey.
    2. Expedite the buyout process, so local entities can raise the 
        funds, buy the homes, and wait for Federal reimbursement. This 
        will free homeowners from the prolonged agony of waiting to see 
        whether they will be approved for the Federal buyout program 
        and aid them in deciding whether they need to rebuild or not in 
        anticipation of being bought out.
    3. Floodplain planning.
    4. Fund the big four projects: White Oak Bayou, Hunting Bayou, 
        Brays Bayou, and Clear Creek.
    5. Make improvements to Barker/Addicks reservoirs and pursue home 
        buyouts to remove homes from the flood pool.
    6. Remove the ``checkerboard'' problem and allow the acquisition of 
        streets through the FEMA buyout program.
    7. Control flooding and alleviate drought through the Drainage 
        Reuse Initiative.
    8. Expand the Office of Emergency Management's ability to serve 
        regionally.
    9. Grant the county ordinance-making power to establish flood-
        safety protocols and enforce regulations preventing fill 
        violations in the floodplain.
    10. Acquire additional greenspace.
    11. Streamline FEMA rules while taking into consideration how the 
        most efficient solution, at many times, is in the volunteer and 
        private sector and allowing volunteers and nonprofits to serve 
        constituents without having to wait for Federal approval.
    12. Reduce the match required of local entities to receive aid 
        during disasters.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

             

    Chairman McCaul. The gentleman has no time.
    I am just kidding.
    [Laughter.]
    Chairman McCaul. We appreciate your remarks. I appreciate 
your great leadership during this crisis, and your friendship 
as well.
    The Chair recognizes Mayor Turner.

      STATEMENT OF SYLVESTER TURNER, MAYOR, HOUSTON, TEXAS

    Mr. Turner. Thank you, Chairman McCaul, and to the Ranking 
Member, Ranking Member Thompson, and to the other Members of 
the Homeland Security Committee, and also to Congressman Green, 
who is here as well. I want to thank you for the opportunity to 
be with you today and to speak to the on-going recovery efforts 
from Hurricane Harvey.
    First, the scope of this disaster. In the city of Houston, 
over 135,000 single-family homes were impacted. Over 209,000 
apartment units were affected. The total number of households 
runs up to approximately 345,000.
    As you have no doubt heard, more homes flooded in Houston 
during Hurricane Harvey than in New Orleans during Katrina or 
New York City during Super Storm Sandy. While we in Government 
refer to such human suffering in terms like ``unmet need,'' I 
can tell you the needs of so many will require all of our 
efforts to help people overcome Harvey's effects on their 
lives. This includes not only the lost homes and lost jobs, but 
the impact on behavioral health and childhood trauma.
    The immediate efforts were on rescuing people from harm's 
way, and to that I want to thank again the men and women of the 
Houston Police Department, the Fire Department, and the 
municipal employees who consistently went above and beyond to 
help their communities. But as we segue from rescue to 
recovery, we have not lost that same sense of urgency.
    When FEMA said it would be Christmas before we were able to 
remove debris, the city finished its first wave in the month of 
October. I want to acknowledge the work that the county did in 
this regard, because we both worked hand-in-hand. That urgency 
was displayed by our Solid Waste Department employees, who 
worked 7 days a week teaming up with crews from other cities 
like San Antonio and Dallas, along with private contractors. 
People cannot recover with debris in their yards, and the city 
of Houston worked overtime, again with a sense of urgency.
    The next item was planning for the recovery, and quite 
frankly that has meant changing the way we do business. I named 
Marvin Odum, the former CEO of Shell Oil, as our chief recovery 
officer, reporting directly to me and serving and speaking with 
my authority. Marvin's recovery team has worked across city 
departments to break down silos and stress the urgency of 
recovery, and has also worked with outside groups as well.
    My charge to Marvin Odum was to be transformational, to 
make the city stronger, to make the city more resilient, and to 
make me, if necessary, uncomfortable in the changes being 
proposed, and he has not shied away from bringing me tough 
decisions.
    One of those decisions was to make significant changes to 
our Chapter 19 Flood Plain Ordinance, where we as a city will 
require all new construction to be at the 500-year flood plain, 
plus 2 feet. Homes in Houston flooded in Presidentially-
declared disasters in 2015, 2016, and in 2017. Suffering three 
500-year floods in a row to me means there is a new normal, and 
Government should catch up.
    We now communicate, cooperate, and plan better with our 
partners at Harris County, and I echo everything that 
Commissioner Cagle had to say. I would be remiss not to mention 
my partnership with Harris County Judge Ed Emmett, who has been 
a fantastic partner during and since the storm. Our flooding 
czar, Steve Costello, works to make sure our city's Public 
Works Department is in sync with Harris County's Flood Control 
District to get the most protection out of every dollar spent.
    I am often asked by members of our delegation what more we 
could be doing, and I would like to take this opportunity to be 
specific on a request that we have with FEMA on a productive 
conversation. That is, FEMA has had productive conversations 
with Marvin's office on using volunteer hours to serve as our 
local match for FEMA Categories C through G. We anticipate that 
the local match would be about $250 million. We both 
acknowledge those efforts and thank FEMA for working with us in 
this volunteer program.
    Now is the time for FEMA to start this match program. 
Expanding the volunteer match will not only lower project cost 
for all levels of government, it would encourage further 
community involvement with the recovery, aligning with FEMA's 
``whole community'' approach. Essentially, the goal is for the 
city of Houston to put forth a volunteer program of 
accumulating 2 million volunteer hours in 1 year, and that 
would be used to offset the $250 million match that we are 
required. I would ask that as Members of Congress you join us 
in this novel approach and ask FEMA to begin. Know that local 
taxpayers would be thankful for what you can do to make this 
match happen.
    Moving forward, there are two programs the city of Houston 
will be actively engaged in. First, as we work with our 
partners at HUD and GLO to get the $5 billion in Community 
Development Block Grants Disaster Recovery dollars allocated to 
Texas into the communities affected, I know that my office will 
continue to work with local stakeholders and community partners 
to develop the best locally-run programs that we can operate. 
Conversations and consultation are on-going for this, and I 
believe we will be able to report on progress on action plans 
very soon.
    Congressman Green, you asked whether or not the CDBGDR 
appropriation in 2015 was direct to the city of Houston, and 
the answer is yes. Based on what we have been told, the current 
time line is that the $5 billion will not reach either Houston 
or Harris County until sometime probably in August or early 
September. I would ask that we move with a greater degree of 
urgency in speeding up that time line.
    Second, it is my hope that the State of Texas will consider 
joining Florida, North Carolina, South Carolina, Oklahoma, 
Virginia, Georgia, and Colorado in helping to provide a local 
match for our Hazard Mitigation Grants Program. The State 
should use either the Economic Stabilization Fund or any other 
source to fully participate at 100 percent of the local cost 
share for FEMA 404 Hazard Mitigation Grants. Under the 
declaration, FEMA will fund up to 75 percent of the costs for 
mitigation measures undertaken by the city.
    By funding the cost share for theprojects, the State will 
be directly contributing to flood mitigation. This sends the 
right message and will protect homes and commercial property 
from the flood threat of these repeated storms across all areas 
of the State.
    We cannot ask people to rebuild and deepen their roots in 
our community unless they know we, collectively as different 
levels of government, are working to mitigate the threat of 
future floods. We need another reservoir and, Chairman McCaul, 
not necessarily a study. We need the plows to start working 
now. We need the channels to be widened. We need more regional 
on-site detention. We need the dredging. We need these things 
to take place now. More studies just lead to more studies that 
lead to more flooding and will not result in any meaningful 
mitigation.
    As mayor of the largest city in Texas, I want to thank the 
people of Texas for their support during this unprecedented 
disaster. During Hurricane Harvey, approximately 27 trillion 
gallons of rain fell in Texas. But that was only the initial 
surge. Police officers from Arlington and Fort Worth, solid 
waste crews from San Antonio and Dallas, and volunteers from 
faith-based organizations came to Houston. We thank them. We 
will never forget those who came to us in our time of need.
    We have looked to our Federal Government for resources, and 
as the initial tranche of CDBG monies makes its way through HUD 
to the GLO, know that we are working with urgency to get 
resources to those who need the dollars right now.
    Thank you.
    [The prepared statement of Mr. Turner follows:]
                 Prepared Statement of Sylvester Turner
                             April 9, 2018
    Thank you, Chairman McCaul, Ranking Member, Members of the House 
Homeland Security Committee.
    Thank you for the opportunity to be with you today and speak to the 
on-going recovery efforts from Hurricane Harvey.
    First, we must level set around the scope of this disaster:
  <bullet> In the city of Houston, over 135,000 single-family homes 
        were impacted.
  <bullet> Over 209,000 apartment units were affected.
    The total number of households runs up to 345,000.
    As you have no doubt heard as we have been advocating for recovery 
dollars, more homes flooded in Houston during Hurricane Harvey than in 
New Orleans during Katrina or New York City during Superstorm Sandy. 
While we in Government refer to such human suffering in terms like 
``unmet need,'' I can tell you the needs of so many will require all of 
our efforts to help people overcome Harvey's effects on their lives.
    The immediate efforts were on rescuing people from harm's way, and 
to that I want to thank again the men and women of the Houston Police 
Department, Fire Department, and Municipal employees who consistently 
went above and beyond to help their communities. But as we gave way 
from rescue to recovery, we have not lost that same sense of urgency.
    When FEMA said it would be Christmas before we were able to remove 
debris, the city finished 2 weeks into October. That urgency was 
displayed by our Solid Waste Department employees, who worked 7 days a 
week teaming up with crews from other cities like San Antonio and 
Dallas along with private contractors. People cannot recover with 
debris in their yards, and the city of Houston worked overtime, again, 
with urgency.
    The next item was planning for the recovery, and quite frankly that 
has meant changing the way we do business. I started off by naming 
Marvin Odum as our Chief Recovery Officer reporting directly to me and 
serving and speaking with my authority. Marvin's Recovery Team has 
worked across city departments to break down silos and stress the 
urgency of recovery.
    My charge to Marvin was ``to make me uncomfortable,'' and he has 
not shied away from bringing me tough decisions.
    One of those decisions was to make significant changes to our 
Chapter 19 Flood Plain Ordinance, where we as a city will require all 
new construction to be at the 500-year flood plain, plus 2 feet. Homes 
in Houston flooded in Presidentially-declared disasters in 2015, 2016, 
and in 2017. Suffering three 500-year floods in a row to me means there 
is a new normal, and Government should catch up.
    We now communicate, cooperate, and plan better with our partners at 
Harris County. I would be remiss not to mention my partner in this 
effort, Harris County Judge Ed Emmett. Our flooding czar, Steve 
Costello, works to make sure our city's Public Works Department is in 
sync with Harris County's Flood Control District to get the most 
protection out of every dollar spent.
    I'm often asked by members of our delegation what more we could be 
doing, and I would like to take this opportunity to be specific on a 
request that we have. FEMA has had productive conversations with 
Marvin's office on using volunteer hours to serve as our local match 
for FEMA Categories C-G. We both acknowledge those efforts and thank 
FEMA for working with us. Now is the time for FEMA to start this match 
program. Expanding the volunteer match will not only lower project cost 
for all levels of government--it would encourage further community 
involvement with the recovery, aligning with FEMA's ``Whole Community'' 
approach. I would ask that as Members of Congress you join us in asking 
FEMA to begin. Know that local taxpayers are thankful for what you can 
do to make this match happen.
    Moving forward, there are two programs the city of Houston will be 
actively engaged in:
    First, as we work with our partners at HUD and GLO to get the $5 
billion in Community Development Block Grants Disaster Recovery (CDBG-
DR) dollars allocated to Texas into the communities affected, I know 
that my office will continue to work with local stakeholders and 
community partners to develop the best locally-run programs that we can 
operate. Conversations and consultation are on-going for this and I 
believe we will be able to report on progress on actions plans very 
soon.
    Second, it is my hope that the State of Texas will consider joining 
Florida, North Carolina, South Carolina, Oklahoma, Virginia, Georgia, 
and Colorado in helping to provide a local match for our Hazard 
Mitigation Grants Program (HMGP).
    The State should use the ESF to fully participate (at 100 percent) 
of the local cost share for FEMA 404 Hazard Mitigation Grants. Under 
the declaration, FEMA will fund up to 75 percent of the costs for 
mitigation measures undertaken by the city.
    By funding the cost share for HMGP projects, the State will be 
directly contributing to flood mitigation. This sends the right message 
and will project homes and commercial property from the flood threat of 
these repeated storms across all areas of the State.
    We cannot ask people to rebuild and deepen their roots in our 
community unless they know we, collectively as different levels of 
government, are working to mitigate the threat of future floods.
    As Mayor of the largest city in Texas, I want to thank the people 
of Texas for their support during this unprecedented disaster. During 
Hurricane Harvey, approximately 27 trillion gallons of rain fell in 
Texas. But that was only the initial surge:
    Police officers from Arlington and Fort Worth, solid waste crews 
from San Antonio and Dallas, and volunteers from faith-based groups 
flooded Houston. We will never forget those who came to us in our time 
of need.
    We have looked to our Federal Government for resources, and as the 
initial tranche of CDBG monies makes its way through HUD to the GLO, 
know that we are working with urgency to get resources to those who 
need it.

    Chairman McCaul. Thank you, Mayor, and thank you for your 
great leadership through this crisis as well. I am so with you 
and the commissioner. The time for studies I think is over. We 
need to move forward with this reservoir as soon as possible.
    The Chair recognizes Mayor Owen.

      STATEMENT OF ALLEN OWEN, MAYOR, MISSOURI CITY, TEXAS

    Mr. Owen. Chairman McCaul, Ranking Member Thompson, other 
Members of Congress, and especially my Congressman, Congressman 
Green, thank you for asking me to come today. We tell people 
that Houston is a suburb of Missouri City, but we are right 
adjacent to it.
    We have a major problem in my city, and it is called the 
Brazos River. I can tell you that when we first started hearing 
about this storm, we prepared our emergency operation center 
which, again, my Congressman was in many times. I think he had 
my number on speed dial, wanting to know what he could do. But 
we have inundation maps that show water being in certain houses 
when the Brazos River reached 52, 54, 56, 58 feet. We were 
getting projections that the Brazos River would peak at 59 feet 
and would be there for 9 days.
    I can tell you that at 52 feet, we already would have had 
water in it. We saw this happen in the tax day flood, and we 
reached a peak in the Brazos River at 54.7. We finally, thank 
God, received news that the Brazos River would only be at 55.6 
when it finally peaked.
    I will tell you that my inundation maps only went to 58 
feet. Had the Brazos River reached 58 feet, I would have had 
water in 9,500 homes in my city, which is basically a third of 
all the homes that are in the city. As it was, we ended up with 
water in about 1,500 homes. We did 1,300 high-water rescues. I 
housed 60 State Troopers and 17 National Guardsmen in one of my 
buildings that we fed and housed for over a week. I didn't have 
the resources to do that.
    So with the Governor giving me the ability to do it, I 
commandeered stuff. I went down to the Academy and I took 
$24,000 worth of stuff out of that Academy--boots, waders, 
kayaks, ropes, life vests. I went into HEB, got food. I went 
into Walmart, got sleeping material for these officers to spend 
the night and work 24 hours. I spent 7 days in our operations 
center, and I never will forget where I was on August 26, 
because that was my 50th wedding anniversary, and I was in that 
operations center for 7 days, but I couldn't get into my own 
home. My family was there, but I had people in that center 
working 24 hours a day.
    The reason I say this, Chairman, is that we have to pay 
those people. We pay them overtime. My expenses during that 
storm were over $1 million in overtime. Ranking Member Thompson 
knows that you have to pay people when they work, and I had 
people in that operations center working 12-hour shifts, many 
of them with water in their own homes. But they were there, 
dedicated to do what they needed to do for the city.
    Our concern is that we spend our money up front, and then 
we wait to be reimbursed. Not only did I have flooding, I had 
two tornadoes that hit my city, tornadoes that destroyed 58 
homes and one subdivision, two shopping centers and a bank 
building and the rest of it that are still not finished today 
because of reimbursement requests that are needed.
    Unfortunately, and I think we talked about it earlier, when 
I talked to the people who got flooded, they did not live in a 
100-year flood plain, or thought they didn't, so they didn't 
have flood insurance. Ninety-five percent of these people did 
not have flood insurance. They have to apply for assistance 
somewhere else. Unfortunately for FEMA, that is $33,000 for 
those people. That doesn't even start to repair some of the 
damage.
    We have to do a better job of educating people that flood 
insurance is cheap, especially if you don't live in a flood 
zone. We need to get more of them to do that so they are 
prepared for something like that.
    We weren't prepared for anything like this storm. We had 
never seen it. I have been in office 32 years. I have been 
through a lot of rodeos. This was the worst. Ike was all wind 
and no rain. Harvey was all rain and no wind. But I will just 
tell you that during Hurricane Ike, I was out $390,000 out of 
my budget in 2010. We didn't receive the final payment until 
2013. The tax day request is $100,000 or more, and we haven't 
even heard when we are going to get that money yet.
    The most important thing for you all to remember--and I 
chair a coalition of 13 multi-cities in the Harris County area, 
and I also chair a coalition of 18 cities that are in Fort Bend 
County. We talk about this, that none of us received a penny, 
that I am aware of, but yet we paid that money up front.
    Here is the important part that you need to remember. 
Ranking Member Thompson knows this. When we take money out of 
our general fund, we are taking money out of the required 
reserve that our bonding agencies require us to have. Twenty-
five percent of our capital improvement projects and 25 percent 
of our budget needs to be in our reserves. When I take money 
out of that reserve, the bonding agencies come in--and we have 
reduced that amount of money--and they look at my bonding 
rating differently.
    That affects us all. These small cities don't have that. I 
am in the process right now of spending $25,000 to hire a 
consultant to tell us how to fill out the forms that are needed 
for FEMA. We submitted our Rebuild Texas submittal to the State 
of Texas. It is $97 million. I haven't heard a word where we 
are on that. Part of that is flood mitigation that we are 
prepared to spend money to make sure it doesn't happen again.
    There is a levy district that protects Missouri City from 
the Brazos River; 59 feet is the limit on that levy. I can tell 
you that I sat there during that period of time, and I cried 
one night thinking what would happen to the rest of my city had 
that levy broke or exceeded the percent.
    So we are doing our part. What I am asking for today, and I 
am asking on behalf of the small cities, we can't wait 3 years 
to get our money back. We can't wait 3 years for it to affect 
our bond rating when we take money out of our pocket to pay for 
this stuff and then we don't get a response back early enough 
for us to protect ourselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Owen follows:]

                                                                 REBUILD TEXAS WORKSHEET
                                                        Prioritized Requests for Federal Funding
                                                      Requesting Entity Name: Missouri City, Texas
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Description
                                                              -------------------------
                                                                Economic Redevelopment
                                                               Incentives of Hurricane
                                                                 Harvey Substantially                                             Other Possible Funding
             Rank Order                     Project Name       Damaged Structures thru      Est. Cost        No. of Units  (if     Sources  (Insurance,
                                                                    Public/Private          (Dollars)           Applicable)            Local, Etc.)
                                                                  Partnerships in a
                                                               Economically Distressed
                                                                Areas (Ranked Projects
                                                                       No. 1-7)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1...................................  Texas Parkway Corridor   Missouri City Central--        $3,000,000
                                       Commercial               Movie Theater
                                       Improvements.            Building--2416 Texas
                                                                Parkway.
2...................................  Texas Parkway Corridor   Quail Corner Shopping          $3,000,000
                                       Commercial               Center--King Dollar--
                                       Improvements.            2192 Texas Parkway
                                                                (Old Kroger).
3...................................  Texas Parkway Corridor   Wells Fargo Office             $2,900,000
                                       Commercial               Building (Texas
                                       Improvements.            Parkway @ Court Rd.).
4...................................  Texas Parkway Corridor   KFC Building Damaged              $80,000
                                       Commercial               Facade Improvements.
                                       Improvements.
5...................................  Cartwright Rd. Corridor  Meadow Creek Village           $1,500,000
                                       Commercial               Building (Old HEB).
                                       Improvements.
6...................................  Cartwright Rd. Corridor  Quail Valley Town              $2,400,000
                                       Commercial               Center--2601
                                       Improvements.            Cartwright Rd.
7...................................  Cartwright Rd. Corridor  Village Walk Center            $1,200,000
                                       Commercial               (Palais Royal) 3819
                                       Improvements.            Cartwright Rd.
8...................................  Rehabilitation of        Supplemental funding          $30,900,000  2049 (based on initial  Private Insurance.
                                       housing damaged during   (without duplication)                      assessment).
                                       the disaster.            for homes and
                                                                buildings up to a
                                                                maximum of $20,000 per
                                                                home, that were
                                                                impacted by the storm.
9...................................  Acquisition of new       Undertake new housing          $4,000,000  20....................
                                       housing units.           construction to
                                                                provide housing stock
                                                                for displaced
                                                                residents.
10..................................  Facfade and              Implement Facfade and          $2,500,000
                                       Infrastructure           Infrastructure
                                       Improvement Program.     Improvement Program
                                                                within core corridor
                                                                areas, including low-
                                                                moderate income CDBG
                                                                areas, such as Texas
                                                                Parkway, Cartwright
                                                                Rd., FM 1092, and 5th
                                                                Street that sustained
                                                                damage during the
                                                                storm event.
11..................................  Emergency Preparedness.  Disaster Notification            $175,000
                                                                Technology (i.e.,
                                                                reverse 9-1-1) for
                                                                special needs
                                                                populations regarding
                                                                potential evacuation
                                                                and emergency
                                                                notification purposes.
12..................................  Develop a Flood Alert    Installation of                  $500,000
                                       System and Increase      rainfall and stream
                                       Public Awareness of      level gauges in
                                       Hazards.                 critical streams for
                                                                public awareness and
                                                                information, more
                                                                efficient emergency
                                                                response, more timely
                                                                warnings to the
                                                                general public,
                                                                hydrologic and
                                                                hydraulic model
                                                                calibration and more
                                                                efficient use of
                                                                emergency assets.
                                                                Outreach to public
                                                                thru various
                                                                communication channels
                                                                to increase awareness
                                                                of flood hazards.
13..................................  Brazos River             Backwater effect from            $250,000
                                       Interactive Inundation   Brazos River has the
                                       Maps for Emergency       potential to impact
                                       Preparedness and         over 5,000 properties
                                       Response.                within Missouri City.
                                                                During Hurricane
                                                                Harvey, approximate
                                                                evacuation areas were
                                                                identified based upon
                                                                static innudation
                                                                maps. However, these
                                                                maps will need to be
                                                                expanded/enhanced to
                                                                include different
                                                                Brazos Tailwater
                                                                Scenarios, and to also
                                                                include actual ground/
                                                                building elevation
                                                                data for better
                                                                accuracy. This will
                                                                allow residents to
                                                                obtain site-specific
                                                                information on their
                                                                homes vs. river
                                                                elevations.
14..................................  Localized Ponding Maps   Several areas within             $250,000
                                       for Emergency            Missouri City were
                                       Preparedness.            inundated from local
                                                                rain during the Harvey
                                                                Event, which includes
                                                                flooded structures.
                                                                Identifying potential
                                                                low-lying areas within
                                                                the city that are more
                                                                prone to flooding/
                                                                inundation during
                                                                extreme rain events
                                                                will aid in emergency
                                                                preparedness and
                                                                response. Utilizing
                                                                the existing ground
                                                                topography/Lidar Data,
                                                                ponding maps will be
                                                                developed city-wide,
                                                                for various (5)
                                                                rainfall frequencies
                                                                and tailwater effect
                                                                from the Brazos River.
15..................................  Gate Closure for         This project entails           $5,000,000
                                       isolating Flat Bank      implementing a flood    Estimated City's
                                       Creek Diversion/Oyster   control alternative     share of funding
                                       Creek from the Brazos    for preventing the      to this project.
                                       River Flood Levels.      backflow of the Brazos   Other potential
                                                                River flood waters            sources of
                                                                from entering the        funding include
                                                                existing developed      Fort Bend County
                                                                areas within Missouri          and local
                                                                City. Improvements        jurisdictions.
                                                                include a Flat Bank
                                                                Creek Diversion
                                                                Closure (Flap Gated
                                                                Culverts) to prevent
                                                                intrusion of Brazos
                                                                River flood waters
                                                                into Oyster Creek and
                                                                other upstream areas.
16..................................  Emergency Operations     Acquire property which        $10,000,000  1.....................
                                       Center Back-up.          has dormitory
                                                                accommodations to
                                                                serve as a back-up
                                                                emergency operations
                                                                center and housing for
                                                                emergency operations
                                                                crews, i.e. Global
                                                                Geophysical, 13927 S.
                                                                Gessner Rd., Missouri
                                                                City TX.
17..................................  Grants for training      Grants for training              $100,000
                                       first respondents with   first respondents with
                                       all necessary disaster   all necessary disaster
                                       preparedness knowledge   preparedness knowledge
                                       and skills: $100,000.    and skills.
18..................................  Emergency Preparedness.  The purchase and                 $900,000  3.....................
                                                                installation of
                                                                emergency generators
                                                                on city facilities.
                                                                Specifically, the City
                                                                Centre which served as
                                                                housing for over 60
                                                                National Guard, police
                                                                officers, and other
                                                                first responders
                                                                during the last event;
                                                                the City Hall Facility
                                                                which serves as the
                                                                back-up Emergency
                                                                Operations Center, and
                                                                the Public Works
                                                                Service Center which
                                                                serves as fleet
                                                                maintenance and
                                                                operational center for
                                                                disaster response.
19..................................  Emergency Preparedness-- Channel improvement for        $1,500,000  1.....................
                                       Hazard Mitigation        Mustang Bayou from the
                                       Project No. 1.           GCWA Canal through the
                                                                Thunderbird North
                                                                Subdivision.
20..................................  Emergency Preparedness-- Channel improvements           $2,500,000  1.....................
                                       Hazard Mitigation        along Mustang Bayou
                                       Project No. 2.           from the Thunderbird
                                                                North Subdivision to
                                                                the confluence with
                                                                the old channel;
                                                                including pipeline
                                                                relocations and a
                                                                sheet pile structure.
21..................................  Emergency Preparedness-- Extend the Brisco Canal        $1,500,000  1.....................
                                       Hazard Mitigation        Flume over Lower
                                       Project No. 3.           Oyster Creek to enable
                                                                excavation of the
                                                                widening of the
                                                                channel; plus allow
                                                                for channel
                                                                improvements upstream
                                                                of the flume.
22..................................  Emergency Preparedness-- Channel Improvements             $850,000
                                       Hazard Mitigation        along the Long Point
                                       Project No. 4.           Creek Overflow Channel
                                                                upstream of the Brisco
                                                                Canal.
23..................................  Emergency Preparedness-- NFIP Repetitive Loss           $1,600,000  11....................
                                       Hazard Mitigation        structures. Pursue
                                       Project No. 5.           acquisition,
                                                                elevation, or flood
                                                                proofing projects and
                                                                structural solutions
                                                                to flooding for
                                                                repetitive loss
                                                                structures.
24..................................  Emergency Preparedness.  Funding for generators            $20,000  20....................
                                                                to energize key
                                                                traffic signals within
                                                                city.
25..................................  Emergency Preparedness.  Funding for traffic              $200,000  10....................
                                                                signal cabinets to
                                                                replace storm-damaged
                                                                cabinets.
26..................................  Emergency Preparedness.  Provide daily meals to            $80,000  1,600.................
                                                                emergency operations
                                                                personnel.
27..................................  Emergency Preparedness.  High Water Rescue                $525,000  3.....................
                                                                Vehicles.
28..................................  Emergency Preparedness.  Rescue Boats with life            $60,000  6.....................
                                                                jackets.
29..................................  Emergency Preparedness.  Sand hopper for making            $50,000  2.....................
                                                                sand bags necessary
                                                                for interim flood
                                                                control set-up.
30..................................  Emergency Preparedness.  Portable high GPM              $1,000,000
                                                                stormwater pumps and
                                                                accessories for flood
                                                                mitigation
                                                                applications.
31..................................  Emergency Preparedness.  "Tiger Dams''--                $1,000,000  100...................
                                                                Temporary tubular dams
                                                                that can be used for
                                                                flood control to
                                                                secure critical
                                                                facilities.
32..................................  Emergency Preparedness.  Quick dam--expandable              $5,000  100...................
                                                                sand bag.
33..................................  Damage to City-owned     Damaged signal cabinet            $35,000  2.....................  City's Insurance from
                                       Buildings/               and signal heads.                                                  TML may cover a
                                       Infrastructure.                                                                             portion these losses.
34..................................  Damage to City-owned     Surface Water Treatment          $200,000  7.....................  City's Insurance from
                                       Buildings/               Plant, Wastewater                                                  TML may cover a
                                       Infrastructure.          Treatment Plant, and                                               portion these losses.
                                                                Associated Facilities.
35..................................  Damage to City-owned     Estimated repair cost            $150,000  15....................  City's Insurance from
                                       Buildings/               for vehicles damaged                                               TML may cover a
                                       Infrastructure.          during the storm event.                                            portion these losses.
36..................................  Damage to City-owned     Surface Water Treatment          $200,000  7.....................  City's Insurance from
                                       Buildings/               Plant, Wastewater                                                  TML may cover a
                                       Infrastructure.          Treatment Plants, Lift                                             portion these losses.
                                                                Stations and
                                                                Associated Facilities.
37..................................  Damage to City-owned     Estimated damage to              $500,000  6.....................  City's Insurance from
                                       Buildings/               other city buildings.                                              TML may cover a
                                       Infrastructure.                                                                             portion these losses.
                                      *Administrative          Funding for                   $16,000,000
                                       Expenses.                administrative costs
                                                                (estimated at 20% of
                                                                the total project
                                                                costs).
                                     -------------------------------------------------------------------------------------------------------------------
                                      .......................  .......................       $96,630,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  NON-MITIGATED RECORDS
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Community Name                    CID            Bldg. Payments   Contents Payments  Total Payments   Average Payment     Losses    Properties
--------------------------------------------------------------------------------------------------------------------------------------------------------
Missouri City, City Of...........  480304..............       1,605,645.04         377,928.82    1,983,573.86          17,099.11         116          35
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                    MITIGATED RECORDS
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Community Name                    CID            Bldg. Payments   Contents Payments  Total Payments   Average Payment     Losses    Properties
--------------------------------------------------------------------------------------------------------------------------------------------------------
Missouri City, City Of...........  480304..............           9,154.61               0.00        9,154.61           2,288.65           4           2
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                      RESIDENTIAL VALIDATED SEVERE REPETITIVE LOSS
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Community Name                    CID            Bldg. Payments   Contents Payments  Total Payments   Average Payment     Losses    Properties
--------------------------------------------------------------------------------------------------------------------------------------------------------
Missouri City, City Of...........  480304..............         738,921.07         154,673.90      893,594.97          24,151.22          37           5
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   ALL REPETITIVE LOSS
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Community Name                    CID            Bldg. Payments   Contents Payments  Total Payments   Average Payment     Losses    Properties
--------------------------------------------------------------------------------------------------------------------------------------------------------
Missouri City, City Of...........  480304..............       1,614,799.65         377,928.82    1,992,728.47          16,606.07         120          37
--------------------------------------------------------------------------------------------------------------------------------------------------------


                HARVEY-RELATED COSTS REPORTED IN FUND 800
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Personnel Costs for Harvey including benefits and               $708,897
 overtime............................................
Wearing Apparel......................................            $21,698
Minor Tools, Furn & Equipment........................             $4,947
Eoc Supplies.........................................            $52,116
Contractual Services.................................            $57,682
Fleet Repair Costs...................................            $91,348
Machinery & Equipment................................            $42,440
                                                      ------------------
      Total..........................................           $979,128
------------------------------------------------------------------------


    Chairman McCaul. Thank you for that testimony. It was very 
passionate.
    The Chair recognizes Mr. Sloan.

  STATEMENT OF MARK SLOAN, EMERGENCY MANAGEMENT COORDINATOR, 
 OFFICE OF HOMELAND SECURITY AND EMERGENCY MANAGEMENT, HARRIS 
                         COUNTY, TEXAS

    Mr. Sloan. Thank you, Chairman McCaul, Ranking Member 
Thompson, and committee Members, for the opportunity to brief 
today.
    Harris County is unique throughout the country. We have 
1,777 square miles and 4.7 million residents that reside here. 
We have an urban population of approximately 2 million in the 
unincorporated area, meaning they don't live within a city 
limit.
    There are also 34 cities within Harris County, including 
the city of Houston. During times of a disaster, it is our 
responsibility to support each of those cities equally, 
including our partners in the unincorporated Harris County.
    Harris County is home to 57 fire departments, over 125 law 
enforcement agencies, all of them heroes during this event.
    We have quite a bit of critical infrastructure. As you are 
well aware, it needs to be supported in order to get our 
economy back on-line.
    Since 1979, Harris County has had 46 Federally-declared 
disasters. That is an average of one every 9 months, some of 
them large like Harvey, others smaller like Memorial Day or tax 
day, or the fires of 2011.
    In Texas we say a lot of things like ``neighbors helping 
neighbors.'' Well, we are proud of that because there is a hero 
on every porch in Texas. In the emergency management authority 
in all counties throughout Texas, we have the authority that we 
need to be able to manage disasters. It is that coordination 
that we do with our jurisdictions and our first responders. It 
is absolutely essential that we have to manage the scarce 
resources that are available to us at the local level, from our 
State partners, and from our Federal partners in order to react 
and respond accordingly.
    We have lots of plans, we do a lot of training, and the way 
we practice is the way we play. That is not important just 
before a disaster, but during and also in the recovery process.
    As we learn lessons in the recovery and the mitigation, 
Harris County was capable of inspecting 180 county buildings 
within the first 6 days. Within 72 hours, over 900 traffic 
signals were inspected and repaired to safe conditions. Within 
5 days, 13,000 lane miles and 800 bridges were inspected. 
Within 2 weeks, all road washouts and damaged bridges were 
repaired to safe conditions.
    Harris County started hauling debris in the first 4 days 
after Harvey, on schedule to maintain three passes within a 90-
day period. For a while we removed the equivalent of the tax 
day flood debris every 2 days, as the Commissioner mentioned. 
We have hauled over 1.2 million cubic yards to date, not 
including what flood control has done within our systems. 
Harris County inspected over 500,000 homes visually and issued 
almost 30,000 permits and 25 full inspections within 5 weeks. 
Our courthouse and jury assembly buildings were completely 
damaged and continue to be repaired, a challenge at this time.
    These statistics were for the unincorporated area of Harris 
County. The FEMA mitigation funds are crucial to restoring 
these efforts as we are now looking ahead to the upcoming storm 
season. We appreciate FEMA's review of mitigation money. We 
hope Congress provides pre-mitigation funding opportunities 
instead of waiting for a disaster to fund these things. We have 
seen that this is extremely beneficial and have seen the return 
on that investment of mitigation money now at not only 4-to-1 
but at 6-to-1.
    Other lessons learned include warnings and communications. 
Our regional joint information center was activated with 
personnel from all over the region and the State. We pushed out 
over 2,400 social media notifications and posts, 650 media 
interviews, 259 news releases, and 25 press conferences. But we 
saw that even that was not enough, and recovery and planning, 
which now includes new backup opportunities for our 9-1-1 
system and other public alerting systems.
    Lessons learned include sheltering for urban populations. 
We sheltered almost 20,000 people in mega-shelters being open 
at the George R. Brown in the city of Houston, and the NRG 
Center, including persons from other counties seeking refuge 
that came to us when we averaged almost 3 feet of rain across 
our entire county. The shelter at NRG with community partner 
Baker Ripley has become a model, having included medical, 
pharmacy services, child care, veterinary care, and FEMA at a 
registration site.
    We appreciate the work the GLO and the delegation are doing 
on the CDBGDR funding allocations with Harris County and the 
city of Houston.
    Another lesson learned was multiple overlapping National 
disasters. As we have done other disasters here on numerous 
occasions, the opportunities for disaster recovery centers have 
been able to be provided to our community within the community. 
The fact is we had Irma and Maria impacting the country, so we 
received three mega disaster recovery centers, and eventually 
we got up to 20. There were many delays during the critical 
first few weeks when FEMA became stretched thin to manage these 
additional events in multiple jurisdictions. We urge Congress 
to look at ways to better equip FEMA to handle multiple 
overlapping disasters in the future.
    Thank you for the opportunity to brief today. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Sloan follows:]
                    Prepared Statement of Mark Sloan
                             April 9, 2018
                               background
    Briefly describe urban and complexity of Harris County. We are 
unique in the country in that we have a dense, urban population of 
approximately 2 million that are in unincorporated Harris County, 
meaning they do not live within a city limit. There are also 34 cities 
inside the county, including the city of Houston. During times of 
disaster, it our responsibility to support each of those cities 
equally--including our partners in unincorporated Harris County.
    Harris County is home to 57 fire departments, more than 125 law 
enforcement agencies, with quite a bit of critical infrastructure and 
key resources, as you may know. Since 1979, Harris County has had 46 
Federally-declared disasters. In fact, we average 1 disaster every 8 or 
9 months.
             emergency management authority--harris county
  <bullet> Harris County, and all counties, has the authority it needs 
        but it needs to be followed
  <bullet> This is of particular concern to Harris because 34 cities, 
        dense urban region
City to County to State to Feds . . . Feds to State to County to City
  <bullet> Absolutely essential to managing scarce resources during a 
        disaster
  <bullet> Practice how you play
  <bullet> Important not only before disaster and during, but also 
        during recovery
      federal joint operations center field office--post-disaster
  <bullet> These FEMA field offices to support a disaster response
  <bullet> They typically house at the State in Austin
  <bullet> That makes sense for them pre/during disaster but not after
  <bullet> For increased coordination with locals, the Joint Operations 
        Center should be sent to local communities where the disaster 
        occurred for better integration (State can request this)
  <bullet> State support is needed for this because the State is FEMA's 
        client, not the locals
  <bullet> The purpose of a Joint Field Office, according to the 
        Federal plan, is to integrate all Federal agencies to improve 
        the overall Federal response. But no matter how well the 
        Federal response is coordinated--if it is not integrated with 
        local efforts, it is not working as well as it can.
                        recovery and mitigation
  <bullet> Harris County inspected 180 county buildings in 6 days
  <bullet> Within 72 hours over 900 traffic signals were inspected and 
        repaired to safe conditions
  <bullet> Within 5 days over 13,000 lane miles and 800 bridges were 
        inspected.
  <bullet> Within 2 weeks all road washouts and damaged bridges were 
        repaired to safe conditions
  <bullet> Harris County started hauling debris 4 days after Harvey on 
        schedule for 3 passes in 90 days.
  <bullet> For a while we removed the equivalent of the Tax Day flood 
        debris every 2 days. We have hauled over 1.2 million cubic 
        yards to date, not including the Flood Control District's 
        debris.
  <bullet> Harris County inspected over 500,000 homes visually and 
        issued almost 30,000 permits and 25,000 full inspections within 
        5 weeks.
  <bullet> Our courthouse and jury assembly were completely damaged and 
        continue to be a challenge.
  <bullet> All of these statistics were for the unincorporated area of 
        Harris County.
  <bullet> The FEMA mitigation funds are crucial to restoring these 
        efforts as we are now looking ahead to the upcoming storm 
        season.
              lessons learned--warnings and communications
    The Regional Joint Information Center was activated with personnel 
from all over the region and State. This included 2,418 social media 
posts, 650 media interviews, 259 news releases, and 25 news 
conferences. But we saw that even that was not enough and recovery 
planning now includes new back-ups for our 9-1-1 system and other 
public alert systems.
           lessons learned--sheltering for urban populations
    Harris County sheltered almost 20,000 people with the mega shelters 
being opened at George R Brown Center and NRG center, including persons 
from other counties seeking refuge. The shelter at NRG with community 
partner Baker Ripley has become a model, having included medical and 
pharmacy services, child care, veterinarian care, and FEMA registration 
on-site.
       lessons learned--multiple, overlapping national disasters
    Harris County originally received 3 mega DRCs and eventually housed 
appox. 20 DRCs, both fixed and mobile. There were delays during the 
critical first few weeks when FEMA became stretched thin to manage 
additional events in Florida. We urge Congress to look at ways to 
better equip FEMA to handle multiple, overlapping events in the future.

    Chairman McCaul. Thank you, Mark.
    The Chair now recognizes Ms. Moore for her testimony.

     STATEMENT OF CAROL MOORE, DISASTER CHAIR, TEXAS STATE 
CONFERENCE, NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED 
                             PEOPLE

    Ms. Moore. Thank you so much for having me. Chairman 
McCaul, Ranking Member Thompson, and Members of the Committee, 
I am Carol Moore, chair of the Texas State NAACP disaster 
committee.
    Hurricane Harvey was devastating, and with the storm, we, 
like so many organizations, faced the daunting task of helping 
those in need, and still are helping those in need.
    The Texas State NAACP has an MOU with the Red Cross and the 
Federal Emergency Management Agency, FEMA. Working in tandem 
with these two organizations has allowed us to continue our 
mission of advocacy. There were many calls and emails and 
meetings which allowed us to partake in disaster response and 
the recovery process.
    What happened for this very first time with the MOUs with 
the Red Cross and FEMA and the NAACP, we were actually at the 
discussion table to talk about issues that had priority and had 
not had impact on our community in a very positive way. So this 
is a very important structure for us, to have these MOUs.
    We knew that Hurricane Harvey was historic, and to capture 
that work, we created a documentary. The documentary is called 
``NAACP Harvey'' and is publicly available for those who wish 
to view it. I would be honored if those on the committee would 
like to see it, and we would be glad to produce that 
documentary for you.
    After Hurricane Harvey made landfall, we quickly learned 
that rescue for our community meant that helping each other was 
the only way we were going to get through it. This catastrophic 
event was historic in our community. Fear and panic seemed to 
rule the whole community. We were surrounded by high water and 
confusion as to where help was coming from, and added to the 
state of panic. We are still in a state of panic.
    Members of the community did not wait for Federal 
assistance before we took action. Local first responders worked 
for days to save lives. Business owners opened their doors to 
help provide goods and services. Churches provided refuge for 
storm survivors. There were countless individuals who stepped 
up and helped others in the face of the storm aftermath, and 
for that we are grateful and take great pride.
    From the lessons learned from Hurricane Harvey, the Houston 
NAACP Branch Disaster Recovery Center was created. Our disaster 
recovery center provided many residents with assistance, 
including mucking supplies, finding housing, filing FEMA 
applications and appeals, Red Cross assistance, and outreach to 
the elderly and families with children. These are examples of 
the many lives we have touched.
    One of the lessons Hurricane Harvey taught and/or reminded 
the community is that preparation is key. Preparation in policy 
is nothing if the people in the community are not prepared. 
People need to know that in a crisis, you are your own first 
responder. You must have plans for your families in case of an 
emergency. Community leaders must be prepared for the storms 
and know how to provide instructions to those who need them.
    Looking forward, and we all want to do that, the NAACP 
Branch Disaster Recovery Center is looking to establish a 
block-by-block campaign in conjunction with churches and create 
a State-wide certified emergency response team. We believe that 
this emergency response team will use existing relationships 
between communities and residents to create a robust network 
for those in need after a disaster.
    Many times we forget that many people live every day in a 
disaster. Therefore, the rescue and recovery process after 
Hurricane Harvey continues. The Texas State NAACP stands ready 
to work with those here today and those listening from afar to 
increase community preparedness and speed the recovery for 
Hurricane Harvey survivors.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Moore follows:]
                   Prepared Statement of Carol Moore
                             April 9, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, I am Carol Moore, chair of the Texas State NAACP Disaster 
Committee.
    Hurricane Harvey was devastating and with the storm, we, like so 
many organizations faced the daunting task of helping those in need.
    The Texas State NAACP has Memorandums of Understanding (MOUs) with 
the Red Cross and Federal Emergency Management Agency (FEMA). Working 
in tandem with these two organizations has allowed us to continue our 
mission of advocacy. There were many conference calls, emails, and 
meetings which allowed us to be part of the disaster response and 
recovery process.
    We knew that Hurricane Harvey was historic and to capture our work, 
we created a documentary. The documentary is called NAACP Harvey and is 
publicly available for those who wish to view it. I would be honored if 
Members of the committee would view the documentary as it would give 
you a sense of the challenges we faced on the ground.
    After Hurricane Harvey made landfall, we quickly learned that 
rescue for our community meant that helping each other was the only way 
we were going to get through this catastrophe. Fear and panic seemed to 
rule as whole communities were surrounded by high water. Confusion as 
to where help was coming from added to the state of panic.
    Members of the community did not wait for Federal assistance before 
we took action. Local first responders worked for days to save lives. 
Business owners opened their doors to help provide goods and services. 
Churches provided refuge for storm survivors. There were countless 
individuals who stepped up and helped others in the face of the storm 
aftermath and for that we are grateful and take great pride.
    From the lessons learned from Hurricane Harvey, the Houston NAACP 
Branch Disaster Recovery Center was created. Our Disaster Recovery 
Center provided many residents with assistance, including mucking 
supplies, finding housing, filing FEMA applications and appeals, 
locating Red Cross assistance, conducting outreach to the elderly and 
families.
    One of the lessons Hurricane Harvey taught and/or reminded the 
community is that preparation is key. Preparation in policy is nothing 
if the people in the community are not prepared. People need to know 
that in a crisis you are your own first responder. You must have plans 
for your families in case of an emergency. Community leaders must be 
prepared for the storms and know how to provide instructions to those 
who need them.
    Looking forward, the NAACP Branch Disaster Recovery Center is 
looking to establish a block-by-block campaign in conjunction with 
churches and create a State-wide certified emergency response team. We 
believe that this emergency response team will use existing 
relationships between communities and residents to create a robust 
network for those in need after a disaster.
    Many times we forget that many people live every day in a disaster, 
therefore the rescue and recovery process after Hurricane Harvey 
continues. The Texas State NAACP stands ready to work with those here 
today and those listening from afar to increase community preparedness 
and speed the recovery for Hurricane Harvey survivors.
    Thank you for the opportunity to testify, and I look forward to any 
questions you may have.

    Chairman McCaul. Thank you, Ms. Moore.
    I recognize myself for questioning, but before doing so I 
ask unanimous consent to insert in the record a statement from 
Commissioner George P. Bush of the Texas General Land Office.
    Without objection, so ordered.
    [The information follows:]
    Statement of George P. Bush, Commissioner, General Land Office, 
                             State of Texas
                             April 9, 2018
    Chairman McCaul, distinguished Members of the committee, thank you 
for the opportunity to share lessons learned by the State of Texas in 
preparing for, responding to, and recovering from Hurricane Harvey.
    As you know, after Hurricane Harvey made landfall Governor Abbott 
approached the General Land Office (GLO) for taking the lead on short-
term housing programs for hurricane victims. This meant that for the 
first time, short- and long-term housing would fall under the same 
agency.
    When Hurricane Harvey finally dissipated, it affected 49 counties 
and prompted over 890,000 Texans to apply for FEMA assistance. Of 
those, FEMA qualified 371,000 for individual assistance and of those 
6,000 qualified for direct housing. Additionally, FEMA and the GLO 
identified 87,000 Texans as potentially qualified for assistance 
through our Partial Repair and Essential Power for Sheltering (PREPS) 
program. Approximately 19,000 Texas households chose to take part in 
that program. So far, we have repaired more than 11,000 homes through 
our PREPS program, and nearly 8,000 families continue to receive 
temporary housing.
    In the past, Texas conducted recovery under the traditional FEMA-
led program model. In comparison, after the flooding in March 2015, it 
took until late May for the placement of the first Manufactured Housing 
Unit (MHU). That 3-month time line was unacceptable to me. Under the 
new decentralized Harvey short-term recovery model, we placed MHU's 
much faster than ever before in Texas. In this case, Governor Abbott 
designated the GLO as the State's lead for short-term housing recovery 
on September 14. (Historically, the GLO handled long-term recovery 
through administration of CDBG funds but had no role in short-term 
housing.) Despite the compressed time line, the GLO placed the first 
MHU within 22 days of being designated to lead the State's short-term 
housing program. From 3 months to less than 1--the fastest recovery in 
history was under way. Federal dollars fund recovery as always, but it 
is State-administered and locally-led for the first time.
    FEMA has never passed the administration of the short-term housing 
programs over to a State. Historically the General Land Office, or any 
other State agency in Texas has taken on this aspect of recovery. 
Through my team at the GLO, Texas created an innovative model for the 
rest of the Nation to emulate. For the first time, short-term housing 
is administered on the State level, implemented on the local level, and 
led by local officials.
    As a model for the Nation, we have recorded important lessons 
learned, and put these lessons to use so we can better serve Texans on 
the road to recovery. I am proud to be able to outline some of the ways 
we have innovated the disaster response process at the General Land 
Office since we were given the lead on this crucial mission.
    First, we have pushed for and received important regulatory 
reforms. Originally, it was impossible to temporarily house survivors 
of this storm at commercial sites due to regulatory restrictions on 
using private assets. We faced a similar issue as we tried to implement 
the Direct Lease program. Previously, FEMA regulations dictated we 
could only place storm victims in apartments not available for general 
use. This obviously and unnecessarily slowed down recovery. After 
working on these issues with our partners at FEMA, they granted Texas 
the ability to lease any available properties or commercial sites that 
met the standard requirements outlined in our agreements with FEMA. 
This change in policy allows Texans and other Americans affected by 
future storms placement in temporary housing even faster. This Texan 
innovation will improve recovery Nation-wide.
    We have also made significant changes to the way our staff handles 
the Personally Identifiable Information (PII) of disaster survivors. 
Due to the Federal Privacy Act of 1972, the PII of those impacted by a 
disaster and access to that data are significant challenges in any 
locally-led and State-sponsored recovery from a disaster like Hurricane 
Harvey. We have repeatedly heard this from our local officials as well. 
To ease this bottleneck, I have directed that every member of our 
agency staff that uses this data, and every member who may in the 
future, undergo a Federal background check to allow our team to access 
and utilize the data necessary to get Texans back home. Additionally, 
each of our recovery professionals is receiving a PIV card that meets 
Homeland Security requirements. These cards will be used to access 
their office buildings and to access their email and other sensitive 
information requiring a background check. It is important that we can 
access this data efficiently to speed recovery, but it is vital that we 
protect this data to guard Texans from identity theft and other data-
related crimes. We are committed to doing both.
    Additionally, we have been inovative in how we utilize technology 
to recover from a disaster. We have created a disaster recovery domain 
in which each employee in the recovery program area gets a Microsoft 
365 Cloud account that meets Federal security requirements. We use 
Microsoft HUBS and video teleconferencing to share information and 
documentation in real time from our headquarters in Austin to our field 
staff across the State in the disaster areas. This saves taxpayer money 
by cutting travel costs and staff time on the road. It allows 
information to move in real time.
    On the ground, we brought in Andrew Natsios to be our Recovery 
Czar. Andrew is the former head of USAID's disaster recovery world-
wide. His mission will be identifying shortfalls, improvements, and 
changes we can make to future housing recovery efforts. We will publish 
his findings as a report so we do not repeat mistakes in future 
disasters and so others can learn from our recovery.
    We have also assigned a significant number of GLO staff to the 
field. We learned that while most communities plan for disaster 
response, they do not always plan for disaster recovery. Having our 
staff in the field helps communities recover more efficiently from 
Hurricane Harvey and future disasters. These field staff have 
established important relationships with local leaders and Councils of 
Government (COGs). These relationships allow us to start educating 
Texas' coastal communities on how to recover from the next storm. In 
fact, one of our teams led the first disaster recovery training in the 
Rio Grande Valley and is hosting another training in Austin.
    One of our biggest lessons in this disaster was discovering areas 
where there are needs for updates and modernization in the Stafford Act 
should the ``Texas model'' become the National standard for disaster 
recovery in the future. We have three main recommendations:
    First, block grants should be the preferred method of distribution 
of funds in place of intergovernmental service agreement (IGSA). An 
IGSA can slow recovery, no matter how well-intentioned. This would also 
allow for the use of innovative housing programs such as Rapido, 
Kasitas, and 3-D printed homes, which we requested permission to use in 
the aftermath of Harvey.
    Second, any State's lead agency for disaster recovery should have 
prepositioned Indefinite Duration, Indefinite Quantity (IDIQ) 
contracts. We encourage every other State to pre-position those 
relationships for an expedited disaster response.
    Last, there should be pre-prepared waivers for Federal procurement 
guidelines to allow a State impacted by a disaster to move as quickly 
as possible to get the goods and services their citizens are in 
critical need of while the details get worked out--so disaster 
survivors are not waiting on bureaucracy.
    I am proud of the work the GLO has done on behalf of all Texans, 
but we know there is significant work left. Although it was not without 
challenges, we have managed to forge a productive partnership with FEMA 
throughout the administration of our recovery. We have worked with our 
Federal partners, but we have made unilateral innovations where 
possible to expediate recovery for all Texans affected by this historic 
event. We appreciate the committee's and Congress' support as we 
continue working to get Texans back home.

    Chairman McCaul. I now recognize myself for questions.
    Commissioner Cagle, you and I and Mayor Turner and Mark 
Sloan, we have lived through this tragedy, but we are looking 
for solutions to prevent the next one from occurring. Three of 
these in the last 2 years is unacceptable.
    So my question has to do with this third reservoir. We have 
all seen the map. It was actually in 1940 that the map was made 
by the Army Corps of Engineers, and here we are in 2018, and 
that levy--not even a levy, much less a reservoir, has been 
constructed. President Kennedy said we will land a man on the 
moon by the end of the decade, and that was less than 10 years. 
So for me to hear it is going to take 10 years is unacceptable.
    Most homeland security issues aren't Republican or 
Democratic. They are all about the American people and what is 
best for Texans and the American people and how we can protect 
the American people from threats, whether they be man-made or 
natural disasters.
    So I want to start with you, Commissioner, and then the 
Mayor and Mark, in terms of how important is this third 
reservoir, and what do we need to do working together with the 
Army Corps of Engineers to get this done as expeditiously as 
possible?
    Mr. Cagle. First of all, thank you, Chairman McCaul, for 
your leadership in showing the Corps map. The Corps map is 
actually an outgrowth from a map that the county put together a 
few years before called the Rafferty Plan with the tri-
corridors, 1939. Before that, in 1910, there were discussions 
about how we needed to provide for spaces for our water to go 
by a gentleman by the name of Comey.
    So what we are discussing today is something that we have 
known is needed since the great hurricane that occurred in 1900 
that you referenced earlier. So it is appropriate that we bring 
forth the lessons of history and learn them this time.
    How important is it? One hundred years' worth of important 
lessons that we have neglected until now, and I want to thank 
you, each and every one, for saying the time is now.
    What occurs with Cypress Creek, as you know, is that the 
water comes north-south, and there is a natural bank that is 
there. That is why they had the proposed levy in the Corps of 
Engineers' map, to try to catch it before it jumped the curve, 
as it were, and then flooded Barker and Addicks, and then Fort 
Bend and the other counties that are down below.
    So if we can keep the water from hitting down Cypress 
Creek, which is now developed, from jumping the curve, as it 
were, and flooding and overpowering our Barker and Addicks, we 
can make great strides. There are models that are elsewhere in 
the world that we can look to.
    Chairman, you have been very tolerant of me as you have 
heard me talk about Plan 7. There is no such thing right now as 
a Plan 7. There is a Plan 5, which is a regional solution. But 
a Plan 7 would be something that would take what we need to do 
that would be interactive with our other reservoirs and be part 
of a system of flood protection that protects more than just 
that little region that is out there, because downstream of 
that region is the city of Houston and the other cities that we 
have. So we would much rather fight the battle against the 
floods at the curb, as it were, than at our curb at our homes.
    The second part of why I say instead of Plan 6, to go ahead 
with Plan 7, is it is anticipated that the population in our 
region will double in the next 15 years. We need a plan not for 
what we needed 5 years ago, or a plan for just what we needed 
for Harvey. We need a plan for what we need in 15 years when 
all the rooftops and the concrete and the streets are all in 
place.
    So to that extent, I would urge that we make a plan which 
would be a Plan 7: No. 1, that integrates it as a system; and 
No. 2, that would allow it to be built for the future.
    Internationally, in Holland, they take wide expanses of 
land and farmers and they enter into agreements with their 
farmers, so that instead of having deep reservoirs that can 
have flat-out zones to where they pay them for the right to use 
their fields, and when there is a flood event they go up on the 
hill of their house, they herd their cattle up on the hill and 
they wait for the waters to go down again.
    In China, where they have had the big dams, they divided it 
up into a series of seven smaller sisters instead of one big 
mama of a dam. Perhaps by using the technology and the 
knowledge that is done elsewhere in the globe and bringing it 
to home, we can protect everyone who is downstream.
    Is it urgent? Yes. What is there to do? To fund it. We need 
to make sure, with all due respect to the Corps that normally 
takes a study, and then a study on the study, and then it takes 
20 to 30 years for the Corps to do something, we need to do 
something together that is more like what occurred in New 
Orleans with the rebuilding of the levy, because every year we 
are going to face what Congresswoman Sheila Jackson Lee 
mentioned earlier, 18 events, 18 risks. Do we want to wait 20 
to 30 years to see if the dice rolls in our favor again? I 
would urge you, no.
    Let us act. Let us act now. Let us act directly. Let us 
plan for the future, and let's make sure that our plans 
integrate with our other plans so that we have a robust system.
    Thank you very much.
    Chairman McCaul. Thank you.
    Mayor.
    Mr. Turner. Thank you, Congressman McCaul. I certainly 
share the sentiments of Commissioner Cagle.
    I will tell you, it is all about mitigation. We have faced 
3 500-year floods in the last 3 years, and now that is becoming 
the norm. So it is about mitigation. It does require a general 
plan, even for the city of Houston that sits within Harris 
County, that sits within this area. Unless we address these 
flooding issues from a regional point of view, the city will 
continue to flood. So we do need the reservoir.
    Where it will be? I will leave that up to the Corps and 
others. But something needs to be done, the reservoir needs to 
be done, and it needs to be done now, or at the very minimum we 
need to talk about excavation or dredging, something that will 
increase the capacity even outside of the city of Houston to 
mitigate the amount of water that flows down, whether it is 
coming north to south or whether it is coming from west to 
east.
    What we do know is that thousands of homes flooded, not 
from the water falling from the sky, but thousands of homes 
flooded when water was released from the dams, OK? That is what 
we do know. We do know that.
    So we have to come up with a solution, quicker rather than 
later, in order to mitigate the risk of flooding. So whether 
that is the reservoir, whether that is doing dredging or 
excavation, that needs to take place.
    I think we make a serious mistake if we take additional 
time, for example, in studying all of this. Because, let me 
tell you, the enemy of coming up with something effective is 
studies, and people don't want to hear studies anymore, because 
you can always study a study a study. What people want to see 
is they want to see us now taking action. It doesn't have to be 
the perfect plan. It just needs to be a darn good plan, and 
that is what people are requiring.
    Chairman McCaul. I think it is referred to as paralysis by 
analysis.
    Mr. Turner. Then even the additional steps we are taking in 
the city, whether it is about expanding the bayous or elevating 
homes or more on-site or regional detention, all of that will 
be reduced, the effectiveness will be reduced if we don't 
mitigate the risk of flooding coming from outside of Houston 
coming in.
    Chairman McCaul. My time has expired, but I want to ask 
just two really quick questions.
    Would it be helpful to you, Mayor, to have these Community 
Development Block Grants Disaster Relief block-granted directly 
to Harris County and get around the bureaucracy?
    Mr. Turner. I think it would be helpful to everyone. I 
think it would be helpful to the State, I think it would be 
helpful to local government, but more importantly I think it 
would be helpful to the people who need the dollars the most 
right now. That is what took place in 2015. The CDBGDR dollars 
came directly to the cities, and I think it is only a question 
of who can best do the job. But I think we all benefit when the 
people who are impacted get the dollars that they need as soon 
as they can.
    Chairman McCaul. I agree.
    One last question. The controlled spill, a very important 
issue. When did you three--Cagle, Mayor, Sloan--when did you 
get notification that was going to happen? It happened at 1:30 
in the morning.
    Mr. Turner. We had press conferences several times a day, 
at a minimum twice a day. What I was told by the Corps, for 
example, was that they were going to release water from the 
Barker and Addicks Dam, 4,000 cubic feet per second, ratchet up 
to 8,000. That was what we were told. They were going to 
ratchet up to 8,000.
    It was in the wee hours of the night that a decision was 
made that instead of going up to 8,000, to go up to about 
14,000. That information was not provided to us.
    Chairman McCaul. Prior to the controlled spillage?
    Mr. Turner. That is correct.
    Chairman McCaul. Commissioner Cagle, the same?
    Mr. Cagle. The division of labor in the county is that the 
county judge, Ed Emmett, who held the helm, as it were, with 
the Office of Emergency Management and the mayor and the Trans-
Star Center that we have, they were all giving information to 
those of us who were out in the county--Commissioner Riley, 
Commissioner Morman, Commissioner Ellis--and we were then 
taking our directions.
    Had we been given or had they been given the information 
what would occur, we would have done toward those neighborhoods 
the same thing that we did in Inverness Forest neighborhood 
when we were told that their levy was in danger of breaching. 
That is that we would have gone in there with our trucks, horns 
blaring, telling everybody to get out, if we knew that there 
was an emergency. We were not informed that that level of water 
was going to be imminent, and as a consequence we had to go 
into the high water to rescue people. It would have been much 
better to have gone in, horns a-blaring, telling people to get 
out now, letting them get into their cars so that we wouldn't 
have 600,000 cars that got drowned, and allow folks to be 
removed from the region.
    So the answer to the question is we didn't know until it 
was already done in terms of precincts.
    Chairman McCaul. So you didn't know about this until after 
the spillage.
    Mr. Sloan, what was your recollection?
    Mr. Sloan. As the Mayor indicated, we were aware of the 
4,000. That is what they are authorized to do at the local 
level, up to 8,000, without getting information out of the 
District of Columbia in order to increase the amount of volume 
that they can release from the reservoirs.
    Things were rapidly changing. As they run models on the 
amount of rain that is actually falling and then actually 
impacting the reservoirs, things evolved very, very fast 
throughout the evening. All of a sudden, they realized at some 
point that they had to increase the outflow to protect the levy 
systems, but they also knew that the volume of water that was 
coming in was going to start coming around the outside at some 
point.
    Chairman McCaul. I agree that it was probably necessary. 
Just 1:30 in the morning is not very good timing.
    Mr. Sloan. Unfortunately, Mother Nature doesn't work 8 to 
5, and it did not make it easy to notify the public, to push 
information, as we tried to do to the best of our ability. I 
know that it also takes a great number of hours for the Corps 
to run their models based on the volume of water that is 
entering the system. We are working very closely with them in 
our operations center, along with our Harris County Flood 
Control District, in order to have a good understanding of what 
the potential impacts are going to be to the community.
    No, we didn't get all the information probably as fast as 
we would have hoped in order to prepare the community on that 
evening.
    Chairman McCaul. My time has more than expired.
    Ranking Member? I appreciate your indulgence.
    Mr. Thompson. I guess my comment about what I just heard is 
have we fixed the communication problem now, Mr. Mayor?
    Mr. Turner. I can't tell you with exactness that the 
communication issue has been fixed. I will say to you that I 
know what the Corps was telling me, that they have their 
protocol, and they followed their protocol. No. 1 was to 
protect the integrity of their system, as Mr. Sloan said.
    I do think it will be helpful that we do come up with a 
notification system that when these decisions are made, even if 
they have to be made at the last minute based on information 
that they are providing, that there is a way that they can get 
the information to us so that we can get the information out to 
homeowners and businesses who will be directly impacted, 
regardless of what time it might be.
    Mr. Thompson. Absolutely, because I think we heard 
something a little different from the first panel when that 
question was presented by a couple of Members on this 
committee.
    Mr. Chair, I think it would be something that, just from a 
broader public policy perspective--it might be Atlanta, Georgia 
at another time, or it might be Denver, Colorado. We get told 
time and eternity that communication is never a problem, that 
we train, we do all these things. But clearly, there is a 
disconnect in this notification process, and I would encourage 
some letter or something that will go from the results of this 
hearing with the Members here to kind of highlight it, 
especially to the Corps, since they have primary mission in 
this instance.
    Chairman McCaul. That would be good oversight.
    Mr. Thompson. Thank you.
    The other thing is that one of my experiences has been 
behind disasters is opportunity--good, bad, and otherwise. You 
know, people come into your community. They say we are here to 
save the day, and they have large contracts, and then they beat 
your local citizens down to a pulp trying to get the work done. 
I would just like to hear how you stop that from occurring in 
your community.
    You can talk about debris removal, you can talk about a lot 
of things. But we have a challenge when you put the large 
contracts out, and then the little guy with the dump truck in 
your community is getting 10 percent of what the guy who has 
the contract and no trucks is getting.
    Mr. Cagle.
    Mr. Cagle. We were really blessed in Precinct 4 with the 
coordination that was provided by the Office of Emergency 
Management. We had contracts prior to the storm that were 
already in place with a number of major contractors, with 
prices that were set per load, not quite as nice as the 
contracts that the city of Houston had in place or some of the 
other areas, but decent rates that were in place.
    As we were in the scramble to try to find resources, 
because there were multiple disasters that were going on in the 
country at the same time--Marie was coming in as we were trying 
to remove our debris in the area of Florida--we built 
additional staging areas, actually, in Precinct 4. We had five 
staging areas, which made our contracts a little more 
lucrative. So we were able to get a lot of the smaller 
businesses who had come in and joined into our contract system 
because they could stage off, and I want to thank FEMA for 
working with us to allow us to build these staging areas that 
allowed us to actually bring in. In Precinct 4, we had 107, I 
believe, at its peak of the 300 Big Bertha machines, the ones 
with the cranes in the middle that chase the storms all across 
the country.
    So by being able to work with FEMA, and by being able to 
work with our staging areas, we were able to do more.
    Another thing that we did that helped a lot of the smaller 
contracts is that for the first time we had self-help debris 
centers. That is, if you had a small truckload and you wanted 
to pay one of the smaller guys that were out there to come in 
and pick up your debris, take it out of your yard, and you 
wanted to help yourself instead of waiting because you had one 
of the big yards filled with debris, such as the photos here, 
you could actually do it yourself and FEMA, although initially 
they said we could not do it, then allowed us to do that. I 
think in the testimony you will see there that we had almost 
21,000, 22,000 cubic yards by the debris which were smaller 
loads of people filling up their own dump trucks, filling up 
their own pickup truck and taking their neighbors' loads to 
help each other out, which then took the pressure off of us 
having to remove the bigger debris in the bigger yards.
    That is a program that needs to be replicated elsewhere, 
because people are willing to help their neighbors when you 
give them a chance.
    Mr. Thompson. I think you are correct, and it goes toward 
the volunteer effort that the Mayor talked about also, which I 
think we also, Mr. Chair, need to look at.
    The only other question I have, Mr. Cagle, is the Red Cross 
has a national contract with us, and some of us think that they 
could do a better job. We just want to get it right. You can't 
sanitize the disaster. It has to be where you roll up your 
sleeves and go in.
    What was your experience in the beginning?
    Mr. Cagle. In the beginning we found difficulties in 
dealing with the Red Cross in that although they had resources 
and great heart, they weren't prepared for what we had locally. 
So as with many endeavors, we started to work with what we had 
and started to utilize other resources in order to get the job 
done.
    We had training requirements that the Red Cross has, which 
are important training requirements, but required weeks of 
training when we had hours to try to open up a center. So we 
just began opening up shelters, finding other resources, and 
moving in and amongst ourselves.
    I commend the Red Cross for their endeavors, but we in the 
early days found that we were able to get service to the people 
that needed it. We could wait, or we could take care of the 
people as we found them. We chose to not wait but to take care 
of the people as we found them, to find places, whether they be 
schools from school districts, to find our partners at George 
R. Brown or at our center that we opened, the NRG, and just do 
it ourselves until they could catch up to us.
    Mr. Thompson. Right, and my only comment is that they have 
a national contract, and all those things are expected in the 
contract, and we want them to get to the communities as fast as 
possible. I went through Katrina, and they kept telling us this 
is not an approved shelter. What do you mean? It is the only 
place left standing.
    Mr. Cagle. You couldn't get to the approved shelters 
because the high water was in the way.
    Mr. Thompson. Right. So I think if you could share your 
experience, we can get them to be a little more tolerant of the 
circumstances that they find themselves in, especially for 
vulnerable populations. They are the ones who really, really 
need a helping hand at those moments. If you would share that 
experience with us, I think it would be really helpful as we go 
forward.
    Mr. Cagle. Thank you very much.
    Mr. Thompson. Mr. Mayor.
    Mr. Turner. One thing we have found to be helpful is that 
setting up, having pre-positioned shelters prior to the storm. 
For example, when I came into office in 2016, the first major 
storm was the tax day flood on April 17, and there were a 
number of individuals in the north side of Houston in low-
income areas that we couldn't reach soon enough. So they were 
out on the bridges and everything, waiting for help.
    What we did this time, even prior to Harvey, is that with 
the Red Cross, we did set up some pre-positioned shelters. So 
when we got the weather report that there was going to be three 
bands of rain coming carrying 79 inches, we then went into the 
Campbell Center in northeast, and we set up pre-positioned 
shelters there and in a couple of other locations, and that 
worked out well.
    With the George R. Brown, we ended up setting that up. The 
director of housing and community development went and set that 
up, and then the Red Cross came in and joined with us later on.
    I think what would be helpful now is that especially when 
we are anticipating these types of storms, for people in 
vulnerable communities, those who are elderly, those in low-
income communities, those with special needs, that we pre-
position or pre-establish shelters throughout the city in 
different quadrants, especially with those vulnerable 
communities, in collaboration with, for example, the Red Cross, 
who is already pre-prepared and pre-stocked, so you know you 
are ready to go just in case you need that to happen. I think 
that would be very, very helpful, and everyone can move very 
quickly, and you know ahead of time where these potential 
shelter locations will be, especially for people in vulnerable 
populations, and senior citizens in particular.
    Chairman McCaul. Good recommendations.
    The Chair recognizes General Bacon.
    Mr. Bacon. Thank you. Thank you all for being here.
    I want to start off by thanking our two mayors, our county 
commissioner, for the leadership. Our Federal system is 
designed to, at the local level, have the most impact. So I 
respect the responsibilities you have taken on.
    I also thank Mr. Sloan and Ms. Moore for the leadership you 
give your organizations.
    My first question is to our elected officials. Is there 
specific legislation you think we need to be looking at in this 
committee, to pass legislative fixes that would help the 
Federal Government, like FEMA or Coast Guard or Army Corps, to 
do a better job?
    Mr. Cagle. There are a number of things that I think would 
be helpful, one of which would be to eliminate the problem in 
our buyouts, what is called the checkerboard system. Right now, 
when you have your FEMA buyouts, they are voluntary. When you 
go through the process of the voluntary buyouts, you end up 
with a checkerboard of houses when many times you need to have 
a street that needs to be bought out, or a neighborhood, a 
small strip within a neighborhood, so that you can then remove 
the houses which are impediments to the flow of the water, 
create green space in there so that it will be beautiful and a 
park and a nice amenity, but also have that other benefit of 
being able to, when there is a water event, to be able to clear 
through.
    Currently in the rules, it is a little bit more difficult 
to operate in that system because you have those who choose not 
to be bought out, or to take money and to try to live and 
rebuild there. Their houses are still blocking the ability to 
improve the flow of the water----
    Mr. Bacon. You can't do a patchwork.
    Mr. Cagle. A checkerboard, patchwork. So having some 
streamlining there would be beneficial.
    Second, to figure out a way to help us--and this was 
alluded to earlier--be proactive. We have this huge gap. We now 
have almost $850 million worth of homes that need to be bought 
out, and the process is one where all of these folks are 
sitting there wondering, do I qualify? Am I going to be bought 
out? Am I not? Is the county going to raise enough money for 
its match, the 25 percent match? Is the city going to raise 
their money for the match that they can come in and get the 
Federal funds to come in?
    So as we are trying to raise money to join with your money, 
those folks' lives are held in limbo. So if somehow or another 
we could front-end-load that where there is an opportunity so 
that instead of--and then when it comes time to buy them out, 
many of those folks have already rebuilt. So the home that you 
could have taken them, located them somewhere else, just paid 
for the damaged home in its condition, moved them into a 
similar house to what they had with a mortgage, you now have to 
pay twice because you also have to pay for the improvement.
    Mr. Bacon. Thank you, Commissioner.
    In the interest of time, I want to give the mayors a chance 
to add in.
    Mr. Turner. Let me just say, and remind me not to go too 
long, but FEMA has these home elevation grants where they are 
expending anywhere from $300,000, $400,000, $500,000 a home to 
raise them up. It might be better when people qualify maybe to 
allow them to go and buy a home someplace else instead of 
spending a whole lot of money to just elevate.
    My major thing is mitigation, mitigation, mitigation. That 
is the main thing. That is the best way----
    Mr. Bacon. It is a good word.
    Mr. Turner. Because whether you are building a reservoir, 
it is regional detention, on-site detention basin, that is 
important. We talk about Project Brays, Congressman Green, 
those three projects, $311 million, to spend $311 million on 
mitigation projects where you can save billions of dollars to 
me just makes good sense.
    The coastal spine, we haven't talked about that at all 
today. But if that storm had hit the Galveston Bay with the 
refineries and what is in the Gulf, that would have been 
horrendous. I know it is a high-dollar item, about $12 billion, 
but let me tell you, it would save quite a bit if that storm 
had hit the Galveston Bay.
    So for me, it is mitigation, mitigation, mitigation. If you 
want to save in the future, put forth the dollars right now.
    Mr. Bacon. Mayor Owen.
    Mr. Owen. I would have to echo what both of them said. But 
I will tell you that, speaking of mitigation, when we did our 
Rebuild Texas worksheet that we submitted to the State, much of 
this $97 million is so we mitigate our own problems. Much of 
the flooding that I had in Missouri City was outside of the 
levy. It wasn't inside the levy. It was water that actually 
backed up into the streets and was inside, backed up next to 
the levies and flooded these houses.
    During the Memorial Day flood, I actually got police 
officers, when I thought the flooding was going to affect some 
450 homes that were in one subdivision, they actually went door 
to door and warned people that it could possibly happen. 
Fortunately for us, it didn't.
    In this particular case, we were trying to tell people that 
we saw this happening because, as I said, I had inundation 
maps, and I knew what was going to happen. But I had 450 homes 
that flooded that were controlled by a municipal utility 
district, and it was Wednesday before they finally put in a 
pump, a 12-inch line that pumped the water out of the lake that 
had overflowed and was backed up to that levy. Had they done 
that on Monday, I probably would not have had those 450 homes 
flooded.
    In the plan that we sent that we are asking FEMA to help us 
with, it is so that the city has those pumps on hand. I know 
what happened. They couldn't get the pumps because the city of 
Houston was flooded by that time. They probably had to go out 
of State.
    Mr. Bacon. To have it there early.
    Mr. Owen. Yes. The question came up about Red Cross. They 
were communicating with us, but the problem we had with the Red 
Cross is that I opened shelters and I couldn't get the beds. As 
a matter of fact, I finally took a SWAT vehicle and went 
downtown Houston to load up beds to bring back to my shelters 
because Red Cross had them here, but they weren't getting them 
to the distribution centers where we needed them, so we took it 
on ourselves.
    But I have to agree with Mayor Turner. We need to do our 
own work, and if we could get some funding to do our own work 
for some of these pumps and for some of the work that we need 
to get done, and we cut out the bureaucracy of filling out 
forms that take 3 years to get us reimbursed, we can prevent 
the next flood from happening.
    Mr. Bacon. You are going to use that word ``mitigation'' 
again, aren't you?
    Mr. Owen. Yes.
    Mr. Bacon. Thank you, Mayor.
    I am going to yield back, minus 2 minutes.
    Chairman McCaul. Thank you.
    The Chair recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    Let me join my local colleagues and say that the red tape 
will kill you, and that means red tape for the Red Cross and 
FEMA and Federal entities. I believe in regulation when it 
helps us and enhances us and protects the American people, but 
I like that phrase ``waiver and emergency.'' When you are in an 
emergency, we need to have a simple provision that hits a red 
button, and the local community can begin to receive funds, 
they can receive beds, beds can go where they are supposed to 
be, shelters can be determined by the local community that this 
is adequate and safe, because I don't think you would do 
anything to hurt your people. If it does not meet Red Cross 
criteria, let them get in here and utilize it.
    Let me thank Mayor Turner for standing up. I saw it with my 
eyes, as someone would say, my own eyes. The George R. Brown 
Convention Center, within seconds and minutes and moments, and 
what a powerful scene to see wet, downtrodden people from 
everywhere coming with their simple belongings in a pillowcase. 
I thank the county for ultimately partnering and opening the 
NRG, a pristine, beautiful building, and you just said let's 
open it up. You partnered with the city.
    I think that is what we need to take back from this field 
hearing, but we also need to take back those who lost their 
lives. These are not the only persons, the Salvador family. We 
know them because there were six of them trying to flee. I 
don't want to lose our recognition of Sergeant Perez and the 
municipal worker, sanitation worker, public works worker. These 
individuals were saying, ``I have just got to get to work.''
    Of course, this is not an immigration hearing. We know some 
lost their life, but this is a Dreamer who lost his life, whose 
mother was trying to get here for his funeral.
    So I want to pose these questions because, first of all, 
let me say to all of you, you know our parents have always told 
us we can multi-task, do those things at the same time. So that 
third reservoir, I am so glad I have been hearing it, the 
reservoir, fixing the dam, retention ponds. I indicated on the 
record because I don't think the Army Corps answered my 
question about that. In the east part of my district they were 
asking the question why can't we do retention ponds? You might 
comment on that. I am going to pose a specific question.
    I guess the multi-task is, all of you mentioned the word 
``studies,'' we have been asking for the study 5 years, 10 
years ago. So we don't want to hold you up. But my multi-task 
is let's do the repair, the studies, and the central spine at 
the same time. I would ask local leadership, including Mr. 
Sloan, to write that letter that says we need the central 
spine, we need the central spine. It would help all of us. Even 
though I might not be right by the reservoir, I represent 
downtown Houston, and the mayor of the city of Houston knows he 
was evicted almost from his building, as well as my arts 
community was devastated because that water came down the 
Buffalo Bayou. We are still suffering, the arts community is 
still recovering, and people are still recovering.
    So let me indicate, Mayor, you had a strong recognition 
that this was the most devastating strike on housing of any 
disaster probably in the continental United States. We know our 
friends in Puerto Rico and the Virgin Islands, and in Florida. 
Tell me how you are going to deal with low-income housing 
individuals in light of the devastation of the housing being so 
heavily destroyed in many areas, but northeast Houston right 
outside of Greens Bayou was one area, and I know there are many 
other areas.
    Mr. Turner. Right, and we still, Congresswoman, we still 
have about a couple of thousand who are still in hotels.
    Ms. Jackson Lee. Absolutely.
    Mr. Turner. There are hundreds, if not thousands, who are 
living in homes that need to be remediated. I am especially 
sensitive to our elderly population, people with special needs, 
people in low-income communities and, quite frankly, mentally 
incompetent individuals who have exhausted a lot of their 
savings and are wondering what is next.
    We do have to quickly move to build as many affordable 
housing units as we can, single-family units as well as multi-
family units. It is important that we repair people's homes. We 
are thankful for people who contributed to both the county and 
the city local relief fund. That ended up raising about--I want 
to say close to $115 million. So those dollars, most of those 
dollars have already gone to non-profits, and one of the major 
objectives is for home repair. But for it, these homes would 
not be repaired, so I am thankful for that.
    I am thankful to the corporate business community. For 
example, one of the companies has taken on 300 homes in 
Independence Heights and making those repairs. Other businesses 
have stepped up as well.
    Right now there is $424 million provided from FEMA to GLO 
that is readily available right now. Those contracts are being 
let as we speak. There are no income requirements for that $424 
million, so that is currently available, and we are working 
that. The other $5 million, as indicated earlier, that tranche 
of dollars right now is not expected to reach us until sometime 
in August or September. Hopefully we can expedite that. Then 
that third tranche probably won't come until much later in the 
year.
    So that is where we are. As soon as we are able to get the 
resources, we will turn it around. Contractors have already 
been identified, and we will spend dollars to repair and 
rebuild homes.
    Ms. Jackson Lee. Thank you so very much.
    Commissioner Cagle--and I am going to pose this to Mr. 
Sloan and Ms. Moore--what is the most important public and 
private assistance that the county needed? While you answer 
that question, I want to make sure that we are advocating for 
direct payments to the county and the city, and you can 
reinforce that.
    Mr. Sloan, let me understand what is the best way for long-
term recovery for the Federal Government to work with local 
entities. I hope you as the county will reinforce doing all the 
Army Corps projects, moving them and expediting them. But what 
would be the best long-term?
    Ms. Moore, this question I would ask to you and to Mr. 
Owens, if you want to comment. But, Ms. Moore, if you want to 
talk about the denials in low-income areas by FEMA and how 
devastating that was, and the great work that the NAACP did.
    Mr. Cagle, I think I was going to you on the public-private 
assistance.
    Mr. Cagle. Public-private assistance. Congresswoman Jackson 
Lee, I think you are asking how we can work together, and I 
would consider myself----
    Ms. Jackson Lee. What is the best public assistance that 
helps you in the county?
    Mr. Cagle. Third reservoir, buyout program, fund the four 
big projects. We are beyond shovel-ready. The shovel is in the 
ground. We have had a problem where we get the trickle of money 
and then we have to wait, and that is White Oak, Hunting, 
Brays, and Clear Creek. We need to have Barker Addicks 
improved----
    Ms. Jackson Lee. And Green.
    Mr. Cagle. And Green. Green we share. But there are 
projects that are already shovel-ready projects that are 
already under way, which is what I was referring to here. They 
are already approved and shovel in the ground. We need to have 
those additional projects, such as Green.
    Barker Addicks need to be improved, dredged, and the 
buyouts need to be done there so we don't have folks who are in 
the pool anymore.
    We need to protect the port, as you said, and then we have 
so many different Federal programs. Some sort of coordination 
would be beneficial for us to know which pot will help pay for 
what project. That would be helpful to us because we have 
several different Federal programs that each have their own, if 
I could use the mayor's term, tranche of funding. That would be 
helpful for us as well, so that we are not always having to 
make multiple applications and then not getting any because we 
are dispersed in that regard.
    Thank you for your leadership during all this time, 
Congresswoman. I saw you out there taking care of our people, 
and I appreciate it.
    Ms. Jackson Lee. We are all working together.
    Mr. Sloan and Ms. Moore.
    Mr. Sloan. Thank you for the question. Long-term recovery, 
it is very important that we have a relationship not only with 
our Federal partners but also through the State. That 
partnership has to be in place in order to make sure that we 
get back to a new state of normal, whatever the effects of the 
disaster are. We support, obviously, anything that is going to 
reduce risk to our community and to the residents. If that is 
Corps of Engineers projects, flood control projects, along with 
the numerous other mitigation issues that need to be put in 
place, which may be raising computer systems that are in low-
level buildings in order to secure our infrastructure with the 
government systems, there is a variety of things that I have 
always been in support of to reduce that risk and threat, not 
only to our local governments but also to our community.
    So our Federal relationships need to be in place with FEMA, 
with HUD, with Ag. It doesn't matter, as long as we can 
maintain those communications, the flow of funds in order to 
expedite recovery. I always look at recovery as the disaster 
within the disaster. We always can respond very effectively, 
but we forget about what it takes in order to get our people 
and our residents back to a new state of normal.
    Ms. Jackson Lee. Ms. Moore.
    Ms. Moore. Thank you so much for your question. What we 
have done with appeals and denials is almost mind-boggling. 
People were sent letters that they couldn't read, and they were 
asked to put appeals in a framework that didn't even have 
answers to the questions. We had people that were denied such 
simple things if they had only filed an appeal. They didn't 
understand what they were reading. If you are 80 years old and 
you get a paper in the mail and they don't have a clear 
explanation, and you don't have a person who is going to 
explain it to you, that is what we did at the disaster recovery 
center. That is what we did all day long, is help people with 
appeals and denials and understanding what it is they needed to 
do.
    We had people that were coming in that were young, didn't 
really understand what they meant by the property they lived 
in, whether it was grandma's house or an aunt or uncle's house 
that they happened to get, how do they do what they needed to 
do. We had people that lived on county roads in trailers that 
got denied. So when we talk about people getting denied and 
then they do an appeal, there is such a lag time in that 
process that the date from your final appeal is 90 days. If you 
had an appeal in September and you finally got your first 
response from them in the middle of November and you got 
denied, and you had some time to fill out that paperwork, some 
people are still waiting for an answer from that denial from 
the appeal.
    So we just, in a round-robin circle, with these appeals, 
and I am glad you asked that question because it is a horrific 
thing in our community and people not understanding what it is 
they need to do and how they need to do it. The computer is not 
everybody's friend if you don't know how to use it, or if you 
don't have access to one. All the information that they ask for 
is just terrible. It doesn't make sense to ask some of these 
simple questions that people don't have answers to and you have 
to dig and get paperwork and all of these things just to prove 
that it is your house. Some people have to go down to the tax 
office and try to present documents that this is really my 
home. I get people to write letters to say, yes, you really 
live there.
    So the questions that they send back and the denials are 
just so unworthy and unnecessary. But in our community, as you 
know, it is very, very difficult, and we continue to process 
until today. Even though the recovery center is dormant, our 
work is still going on.
    Ms. Jackson Lee. Thank you very much.
    Can I ask unanimous consent to put into the record NPR 2018 
``Hurricane Season Will Bring About Battery of Storms''?
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
              Article Submitted By Hon. Sheila Jackson Lee
       2018 Hurricane Season Will Bring Another Battery of Storms
Vanessa Romo, NPR, April 6, 2018, 5:48 PM ET.
https://www.npr.org/sections/thetwo-way/2018/04/06/600193418/2018-
        hurricane-season-will-bring-another-battery-of-storms
    While images of destruction caused by last year's battery of 
hurricanes are still fresh in the minds of many Americans, including 
those living on Puerto Rico where after 6 months power is not fully 
restored, forecasters are cautioning the public to brace themselves for 
another busy hurricane season.
    Researchers at Colorado State University predict this will be a 
slightly above-average season, with 14 tropical storms in 2018. Seven 
are expected to become hurricanes, which have a wind speed of at least 
74 mph. Three of those 7 are expected to be major hurricanes, Category 
3 or higher, with winds reaching a minimum of 111 mph.
    The Atlantic Hurricane season runs from June 1 through the end of 
November.
    ``Coastal residents are reminded that it only takes one hurricane 
making landfall to make it an active season for them, and they need to 
prepare the same for every season, regardless of how much activity is 
predicted,'' researchers say.
    By comparison, 2017 had a total of 17 named storms--with 10 
becoming hurricanes and 6 of them major hurricanes--including 
Hurricanes Harvey, Irma and Maria, which ravaged Texas, Florida, and 
Puerto Rico. But that number exceeded forecasters' expectations, 
including the team from CSU. The university had only anticipated 11 
tropical storms with four becoming hurricanes.
    Before Harvey made landfall it was predicted as merely a tropical 
storm or Category 1 hurricane with wind speeds up to 85 mph. But within 
a few days and by the time it hit the ground near Corpus Christi, 
Texas, it had developed into a Category 4 with 132 mph winds.
    ``We issue these forecasts to satisfy the curiosity of the general 
public and to bring attention to the hurricane problem,'' the 
university said. ``There is a general interest in knowing what the odds 
are for an active or inactive season.''
    The report also includes the probability of major hurricanes making 
landfall:
  <bullet> 63 percent for the entire U.S. coastline (average for the 
        last century is 52 percent)
  <bullet> 39 percent for the U.S. East Coast, including the Florida 
        Peninsula (average for the last century is 31 percent)
  <bullet> 38 percent for the Gulf Coast from the Florida Panhandle 
        westward to Brownsville (average for the last century is 30 
        percent)
  <bullet> 52 percent for the Caribbean (average for the last century 
        is 42 percent)
    The National Oceanic and Atmospheric Administration will issue its 
forecast in May.
    For readers curious about the names of this year's storms the 
monikers are selected by the World Meteorological Organization and are 
usually common names associated with the ethnicity of the basin that 
would be affected by the storms. When a storm is particularly deadly or 
costly, its name is retired and replaced by another one.
    Here are the names you can expect this year:
    Alberto
    Beryl
    Chris
    Debby
    Ernesto
    Florence
    Gordon
    Helene
    Isaac
    Joyce
    Kirk
    Leslie
    Michael
    Nadine
    Oscar
    Patty
    Rafael
    Sara
    Tony
    Valerie
    William

    Ms. Jackson Lee. Thank you. I will just finish by putting 
on the record that I wish Harris County would use their CERT 
emergency response teams, particularly in the inner-city areas. 
I know that Mr. John Branch, Mr. Charles White, and a number of 
others are involved in what I guess you would call the Citizen 
Emergency Response Teams, which come under Homeland Security, 
and we are very proud of it. We would like to make sure that 
they are utilized.
    Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. The gentle lady yields.
    Mr. Culberson is recognized.
    Mr. Culberson. Thank you very much, Mr. Chairman.
    Ms. Moore, you put your finger right on it. We really have 
to make sure the money gets into the hands of the people that 
need it just as quickly as humanly possible and simplify 
things. Thank you very much.
    Two questions, Mr. Chairman, in two very important areas, 
if I could. I will be as brief as I can and encourage the 
witnesses to be brief in their answers.
    One is on mitigation and the local share, and the second is 
on the time line about what the Army Corps told you and when 
they told you.
    The first is, as Mayor Turner and I served together in the 
Texas House, we are House-trained, learned a great deal, worked 
together so well. It is so good to see you where you are, and 
it has been a pleasure to work with you on this.
    We learned over the years that the city is responsible when 
it comes to draining water off of each lot, the curbs, the 
water that drains down the street and as it goes into the 
system. The city is responsible for carrying the water to the 
bayou, and the city's responsibility ends there. Is that 
correct?
    Mr. Turner. The water that comes from the street, that is 
our responsibility, to the bayous.
    Mr. Culberson. To the bayou. You are using the drainage 
fee. I know the city began a number of years ago collecting a 
drainage fee. You are using that as fast as possible to enhance 
drainage to mitigate, right?
    Mr. Turner. Yes, to pay off the past debt, and it goes for 
streets and drainage.
    Mr. Culberson. That local match, that local match for 
mitigation, Commissioner Cagle, is critical. For every local 
dollar, the Federal Government will provide 3. The Army Corps 
of Engineers is only authorized to send Federal flood control 
dollars to Harris County. So every dollar the county provides, 
there will be 3 additional Federal dollars, so we are limited.
    One thing that we need to do, Members, is when it comes to 
a flood control project, I think it is important if we get a 
request from a State or local official, that we be able to 
submit that flood control project to the Appropriations 
Committee, put it in the Appropriations bill at the 
subcommittee level with your name on it, it goes all the way 
through the process, does not increase spending, and it is a 
flood control project at State or local request, and that would 
allow us to target spending for these projects like the third 
reservoir and get them done in a rapid manner. So I would be 
grateful for your help in trying to get that rule change. That 
is going to have to be done in the U.S. House, and it will make 
a big, big difference.
    But the other question I had, Commissioner, is we are 
limited in how many Federal dollars we can send to Harris 
County for flood control if you are limited. It is based on how 
many local dollars you can provide. I note that in 2000, the 
flood control----
    Mr. Cagle. If I may add, Congressman, from property tax 
owners----
    Mr. Culberson. Correct.
    Mr. Cagle [continuing]. Many of which, 11,000 in Precinct 4 
alone just got hit with their home being flooded.
    Mr. Culberson. Correct, and appreciate the work I know that 
you are doing and the mayor is doing and all of our 
subdivisions are doing to reduce the property valuations so 
people are not having to pay so much property taxes, because 
their valuation has gone down. That is critical.
    But I wanted to ask about that local. The city of Houston, 
of course, can rely on property taxes, sales taxes, fees. But 
Commissioners Court, as the mayor and I remember from the 
legislature, the legislature will not provide county 
commissioners with ordinance banking authority, so your hands 
are pretty well tied. The only source of revenue the county has 
is property taxes.
    Mr. Cagle. That is correct. There are a few little minor 
fees that nip at the edges, but by and large that is a true 
statement.
    Mr. Culberson. So the money you need for Brays Bayou, to 
finish out all these bayous and flood control structures in the 
bayou system has got to be paid for with the Harris County 
flood control property tax dollars.
    Mr. Cagle. That is, by and large, correct. Yes, sir.
    Mr. Culberson. I just want to ask you what lies ahead, 
because I note that since 2000 the Harris County flood control 
property tax rate has gone down by 65 percent, which severely 
limits your ability. Whatever local match you come up with, the 
Federal dollars, there are 3 Federal dollars for every 1 local 
dollar. Nobody likes paying property taxes. We are all 
concerned about it. But, Commissioner, what do you think lies 
ahead? What is the Commissioner Court planning to do, if 
anything, about the Harris County flood control tax rate?
    Mr. Cagle. In Harris County, because there are five members 
of the Commissioners Court, we don't really get to talk to each 
other like other bodies that engage in the legislative process, 
because of our Open Meetings Act. So many times, we just kind 
of hear through what we hear others are saying at large, and it 
makes it difficult for us to get work done, and that is 
something that our friends in the legislature who are here may, 
when it comes to emergency-type matters, allow us a little more 
latitude in the future.
    But I think you are looking for us to have a bond election, 
because we are going to have to raise funds locally to be able 
to bring up our matches so that we can make systemic 
infrastructure changes that are going to protect our region.
    We will also be calling upon the legislature as they go 
into session this next year to help us with their rainy-day 
fund. I think everybody would agree that Harris County has had 
a rainy day. So working with our State friends, they will 
assist us with regard to potentially getting some of those 
matches. But those are off in the future.
    Mr. Culberson. You anticipate a bond election to help with 
the effort?
    Mr. Cagle. I do, sir.
    Mr. Culberson. Let me ask quickly if I may, Mr. Chairman, 
because this is really important. I appreciate the committee 
putting together a time line for Hurricane Harvey.
    If I may also, Mr. Chairman, I want to be sure to enter 
into the record, if there is no objection, a Houston Chronicle 
story from February 22, 2018, if I may.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
                Article Submitted By Hon. John Culberson
 Flood Threat Known Early--Corps Predicted the Reservoir Spill Before 
                               Harvey Hit
By Lise Olsen, Houston Chronicle, February 22, 2018.
    Water is released from the Barker Reservoir on Aug. 29 in the 
aftermath of Hurricane Harvey. Five days earlier, the U.S. Army Corps 
of Engineers had projected that the storm would fill the reservoir to 
record levels and would flood nearby neighborhoods.
    A day before Hurricane Harvey made landfall on the Texas coast last 
August, an internal U.S. Army Corps of Engineers forecast predicted 
that the storm would fill Houston's Barker Reservoir to record levels, 
flooding neighborhoods on the reservoir's western border, government 
records show.
    That projection was made Thursday, Aug. 24, 2017, as Harvey 
barreled toward Houston. The next day's Army Corps forecast was even 
more worrisome: Both Barker and Addicks reservoirs would spill beyond 
government-owned land, engulfing nearby homes and businesses.
       the corps did not share these predictions with the public.
    It wasn't until Saturday, Aug. 26, that authorities in Fort Bend 
County--after being briefed on the latest Army Corps forecast--issued 
the first flooding advisory for neighborhoods adjacent to Barker.
    It took Harris County officials until late Sunday, Aug. 27, to 
begin issuing similar warnings for communities upstream of both Barker 
and Addicks. By then, some neighborhoods were already inundated. Many 
residents ended up fleeing on foot or being rescued in boats or 
military vehicles.
    The forecasts, closely held internal records, have emerged 6 months 
after Harvey through discovery in a lawsuit in which thousands of 
homeowners are seeking compensation from the Army Corps, which operates 
Barker and Addicks dams and their reservoirs. The Houston Chronicle 
obtained copies of the documents.
    They are sure to revive debate about whether the Corps and local 
officials acted quickly enough to alert homeowners to the danger of 
reservoir flooding and to urge evacuations.
    Ultimately, the forecasts proved largely accurate. More than 9,000 
homes and businesses were flooded by the reservoirs--at least 4,000 
upstream of Barker and 5,000 to 6,000 upstream of Addicks, according to 
a Chronicle analysis of damage reports.
                          county made advisory
    Fort Bend and Harris County officials said they were not informed 
of the Corps' initial Aug. 24 forecast.
    ``If they were predicting that on Thursday, they were not advising 
us of that fact,'' Fort Bend County Judge Robert Hebert said in an 
interview.
    Hebert said the county received the next day's forecast, but he 
said the Corps characterized it as internal and preliminary. County 
officials say the forecast issued Saturday, Aug. 26, was so alarming 
that they decided to issue an advisory the same day, citing the Corps' 
projections.
    Hebert said the county did so despite objections from Corps 
officials, who wanted the forecast kept confidential. Fort Bend County 
also activated its reverse 9-1-1 system to reach out to thousands of 
property owners near Barker Reservoir.
    Harris County Judge Ed Emmett declined to comment. People familiar 
with his role in the emergency response say Emmett was not briefed on 
the Corps' forecasts.
    Efforts to obtain comment from the Corps were unsuccessful. The 
Chronicle emailed questions to a Corps spokesman on Tuesday. He had not 
provided responses as of Wednesday night.
    One of the reservoir-adjacent homes that was flooded during Harvey 
belongs to Harry Ershad, a computer programmer and musician. He said it 
was frustrating to learn that as early as Aug. 24, the Corps had 
developed a detailed picture of how Barker Reservoir would fill his 
Canyon Gate neighborhood. He said that with just a few hours' notice, 
he, his wife, and their two sons could have saved their four cars, most 
of their musical instruments and their home recording studio. Instead, 
nearly everything was ruined, he said.
    By the time Fort Bend County issued its Aug. 26 advisory, Ershad's 
neighborhood had been swamped. He and his family had to wade out 
through neck-high water, he said.
    ``We got out with our laptops and our passports, and that's it,'' 
he said.
    The flooding forecasts were generated by the Corps Water Management 
System, which crunches information about rainfall, weather forecasts, 
river conditions, and other data to guide the Army Corps in managing 
its dams and reservoirs.
    The Aug. 24 forecast showed that Harvey would cause the volume of 
water in Barker Reservoir to exceed what could be stored on Government-
owned land, beginning on Tuesday, Aug. 29, and lasting for more than 2 
weeks.
    When that forecast was issued, Fort Bend and Harris counties were 
preparing to open emergency operations centers and Harvey's rains had 
not yet arrived.
    Once the emergency centers opened Aug. 25, the Corps sent staff 
members and gave daily updates to Harris and Fort Bend county officials 
and Houston city officials. But the Corps told the local officials not 
to make any of the Corps Water Management System forecasts public, said 
Jeff Braun, emergency management coordinator for Fort Bend County.
                        flooding of homes begins
    The Aug. 25 forecast showed the water level in Barker Reservoir 
reaching 100 feet. Water begins to spill into neighborhoods when the 
level exceeds 95 feet, according to Corps records.
    The forecast generated on Saturday, Aug. 26, said homes upstream of 
Barker would begin to flood on Monday, Aug. 28--a day earlier than 
previously predicted. The projection for Addicks indicated that some 
homes in low-lying neighborhoods could fill with 7 or more feet of 
water and remain flooded for weeks.
    Both Harris and Fort Bend counties issued formal evacuation orders 
Aug. 30. By then, neighborhoods near the reservoirs had been inundated 
for days.
    Attorneys representing homeowners in flood-related lawsuits in the 
U.S. Court of Claims want to know why the forecasts weren't shared with 
the public sooner.
    ``The tragedy is an earlier warning could have allowed people to 
get out and get their property out,'' said Charles Irvine, of Irvine & 
Conner, one of the lead lawyers for property owners upstream of the 
reservoirs.
    ``This confirms that when a storm comes, the Corps can use its own 
modeling to predict exactly how much government-stored water will 
impact the upstream community. I can't speak to why the Corps didn't 
give the residents an earlier warning. But clearly the Corps 
anticipated the flooding on upstream private land from the Addicks and 
Barker dams before the rains even really started.''
    James Blackburn, another Houston attorney who has long been active 
in flooding matters and who recently founded a related nonprofit called 
the Bayou City Initiative, said a congressional investigation was 
warranted.
    ``This is a bona fide public policy debacle,'' he said. ``Were 
Harris County and Fort Bend County officials getting information and 
not alerting the public--or were they not getting the information? Or 
did they get the information and did the Corps ask them not to spread 
it around?''
                            returned to ruin
    Thousands of people like Ershad hunkered down to wait out Harvey 
because they were not told to evacuate and didn't know their 
neighborhoods could be flooded by the reservoirs. When Ershad left 
Canyon Gate, the streets were impassable, but only his garage had 
flooded. He and his family returned 13 days later to find their home 
ruined. They had no flood insurance.
    ``I lost 15 years of compositions of music,'' he said.
    Addicks and Barker dams were built in the 1940's to protect 
downtown Houston from flooding. The earthen structures are designed to 
hold storm runoff from the vast Buffalo Bayou watershed and release it 
into the bayou at a controlled rate.
    The government acquired thousands of acres of land behind the dams 
to serve as reservoirs, but the dams can hold back more water than can 
fit on that land. Over the decades, tens of thousands of homes were 
built on the edges of the government-owned property.
    When the reservoir pools exceed the government-owned land--an 
extremely rare occurrence--water has nowhere to go but into adjacent 
neighborhoods. That's what happened during Harvey.
    As far back as 1995, the Corps studied ways to reduce this risk. 
The options included deepening the reservoirs, buying out thousands of 
properties and building more reservoirs. The Corps never acted on any 
of them.

    Mr. Culberson. The Chronicle reports that the day before 
Hurricane Harvey made landfall--this would be on August 24--
that the Corps had an internal forecast that the storm would 
fill Barker and Addicks to record levels and flood 
neighborhoods on the western side of the reservoir, and then 
the very next day, on Friday the 25th, the Corps forecasted 
that both Addicks and Barker would spill beyond government-
owned land, in the Gulf nearby neighborhoods. I know that you 
guys were getting briefings on a regular basis from the Corps. 
Do you recall when the Corps told you about this prediction 
that water would breach the dam and go around the spillway?
    Mr. Cagle. I am going to pass that one to Mr. Sloan with 
regard to a particular memory of when we were informed of that 
information. I know that operationally, I was out there fishing 
people out of the water.
    Mr. Culberson. Oh, yes, we all were dispatching people. I 
am just trying to get an idea of when the Corps told you guys 
about this prediction they had.
    Mr. Sloan. I know that they spoke with Harris County Flood 
Control District and our folks in the operation center on 
various models that were being run as we were on Friday, going 
into Saturday and the rain started a little bit, and then 
lulled on Saturday until Saturday evening. There were a variety 
of scenarios that we looked at, from where was the volume of 
rain actually going to fall. Would it be to the south? Was it 
going to be north of the reservoirs? I know that there was 
discussion of the potential of hitting some of the non-
government lands behind the reservoirs. I don't recall them 
ever discussing increasing the volume over leases.
    Mr. Culberson. What about this forecast? They had a 
forecast on August 24 that the----
    Mr. Sloan. I personally never saw the forecast that they 
had put together in a model. I believe that flood control may 
have had access, and they looked at that as another model. We 
were working with the National Weather Service on a variety of 
scenarios.
    Mr. Culberson. Sure. What about on Friday, the 25th? Did 
the Corps tell you that they had a model that would show all 
the neighborhoods downstream of Addicks and Barker would flood?
    Mr. Sloan. Downstream? No, I did not have that information.
    Mr. Culberson. That is really important, Mr. Chairman, 
because the information that people had in those neighborhoods 
was do not evacuate, don't leave. According to this Houston 
Chronicle article, the Corps knew on August 24 that water was 
going to fill up to flood the back end of the reservoirs, and 
then the day after they had a prediction that the neighborhoods 
downstream were going to flood, and I just want to be clear 
about when they told you about all that.
    Mr. Sloan. I think that flood control came to me and said 
that with the volume of rain that has already happened in the 
system, I believe it would have been--I would have to go back 
and look at some of my notes, when they came to me and said we 
are impacting downstream now with additional water. I believe 
it would have been that Sunday night into Monday. We were aware 
of a variety of models, but which one was going to play out was 
not clear.
    Mr. Culberson. The time line the Chairman has given us is 
very helpful. On Sunday, the 27th, the local word from the 
Harris County Flood Control District was evacuate only if you 
have been told to do so, and that continued to be the 
recommendation. At 6:37 a.m. on Sunday morning, evacuate only 
if you need to. Then on Monday early in the morning, again the 
recommendation from local authorities was only evacuate if you 
need to. The Corps, basically even on Tuesday, residents were 
advised to just remain alert and take precautionary measures.
    It is a real worry. We do need an alert system. The minute 
that you guys find out, that there is something like an Amber 
Alert that can go out if you have a flip phone or a cell phone, 
your home is likely to flood over this next time period. I 
think that is one of the biggest lessons learned here, Mr. 
Chairman, that there was inadequate warning given to people, 
and they didn't know where to go once they were told to 
evacuate. Once they finally figured out to evacuate, they 
didn't know where to go.
    But we are looking forward to working with you to help 
resolve this for the future.
    Thanks for the extra time.
    Chairman McCaul. Yes, thank you. We will follow up on that 
issue for sure.
    Mr. Culberson. Thank you.
    Chairman McCaul. The Chair recognizes Mr. Green.
    Mr. Al Green. Thank you, Mr. Chairman.
    Having thanked a good many people, I think that there are 
still a couple of others that I have to thank.
    Commissioner Rodney Ellis, Precinct 1. Commissioner Ellis 
and I worked together. He extended the hand of friendship, 
opened up his good offices, and had tele-town meetings, brought 
in persons who could accord intelligence information, if you 
will, to people such that they could understand this unfriendly 
process. He did an outstanding job, and in his absence I think 
it appropriate to say something kind about him.
    Jerry Strickland worked with the Governor's Office. 
Sometimes it can be difficult reaching people, but Jerry 
Strickland answers his phone and has been available to be of 
great assistance to us when we needed to access information 
from the top down.
    Mayor Turner. There was this term that we used to use, and 
still do, ``shelter in place.'' How do you shelter in place 
when you have no place to shelter? Grateful to you for what you 
did for the homeless. Would you just take a moment and explain 
what you did to help people who were living under bridges have 
a place to shelter?
    Mr. Turner. Congressman Green, what we ended up doing when 
we opened up, for example, at George R. Brown, we invited 
everybody to come. If you were homeless, in fact, first 
responders, law enforcement and others, we are going out and 
talking to and communicating with people who were homeless and 
bringing them to the George R. Brown, into our shelter. We did 
that during the storm, and then immediately after we ended up 
putting about 250 to 300 in this particular location that used 
to be housed by the Star of Hope, and we turned that into 
Residents of Emancipation.
    I will say that was done in conjunction with FEMA, with the 
Red Cross, the city of Houston Housing Community Development, 
and that facility still remains. In fact, we are getting ready 
now to turn that into one of the homeless shelters, period.
    Mr. Al Green. I am grateful to you.
    Mayor Owen, I am grateful to you for a multiplicity of 
reasons, none of which will exceed what you did in bringing 
your entire team on-line, and you had a 24/7 operation, a 
smaller city, but you stepped up in a big way, and I am 
grateful.
    You mentioned the tornadic activity. There are 
complications associated with that that haven't been dealt 
with. You mentioned the bank building. Many people don't know 
some of the offices that were housed in that building. If you 
would, just talk about some of the offices that would help you 
in a time of emergency that were housed there, because we need 
people to know that others were hit, too, that were trying to 
be of assistance to you.
    Mr. Owen. Well, I thank you yourself, because your office 
was one of those that has been displaced, and you are still not 
back in it.
    Mr. Al Green. Yes, I was homeless.
    Mr. Owen. He was homeless, along with a State senator and a 
State representative who all represent me, who even in spite of 
being homeless took a very active part in trying to do what we 
needed to do in the city.
    You are right, the office, the bank building, is still not 
open, has not been repaired.
    Mr. Al Green. That was by virtue of the tornado, the storm 
but the tornadic activity hit it head-on.
    Mr. Owen. Right, $4 million worth of damage to that 
building that had nothing to do with the flood, along with the 
two shopping centers that were adjacent to it that displaced 
those local business people who depend on that, and they are 
still not back in some of those businesses.
    Mr. Al Green. Now, you made commentary about the shelters 
that you opened, but I think you should say a bit more about 
those shelters because I was there to see you in those shelters 
helping people. Say a bit more about them, the school.
    Mr. Owen. Right. Well, we had a great partnership with our 
schools. When we knew we were going to have a shelter, we 
called Fort Bend Independent School District, the 
superintendent, and said we need some space. We have people 
that we need to get into those shelters, so he gave us Marshall 
High School. We called Stafford. Stafford gave us their high 
school, and we were transporting those people ourselves. We had 
staging areas within the city. If they could get from their 
homes to a staging area, are we transporting? I said we did 
1,300 high-water rescues, and we were taking those people to a 
staging area, putting them on a bus, taking them to those 
shelters.
    Both of those shelters were feeding them. The cafeterias 
were open. But as I said earlier, the main problem we had with 
the shelters was that we didn't have the beds for the people. 
They were sleeping on the floor. The biggest concern that we 
had were some of our disabled people, both mentally and 
physically, who were scared to death. We had them in particular 
rooms to take care of themselves.
    I have to tell you a story that kind-of relates to this. I 
was in one of those rooms where we had those people, and I saw 
a man standing, and he was talking to a mirror, because this 
was in a room that had been a recreational room. He was 
carrying on a conversation with what he thought was another man 
on the other side of that glass, but he was, in fact, talking 
to himself--scared to death, didn't know where he was, didn't 
know what was happening. We had people there who were taking 
care of him.
    I go back to what Ms. Moore said. I think if we do nothing 
else, I think those operation centers that we opened up where 
people went and made application for reimbursement, ask them 
what the biggest reasons were that they were turned down, 
because I can tell you, I echo what she said. They just 
received a letter in the mail that they were turned down. We 
were asked to tell them to reapply. That should not have been 
our responsibility.
    When they went to those centers and they filled out those 
forms or they got those forms, I think it would help you all 
and it would help FEMA to understand what are the major reasons 
for applications being turned down so that the people who make 
those applications know that, OK, here is what I need to do, 
and here are reasons that I may get turned down, and then they 
were told that they could reapply, and some of those people 
have still not received reimbursement when they did reapply.
    I have a lady that had $13,000 worth of remediation in her 
house for mold. She took money out of her retirement. She has 
not been reimbursed for that $13,000 yet, and that has been 4 
months ago.
    So I go back to what my original statement was as a small 
city. We depend on getting our money as quickly as we can, and 
the residents do too. I did make the point earlier, but 50 
percent of my entire budget is public safety, and 72 percent of 
my budget is personnel costs. That doesn't leave a whole lot of 
money for everything else. So when I take 72 percent of my 
budget to pay personnel, and then I have another million 
dollars' worth of excess for overtime, and then I have to wait 
3 years to get it, I can't accept that.
    Mr. Al Green. Let me hurry quickly to Ms. Moore, because as 
a former NAACP branch president, I have great respect for the 
organization.
    Ms. Moore, I would like to, with your consent and 
permission, have this report that you presented to me placed in 
the record, if there are no objections, Mr. Chairman. In this 
report that I would add that the NAACP identifies problems with 
the system. Ms. Moore, your report indicates that there is a 
problem with the application process, that it is not user-
friendly. You indicate that people are rejected for minor 
reasons. You talk about the claims process.
    But I want you to do this--do I have that unanimous 
consent, Mr. Chairman?
    Chairman McCaul. Yes, no objections.
    [The information follows:]
   Information Submitted by the Texas State Conference of NAACP Units
Texas NAACP State Conference of Units Contact Information
State President, Gary L. Bedsoe
Disaster Committee, Carol Moore
State Staff, Lonzo Kerr, Jr.
   naacp list of identified problems regarding hurricane harvey and 
                            recovery efforts
Poverty
  <bullet> Lack of Insurance
  <bullet> Areas Less Profitable for Rebuilding
  <bullet> Lack of Access to Capital
  <bullet> Failure to Enforce CRA
  <bullet> Desire for Gentrification of Areas
  <bullet> Desire to Change Political Character of Communities as in 
        Galveston
System
  <bullet> designed to prefer the rich and the well educated
  <bullet> up front investments too often required
  <bullet> application process not user-friendly
  <bullet> monitoring system seems to be designed only to meet an 
        administrative necessity of simply having a system of some 
        kind, as calls handled seem to be handled in a cursory manner
  <bullet> rejection for minor reasons discourage applicants and lead 
        to a windfall so funds will default to Government or be 
        available to use in other areas
  <bullet> inadequate number of culturally sensitive reps in a variety 
        of areas
  <bullet> no methodology to identify the disaffected who for reasons 
        of lack of requisite knowledge or understanding, literacy, 
        language impediments, extreme poverty, or similar obstacle have 
        not entered the system
  <bullet> claims process not user-friendly
  <bullet> renters seem to be highly at risk
  <bullet> homeownership rules don't recognize instances where family 
        members clearly own property but have not formally transferred 
        ownership
  <bullet> contracts for major services seemed to be locked up prior to 
        bids even being opened up, as some have said--this is a cottage 
        industry
Other
  <bullet> people having to live in hazardous conditions while the 
        system fails to move
  <bullet> no or inadequate regulation of companies with hazardous 
        chemicals, some not publicly named
  <bullet> new laws in Texas limiting ability to recover insurance that 
        went into effect on 9/1/2017
  <bullet> Corps of Engineers providing inadequate notice to residents 
        about release of water from reservoirs
  <bullet> Corps of Engineers releasing water on thousands of 
        unsuspecting residents when cooperation with community could 
        have greatly reduced ultimate damage and harm from release 
        (note how Congresspersons called at our request to seek a delay 
        so we could go door-to-door and the water was then released 2 
        hours early)
  <bullet> Desire for Gentrification or other exploitation
  <bullet> Potential political dynamics that encourage slow and 
        different Recovery
  <bullet> ??need to take politics out of rebuilding process
  <bullet> the need to get people dislocated back home before 2020 
        Census. Smaller communities like Port Arthur will need 
        exemption to continue receiving certain Federal funding if 
        population falls below 50,000 in next Census
  <bullet> There needs to be a technology-based system that can do a 
        holistic and cumulative impact of infrastructure and housing 
        projects funded by the Federal Government
  <bullet> There is also a need for mental health care services for 
        those impacted by Harvey who are now suffering from post-
        traumatic stress (See, e.g., Todd Ackerman, ``Survey: Harvey's 
        distress unrivaled,'' Houston Chronicle)
Lack of access to technology
  <bullet> Realization that publication on web is not altogether 
        adequate
  <bullet> We need a very comprehensive medical monitoring program 
        which includes air and soil testing especially in some of our 
        low-lying areas and we need to be in a position to have 
        residents, especially children and senior citizens screened for 
        asthma and other respiratory diseases every 6 months.
  <bullet> Use the new version of Visionlink that will do just about 
        everything that can be done in case management including 
        locating and deploying spontaneous volunteers. It can locate 
        materials needed for recovery and invoice for shipping. It will 
        allow us to gather real-time data on response efforts which 
        will make it easier to tell if any discriminatory practices are 
        being done.
  <bullet> We need the Congress' help in getting sheltering standards 
        set across the board. The Geneva Conference requires all Red 
        Cross Shelters to be set up as ``Sanctuary'' shelters. However, 
        the other agencies, including Government agencies don't operate 
        with those standards. As a result, many immigrants are being 
        intimidated and harassed by ICE and other Law Enforcement 
        agencies (like running a background check on the 5-year-old in 
        Dallas).
  <bullet> A uniform credentialing system to protect victims from 
        people preying on their misfortunes. This system would require 
        all disaster workers to be registered into a databank and 
        display an accepted credential to victims they are trying to 
        help.
  <bullet> FEMA has a routine of sending out denial letters on over 90% 
        of all initial claims filed. The method they use to contact a 
        claimant results in too many African Americans giving up 
        completely on their claim. We have asked them, to no avail, to 
        explain to the claimant what was lacking in the notice of 
        claim, and guide them on what they should do to file the claim 
        properly, but FEMA has not responded.
  <bullet> We need to make sure HUD adheres to the one-for-one rule 
        which requires cities to provide or build one low-income 
        housing unit for every low-income housing unit that is 
        destroyed or condemned. We also need to stop HUD from 
        automatically voiding Section 8 Vouchers when a storm hits 
        leaving HUD recipients completely homeless, while HUD landlords 
        use HUD money to remodel and double, sometimes triple the rent 
        so that the tenant can afford to return to the renovated unit.
    These are my SEVEN most critical items to recovery.
    1. We must have or developed a scientific mathematical recovery 
        system that tracks dollars and outcomes for all Federal/State 
        and non-profit dollars.
    This should be used. NETS.--Please review LJA proposal . . . 
        AskCongress/FEMA/DHA to Fund.
    2. We must have a Case Management system that is connected to 
        resources that provides immediate resources. I know we have 
        VOAD . . . but we certainly want to make sure they have the 
        resources inside the VISION LINK or CAN system to track 
        recovery efforts and success stories and makes adjustments as 
        needed.
    3. There are Four Pillars of a Community. (1) Housing, (2) 
        Infrastructure, (3) Economic Development and (4) Community 
        Enrichment (Parks, Services, etc.)
    <bullet> (A) All Housing Types/Needs must be addressed immediately. 
            Week Numbers (Housing is Number 1--It affects Voting)
        Repair Programs
        Manufactured Housing Units--We must place an emphasis on 
            getting people back to communities.
        Rebuilds
        Buyout's and New Construction at the same time allowing people 
            to live in their community and grow.
        Note. Local Communities should be given incentives to move 
            faster. (Extra 7% admin fee for local government) 
            Units=Dollars
    <bullet> (B) Infrastructure--CRITICAL All Infrastructure should be 
            in accordance within a comprehensive plan and harden to 
            withstand another storm.
    <bullet> (C) Economic Development--A list of all businesses 
            affected should be collected who have applied for SBA and 
            been denied. We should advocate a small business package 
            for targeted zip codes.
    <bullet> (D) Civic Enrichment. This would be critical role for the 
            NAACP. Identification of all community support entities 
            inside targeted zip codes.
        We should speak to our Federal partners about these four bullet 
            points.
    4. All Federal Dollars should have a MWBE/SBE/HUB and Section 3 
        Tracking component. All Cities/Counties and the State should 
        have an administrator/consultant to monitor and or select 
        vendors for total community recovery. Harvey should be tracked 
        this way.
    5. All Fair Housing Laws should apply. Any government violating 
        fair housing should forfeit all recovery dollars.
    6. The Federal Government should use Harvey to identify (best 
        Practices for Recovery in the Building and Trades Industry).
    These items should be used to mitigate from another storm.
    7. A competition for a Demonstration Project between Public, 
        Private and Non-Profits for Disaster Recovery would encourage 
        innovation at a local level. We should encourage CIG grant 
        process used at USDA.

    Mr. Al Green. Thank you.
    I want you to do this, Mr. Moore, if you would. Talk about 
how you had the intentionality to present notices to people. 
You had a system that you were ready to run with to let people 
know what the impending circumstances were. Could you say 
something briefly on this, please?
    Ms. Moore. Yes, I will. Thank you so much. We have a 
project that we are beginning called Block by Block, if that is 
what you are referring to?
    Mr. Al Green. Yes, ma'am.
    Ms. Moore. It engages everybody that is a partner within 
the community. As you know, most people say in our community we 
have beauty shops, barber shops, liquor stores, and churches, 
and there is a church on every corner. So we are going to 
utilize that church on every corner to communicate with the 
people on that street. There is a four-corner block, and there 
is a church on every corner, and they went to those churches 
already to get what they needed, and they still go. They are 
getting food, they are getting counseling at the church on the 
corner. They are not members of that church, but they are in 
that community.
    So when you do Block by Block, the people on the street go 
to Mt. Zion, they are going to go in there, they are going to 
have whatever problem that they have. So when we call Mt. Zion 
when there is a disaster, they already know that the lady 
across the street in Apartment 11, she gets dialysis on Monday, 
Wednesday, and Friday. So when the street is flooded or 
whatever is going on, somebody knows to get her, or to get the 
individual who is there.
    It is very important that we understand that we cannot drop 
the neighbor by neighbor process because the hurricane is over. 
Block by Block continues, and as we get into our system of 
understanding the people and the process, we can make changes 
within our community. It is about building a circular process, 
not being told what we need to do top-down. People help each 
other when they are trying to get up, and we are going to 
strengthen that block by block.
    Mr. Al Green. Bottom up.
    Mr. Sloan, quickly, if I may ask, how can the NAACP foster 
a relationship with you such that the Block by Block concept 
can be integrated into the methodology that you currently 
utilize?
    Mr. Sloan. I think we had a conversation before we even 
started today about integrating Community Emergency Response 
Team and training within the NAACP and helping our communities 
build on their personal well-being by understanding that they 
need to take care of themselves, their families, their 
property, and then be able to reach out and help their 
neighbors. We look forward to providing the Train the Trainer, 
to be able to provide that assistance back to our residents.
    We are very fortunate. We have trained over 35,000 
individuals in Harris County. But with 4.7 million people, the 
gap is large, and that has to continue to grow. We have to 
convince our residents that personal preparedness is a priority 
and not a reaction, and that is a partnership that we look to 
build upon.
    Mr. Al Green. Thank you, and I am going to ask that I have 
an opportunity to get the name of the contact person that you 
will be working with. I would like to stay engaged in this 
process with the NAACP. As I said, I am a former branch 
president, and it means a lot to me.
    Just in closing, finally this. This was so important to the 
NAACP that the president of the State conference is here today. 
That is Mr. Gary Bledsoe. He is a lawyer, and also the Dean 
over at the Thurgood Marshall School of Law currently. Thank 
you, Mr. Bledsoe, for being here. We appreciate you very much.
    I yield back, Mr. Chairman.
    Chairman McCaul. Gary, it is good to see you again as well.
    Dr. Burgess is recognized.
    Mr. Burgess. Thank you. Thank you, Mr. Chairman, and thank 
you for letting me be a part of this hearing. It has been a 
long day, but I have learned a lot listening to the panel.
    The figures on debris removal, Mayor Turner and 
Commissioner Cagle, that is an astounding amount of stuff. What 
did you do with all that stuff?
    Mr. Turner. To the landfills, Dr. Burgess. But it all has 
to be sorted. You can't just go in there and put it all in 
there. It is a very complex operation. I do want to give a 
great deal of credit to Harry Hayes, who is the Solid Waste 
Director and the Chief Operating Officer for the city. He has 
been through a number of these storms. I know during the tax 
day flood we moved at a rapid rate. When FEMA told us that it 
would take from the end of December into January to do the 
first wave, that was just not acceptable for us. So Solid Waste 
employees worked 7 days a week, every single day, all day.
    I do want to thank the Governor as well because I asked for 
him to allow the landfills to stay open past 7, and he did, and 
it was very instrumental in waiving a lot of the requirements 
on that end.
    The contractors that stepped up, San Antonio and Austin. I 
do want to give them a great deal of credit because they 
stepped in with mutual aid agreements to help us out.
    But once you pick it up, it still has to be sorted. You 
can't just send everything there. But the county, the city, 
working collaboratively, we both worked with similar 
contractors, they just did an incredible job.
    Mr. Burgess. You were able to separate out the hazardous 
stuff and get it to where it was supposed to be?
    Mr. Turner. Yes.
    Mr. Burgess. So it didn't get comingled with less hazardous 
stuff?
    Mr. Turner. That is correct.
    Mr. Burgess. Very good. My first mortgage, Mr. Mayor, was 
in your fair city, so I have a lot of affinity and affection 
for it. I did pay it off. I don't want to tell you how long ago 
or how much it was for, but it was very small.
    Let me just ask you this, Mayor Turner. You mentioned about 
pre-positioning shelters, and Ms. Moore referenced a dialysis 
patient. Probably 10 days after the storm I came down to a 
dialysis clinic with the administrator for the Center for 
Medicare and Medicaid Services. I have to tell you, I was 
struck by the fact that, for the people who were on dialysis, 
it is not something that could happen; I mean, it is going to 
happen. Two or three times a week you have to make that trip, 
so the conditions are going to be very bad.
    Do you have any way of not just pre-positioning a shelter 
but perhaps proactively reaching out to that population--
because they are readily identifiable. Everybody knows who they 
are--and maybe getting them to a different location? I heard 
about this one bus driver who braved floods and wind to get the 
patients in so that they could be dialyzed, but really he was 
putting himself at risk for an activity that was quite 
predictable that it was going to have to happen.
    Is there any way to mitigate that, to pre-mitigate that?
    Mr. Turner. Dr. Burgess, I think the answer is yes. We got 
all these databases that are out there. It is just a matter of 
making sure we get the information so that we know ahead of 
time, and then we know how we can set up and where we need to 
set up accordingly. At all of the major shelters, it was not 
just housing, providing clothing, but providing medical 
assistance as well. I know that was done at NRG, and I commend 
what was taking place at NRG, and Baker Ripley, what they were 
doing. The same thing at the George R. Brown, and the same 
thing was at the Campbell Center, the shelter.
    So it was the pharmaceutical centers, it was other medical 
assistance all being provided at these shelters. It was pretty 
much holistic.
    Mr. Burgess. Could they provide dialysis at these shelters?
    Mr. Turner. I can't say whether or not they were providing 
that or they were being transported to hospitals in other areas 
where those services could be provided.
    Mr. Burgess. Mr. Cagle, let me just ask you, and this will 
be the last question. I know we have all had a long day.
    You talked about the buyout programs and the checkerboard 
phenomenon. So someone who remains in one of those areas, one 
of the checkerboards, one of the squares of the checkerboard, 
are they still eligible to purchase the Federal flood 
insurance?
    Mr. Cagle. I am not sure. That is a good question.
    Mr. Burgess. How many times can they be flooded out before 
perhaps they can't buy it? I am just asking, because I don't 
know the answer to that.
    Mr. Cagle. I don't know the answer to that either. That 
could be an incentive to encourage people to no longer be part 
of the checkerboard. Dr. Burgess, I hate to horn in on 
something that the Mayor said, but when you talked about 
picking up debris, today, although it has been long, we have 
not had a chance to sing the praises of private folks who came 
in to help.
    Rotech donated their coolers so that HEB, Kroger, and 
Walmart donated water. When our folks were out there in the 
field picking up debris, where people's stuff was in their 
front yard--and I know this because that third picture over 
there is me with my library and my reading chair. So I know 
what it is like to have your life on the curb. Our folks that 
were picking up the debris were handing out bottles of water to 
be that little kind act of mercy in the midst of the pain. The 
cool water went a long way.
    Mr. Burgess. Thank you all for your efforts during that 
time, and your continued efforts.
    Mr. Chairman, I will yield back.
    Chairman McCaul. The gentleman yields back.
    Ranking Member Thompson is on his way home, so I recognize 
the gentle lady from Texas, Ms. Jackson Lee, for a closing 
statement.
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    Let me add my appreciation to Ranking Member Thompson, who 
himself has been exposed to a number of hurricanes, coming from 
Mississippi. I thank him for his leadership working with you, 
Mr. Chairman. I think you will say this in your closing 
remarks, that if there is a bipartisan committee in the U.S. 
Congress, non-partisan, it is the Homeland Security Committee, 
which I have been privileged to serve on for a good period of 
time, and I enjoy the seniority on this committee. So I thank 
you, Mr. Chairman, and look forward to working together.
    We deal with the homeland, and we deal with North and South 
Korea. So you may see us on the DMZ because we are securing the 
homeland.
    But I do want to acknowledge the stupendous local 
leadership, from Commissioner Cagle representing the county; 
and, of course, the judge. Mayor Turner, it is well-known that 
you have redesigned how we deal with hurricane recovery, and I 
thank you for your astuteness. Your chairwoman of the Homeland 
Security Committee remained throughout the committee, 
Councilmember Stardick. I am in her district, she is in my 
district, we work together.
    Mayor Owens, we are neighbors, and so we are committed to 
you, and we believe the work you have done has been stupendous 
as you have worked with your Congressman, Congressman Green.
    To Mr. Sloan, let me as well look forward to working with 
you as we focus on local preparedness and enhancing that CERT 
team that is so very important, and particularly as it relates 
to minority communities, to multi-lingual populations, from 
Asians and Hispanics to others. It is very important to have 
that local team.
    You have done a stupendous job, Ms. Moore. Let me as a 
lifetime member as well applaud you and President Bledsoe and 
our local president as well here in Houston, the Dean. Let me 
just say that from the Urban League to the NAACP to a number of 
other entities, we have done well.
    The Chairman has allowed me, I want to do a real speed 
read. Please allow me to do that. But I would like to put into 
the record an article from the Boston Herald speaking about 
recalling the drowned officer as sweet and gentle, Sergeant 
Perez. I ask unanimous consent to do that.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
              Article Submitted By Hon. Sheila Jackson Lee
   Houston police chief recalls drowned officer as ``sweet, gentle''
http://www.bostonherald.com/news/national/2017/08/
        houston_police_chief_recalls_drowned_officer_as_sweet_gentle
Owen Boss, Wednesday, August 30, 2017, Boston Herald.
    The heartbroken chief of the Houston Police Department choked back 
tears while confirming the tragic drowning death of Sgt. Steve Perez, a 
34-year veteran he said set out into the raging storm despite pleas 
from his wife to stay home because the longtime officer felt there was 
``work to do.''
    ``The wife told me she asked him not to go in,'' Houston police 
Chief Art Acevedeo said of Sgt. Steve Perez. ``His response was, `We 
got work to do.' ''
    Acevedo, who described the 60-year-old as ``a sweet and gentle 
public servant'' who ``laid down his life'' said Perez died after 
becoming trapped in floodwaters while driving to work in the early 
morning hours Sunday.
    ``Unfortunately, in the darkness, Sgt. Perez drove into an 
underpass that's around 16\1/2\ (feet deep), drove into the water and 
he died in a flood, drowning-type event,'' Acevedo said, adding that 
local officials struggled with the decision to hold off on recovering 
his body, which was found yesterday morning.
    ``Once our dive team got there it was too treacherous to go under 
and look for him so we made a decision to leave officers there waiting 
until the morning because as much as we wanted to recover him last 
night, we could not put more officers at risk for what we knew in our 
hearts would be a recovery mission,'' Acevedo said.
    In a statement yesterday, the Houston Police Department said 
Perez's death ``reminds us of the dangers that police officers 
willingly face every day in order to serve this great City. We will go 
through this extremely difficult and trying time with heavy hearts 
sadly reminded of the ultimate sacrifice one of our own paid. Words 
cannot adequately express the sense of loss of the Perez family and 
their extended Houston Police family are experiencing.''
    Perez, who leaves behind his wife, Cheryl, and a grown son and 
daughter, was hailed for the courage he showed in the face of an 
unprecedented weather emergency.
    ``Like Steve, we will not (waver) and we will not stop until we 
meet the immediate safety and security needs of the community Steve and 
his HPD family love to serve,'' the statement read.
    In a message posted to Twitter, Houston Mayor Sylvester Turner 
wrote, ``Sergeant Perez fulfilled his purpose. His mission is complete. 
This city ought to celebrate his life.''

    Ms. Jackson Lee. As well to make mention of the public 
works employee and all of the employees, all of the employees. 
The Mayor reminds us all the time, they were stupendous, from 
the public works, and I will mention police and fire.
    But I also want to put in the picture of Sergeant Perez. I 
ask unanimous consent. The picture of the Salvador family, the 
picture of this young Dreamer. Please note that this is not 
reflective of all those tragically who lost their lives, but I 
wish to put them in as a symbol of the loss of life that we 
had, Mr. Chairman. I ask unanimous consent.
    Chairman McCaul. Without objection.
    [The information follows:]
              Photos Submitted By Hon. Sheila Jackson Lee
 houston police department, sgt. steve perez, 60, had worked 34 years 
                          with the department
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             alonso guillen
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            saldivar family
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Jackson Lee. Then let me just read from--this hearing 
was entitled ``Houston Strong,'' and I know that the Mayor of 
Houston would not mind me adding ``Region Strong'' because we 
have so many friends and partners. As my colleague Congressman 
Green did, let me acknowledge Commissioner Ellis, Commissioner 
Cagle, and that is because we worked together so hard to expand 
the supplemental nutrition program and managed to serve an 
additional 30,000 people who were food insecure, without food, 
and I want to thank him for the hard work on that, working with 
the county.
    I already acknowledged President Bledsoe, but the Coast 
Guard and the Federal entities that were here before, they were 
the bird flying in the air, pulling us out, Coast Guard, Army 
Corps, FEMA, Red Cross. Even though we need to get them 
untangled, they were here, and they need to listen to you to 
get untangled. But I do want to put my thanks to them on the 
record because they had good hearts. They had a lot of people 
here.
    So in the Red Cross, I want to thank Charlotte Camacho, 
Charles Blake. They were two staff members who were battling on 
the battlefield, out there just trying to do the good work they 
were doing.
    The Mayor of the city of Houston Turner, Mayor of Humboldt, 
Texas, Mayor Aaron working with Congressman Ted Poe was not 
able to be here today. The Central City Mayor, working with 
myself and Congressman Gene Green. Mayor Diaz, the county 
judge, the commissioners that are not here, all of the city 
council members, Coast Guard, Army Corps, Chief Acadedo of the 
police department, Chief Pena of the Fire Department.
    Then, of course, the Urban League, Baker Ripley, Fifth Ward 
Redevelopment, Lodge Point, the Muslim Alliance. So many 
different faiths were involved, the Protestant faith, 
Catholics, the Jewish community were stupendous, Adventist 
Services was stupendous.
    Tray the Truth and all singers and artists and people who 
were entertaining and comforting people in their time of need.
    Dickey's Barbecue, which was out in northeast Houston 
trying to feed people when they could not be fed. New Light 
Christian Center, Reverend Taylor and Mrs. Taylor, Grace 
Cathedral, Dr. Gillam, the Texas Military Museum was using 
their dump trucks.
    Finally, if I might--and if I forgot anybody, it is of the 
mind and not the heart. The amazing volunteers. Every one of 
you are unnamed, nameless, but I tell you, if we could hug all 
of you, we would do so.
    So, Mr. Chairman, I just wanted to say that we have learned 
a lot today, and we particularly learned that we want our 
Federal Government to do studies and do work at the same time, 
central spine, bayous, fixing repairs, we want that to be done 
at the same time.
    Then, of course, we have learned that there were a lot of 
heroes and sheroes. Some lost their lives. Some didn't get 
their name out, but their heart was there for so many people 
when it came to providing them with relief.
    To the Mayor of the city of Houston, since I was at the 
George R. Brown, I don't know how many city departments you had 
there, mayor, but you literally lifted the city of Houston down 
to the George R. Brown. Parks and Recreation, your City Health 
Department. I want to make sure I thank the MASH unit that came 
in from Health and Human Services.
    I leave you with we closed a hospital that I am hoping we 
can work together. I think it is in the city limits, and that 
is East Houston Memorial that my constituents are calling about 
that they have down I-10 near Pleasantville, no hospital 
services because that hospital finally said we can't take it. I 
am pleading to East Houston Hospital, let us work with you, let 
us try to get you back open again, and again, let us get the 
monies to where they need to be, to the county and the city.
    Thank you, Mr. Chairman, for your diligence, but also for 
your passion and commitment to have this hearing here, and all 
of the Members, from Mr. Al Green, Mr. Gene Green, Mr. Burgess, 
our friend from Nebraska, and of course our friend from Texas, 
Mr. Culberson. All of us worked on one page, and our senators 
who are not here as well.
    So thank you very much for this hearing. Again, whatever I 
missed is of the mind and not the heart. We are all still 
working together for those who are still suffering. We have not 
forgotten you.
    I yield back.
    Chairman McCaul. I thank the gentle lady. I think you have 
named just about everybody on my list. I think you saved me a 
lot of time in my closing remarks, but I appreciate your kind 
words on the way we try to govern on this committee, and that 
is in a bipartisan way. This is a Texas issue, it is not a 
Republican or a Democratic issue. I stand by that.
    I want to also thank the committee staff and the personal 
staff. This doesn't happen by chance. It took a lot of work and 
preparation to get to this point. I am proud of everybody on 
this panel because you were in the thick of this day in and day 
out, 24/7. We were there as Members of Congress being liaisons, 
trying to get how can we help you. But you were the guys 
removing the debris, dealing with the victims, and everybody in 
this room who was a part of it, thank you as well for being 
patriots and heroes.
    As we say, Texans Helping Texas, but also Houston Strong. I 
thought it was very fitting that the Houston Astros won the 
championship game, because probably that is the best way I can 
think of to close.
    So, without objection, this committee stands adjourned.
    [Applause.]
    [Whereupon, at 2:41 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Article Submitted for the Record by Hon. Al Green
     Survey Finds Unprecedented Psychological Distress After Harvey
Todd Ackerman, Houston Chronical, Thursday, April 5, 2018.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Harris County residents affected by Hurricane Harvey are 
experiencing serious psychological distress at levels rarely seen in 
the United States, according to a survey released Wednesday.
    The survey, conducted by the University of Texas School of Public 
Health in late December and early January, found signs of distress in 
48 percent of those respondents who suffered major damage to their 
homes, nearly double the amount reported among Gulf Coast residents 
displaced by Hurricanes Katrina and Rita in 2005.
    ``Except in still-devastated flood areas, people's everyday lives 
appear to have returned to normal, but our findings from this survey 
suggest otherwise,'' said Stephen Linder, director of the school's 
Institute for Health Policy and co-author of the report. ``That serious 
psychological distress is still lingering is most concerning. I 
expected some elevation, but not this much.''
    The survey found serious psychological distress, or SPD, in 18 
percent of all respondents, compared to the region's 8 percent rate 
reported in the same team's 2010 survey and the average national rate 
of 4 percent. The previous Houston rate and latest national rate did 
not come in the aftermath of disasters.
    Linder called for post-Harvey conversations--mostly focused on 
changing the physical environment to mitigate future flooding--to 
include ``less visible but lasting psychological effects.'' He said the 
SPD numbers reflect ``damage to people's sense of well-being that will 
take much longer to repair'' than property and housing recovery.
    At St. Mary's Episcopal Church in northwest Houston, the Rev. Beth 
Fain reports that post-Harvey anxiety continues unabated. The church is 
home to 18 families, representing about 70 people, whose homes flooded 
as a result of Harvey. All are still either living with friends or 
families, in rented units or in their home's upstairs rooms.
    ``During worship one Sunday, it started raining, and you could just 
feel the anxiety rising,'' said Fain, whose home flooded on both Tax 
Day and Harvey and said she shares the unease. ``Since Harvey, the 
congregants feel a lack of safety and certainty I've never seen despite 
all the previous flooding in the area. No one feels safe from being 
flooded out of their home.''
    Fain said congregants talk about trouble sleeping, lost weight, 
thinking difficulties and increased sickness.
    The psychological distress is also reflected in a Facebook group 
``for those who were affected by Hurricane Harvey and struggling with 
anxiety, depression, anger, pain, etc., as they rebuild their lives or 
support friends and family. The focus will be on sharing solutions, 
talking through problems, sharing experiences.''
                        the harris county survey
    Linder's team surveyed 500 Harris County respondents between 18 and 
54 years old to gauge their experience and recovery, using questions 
posed in previous post-disaster surveys. He acknowledged his confidence 
level in the survey is not as great as it would be for the Katrina/Rita 
survey because it is significantly smaller. The Katrina/Rita survey 
included 2,700 displaced people. But after adjusting for the sample 
size difference, he said the Houston survey results could range from a 
high of 53 percent to a low of 30 percent. The Katrina/Rita survey 
found a SPD of 25.7 percent.
    SPD is a scientific term used in population-based studies, not a 
psychiatric diagnosis. It uses a scoring system indicating the 
likelihood that subjects have a mental illness such as anxiety, 
depression, or post-traumatic stress disorder.
    Dr. Jair Soares, chair of psychiatry and behavioral sciences at 
McGovern Medical School at UTHealth, called the Harvey survey findings 
``remarkable.''
    ``Those numbers are cause for great concern,'' Soares said. ``They 
suggest major disasters impact the mental health of people even more 
than we thought and that we need to be more proactive in identifying 
red flags and linking people with social services.''
    Dr. Julie Kaplow, director of Texas Children's Hospital's Trauma 
and Grief Center and Harvey Resiliency and Recovery Program, added that 
the survey responses are ``consistent with what we're seeing.'' She 
said the outside world may expect ``everything to be back to normal 8 
months after the event, but that's not the case for those still 
suffering, particularly kids.''
    ``Post-traumatic stress doesn't typically show up until 6 months 
and then typically needs longer-term intervention--say, two to 5 
years,'' Kaplow said. ``Kids struggling the most are the those with 
previous conditions, often undiagnosed because they're in underserved 
communities.''
    Kaplow said Harvey's one silver lining is that more children are 
gaining access to mental health services and getting help for trauma 
for the first time.
                             by the numbers
    Harvey damaged more than 200,000 Harris County homes and apartment 
buildings, according to the latest flood data released by public 
officials. Many are still in limbo, flooded out of homes and living 
with friends or in hotels or in short-term rental apartments.
    The UT survey found Harvey took a serious toll on people's physical 
health, too, with nearly 22 percent experiencing a worsening of an 
existing health condition, physical injury or a new illness during or 
immediately after the hurricane. Of that group, 39 percent reported 
physical injuries, 26 percent infections, 22 percent respiratory 
problems and 10 percent worsening of chronic conditions.
    But the psychiatric distress was the survey's most striking 
finding, evidenced also in those whose automobiles suffered major 
damage. Thirty-seven percent of such respondents also showed signs of 
SPD.
    The SPD rate was highest among Hispanic residents and lowest among 
Asian residents. The rate in women was nearly twice that of men, a 
departure from trends in previous studies. But it also was higher in 
Houston women in the 2010 survey.
    Linder expressed unease about the low level of concern by survey 
respondents about their mental health issues. Among those who suffered 
serious damage and reported signs of psychological distress, only 30 
percent said they considered mental health care a pressing need.
    The UT School of Public Health survey is a companion piece to a 
larger health survey currently in the works and due to be released this 
summer. Linder said he expects--or at least hopes--that survey will 
show a decline in the latest SPD numbers. The study will be broken down 
by pre- and post-Harvey responses, the latter taken between February 
and April.
    ``I think this survey shows not just the emotional impact of 
disasters like Harvey on people, it shows the need for more 
preparedness,'' Linder said. ``Planning relative to your social 
network--Is someone going to check on you? Where can you go to stay?--
are as important as stockpiling batteries and food, making sure the 
radio works.''
                                 ______
                                 
           Article Submitted for the Record by Hon. Al Green
 Record reservoir flooding was predicted even before Harvey hit Houston
By Lise Olsen, Houston Chronicle, February 21, 2018; Updated: February 
        22, 2018 10:28am.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

Water is released from the Barker Reservoir on Aug. 29 in the aftermath 
of Hurricane Harvey. Five days earlier, the U.S. Army Corps of 
Engineers had projected that the storm would fill the reservoir to 
record levels and would flood nearby neighborhoods. Photo: Brett Comer, 
Staff/2017 Houston Chronicle

    A day before Hurricane Harvey made landfall on the Texas coast last 
August, an internal U.S. Army Corps of Engineers forecast predicted 
that the storm would fill Houston's Barker Reservoir to record levels, 
flooding neighborhoods on the reservoir's western border, government 
records show.
    That projection was made Thursday, Aug. 24, 2017, as Harvey 
barreled toward Houston. The next day's Army Corps forecast was even 
more worrisome: Both Barker and Addicks reservoirs would spill beyond 
government-owned land, engulfing nearby homes and businesses.
    The Corps did not share these predictions with the public.
    It wasn't until Saturday, Aug. 26, that authorities in Fort Bend 
County--after being briefed on the latest Army Corps forecast--issued 
the first flooding advisory for neighborhoods adjacent to Barker.
    It took Harris County officials until late Sunday, Aug. 27, to 
begin issuing similar warnings for communities upstream of both Barker 
and Addicks. By then, some neighborhoods were already inundated. Many 
residents ended up fleeing on foot or being rescued in boats or 
military vehicles.
    The forecasts, closely held internal records, have emerged 6 months 
after Harvey through discovery in a lawsuit in which thousands of 
homeowners are seeking compensation from the Army Corps, which operates 
Barker and Addicks dams and their reservoirs. The Houston Chronicle 
obtained copies of the documents.
the lawsuit: residents argue the army corps knew for decades about katy 
                             flooding risks
    They are sure to revive debate about whether the Corps and local 
officials acted quickly enough to alert homeowners to the danger of 
reservoir flooding and to urge evacuations.
    Ultimately, the forecasts proved largely accurate. More than 9,000 
homes and businesses were flooded by the reservoirs--at least 4,000 
upstream of Barker and 5,000 to 6,000 upstream of Addicks, according to 
a Chronicle analysis of damage reports.
 developing storm: for buyers within ``flood pools,'' no warnings from 
                      developers, public officials
County made advisory
    Fort Bend and Harris County officials said they were not informed 
of the Corps' initial Aug. 24 forecast.
    ``If they were predicting that on Thursday, they were not advising 
us of that fact,'' Fort Bend County Judge Robert Hebert said in an 
interview.
    Hebert said the county received the next day's forecast, but he 
said the Corps characterized it as internal and preliminary. County 
officials say the forecast issued Saturday, Aug. 26, was so alarming 
that they decided to issue an advisory the same day, citing the Corps' 
projections.
    Hebert said the county did so despite objections from Corps 
officials, who wanted the forecast kept confidential. Fort Bend County 
also activated its reverse 9-1-1 system to reach out to thousands of 
property owners near Barker Reservoir.
    Harris County Judge Ed Emmett declined to comment. People familiar 
with his role in the emergency response say Emmett was not briefed on 
the Corps' forecasts.
    Efforts to obtain comment from the Corps were unsuccessful. The 
Chronicle emailed questions to a Corps spokesman on Tuesday. He had not 
provided responses as of Wednesday night.
    One of the reservoir-adjacent homes that was flooded during Harvey 
belongs to Harry Ershad, a computer programmer and musician. He said it 
was frustrating to learn that as early as Aug. 24, the Corps had 
developed a detailed picture of how Barker Reservoir would fill his 
Canyon Gate neighborhood.
    Ershad said that with just a few hours' notice, he, his wife and 
their two sons could have saved their four cars, most of their musical 
instruments and their home recording studio. Instead, he said, nearly 
everything was ruined.
    By the time Fort Bend County issued its Aug. 26 advisory, the 
streets in Ershad's neighborhood already had been swamped. He and his 
family later waded out through neck-high water, he said.
    ``We got out with our laptops and our passports, and that's it,'' 
he said.
   harvey surprise: many homeowners unaware they lived in reservoir 
                            ``flood pools''
    The flooding forecasts were generated by the Corps Water Management 
System, which crunches information about rainfall, weather forecasts, 
river conditions, and other data to guide the Army Corps in managing 
its dams and reservoirs.
    The Aug. 24 forecast showed that Harvey would cause the volume of 
water in Barker Reservoir to exceed what could be stored on government-
owned land beginning Tuesday, Aug. 29, and lasting for more than 2 
weeks.
    When that forecast was issued, Fort Bend and Harris counties were 
preparing to open emergency operations centers and Harvey's rains had 
not yet arrived.
    Once the emergency centers opened Aug. 25, the Corps sent staff 
members and gave daily updates to Harris and Fort Bend county officials 
and Houston city officials. But the Corps told the local officials not 
to make any of the Corps Water Management System forecasts public, said 
Jeff Braun, emergency management coordinator for Fort Bend County.
Flooding of homes begin
    The Aug. 25 forecast showed the water level in Barker Reservoir 
reaching 100 feet. Water begins to spill into neighborhoods when the 
level exceeds 95 feet, according to Corps records.
    The forecast generated on Saturday, Aug. 26, said homes upstream of 
Barker would begin to flood on Monday, Aug. 28--a day earlier than 
previously predicted. The projection for Addicks indicated that some 
homes in low-lying neighborhoods could fill with 7 or more feet of 
water and remain flooded for weeks.
    Both Harris and Fort Bend counties issued formal evacuation orders 
Aug. 30. By then, neighborhoods near the reservoirs had been inundated 
for days.
    Attorneys representing homeowners in flood-related lawsuits in the 
U.S. Court of Claims want to know why the forecasts weren't shared with 
the public sooner.
    Homeowners want to know why their neighborhoods were built inside a 
reservoir flood pool.
    ``The tragedy is an earlier warning could have allowed people to 
get out and get their property out,'' said Charles Irvine, of Irvine & 
Conner, one of the lead lawyers for property owners upstream of the 
reservoirs.
    ``This confirms that when a storm comes, the Corps can use its own 
modeling to predict exactly how much government-stored water will 
impact the upstream community. I can't speak to why the Corps didn't 
give the residents an earlier warning. But clearly the Corps 
anticipated the flooding on upstream private land from the Addicks and 
Barker dams before the rains even really started.''
    James Blackburn, another Houston attorney who has long been active 
in flooding matters and who recently founded a related nonprofit called 
the Bayou City Initiative, said a congressional investigation was 
warranted.
    ``This is a bona fide public policy debacle,'' he said. ``Were 
Harris County and Fort Bend County officials getting information and 
not alerting the public--or were they not getting the information? Or 
did they get the information and did the Corps ask them not to spread 
it around?''
    Thousands of people like Ershad hunkered down to wait out Harvey 
because they were not told to evacuate and didn't know their 
neighborhoods could be flooded by the reservoirs. When Ershad left 
Canyon Gate, the streets were impassable but only his garage had 
flooded. He and his family returned 13 days later to find their home 
ruined. They had no flood insurance.
    ``I lost 15 years of compositions of music,'' he said.
    Addicks and Barker dams were built in the 1940's to protect 
downtown Houston from flooding. The earthen structures are designed to 
hold storm runoff from the vast Buffalo Bayou watershed and release it 
into the bayou at a controlled rate.
          like a bathtub: how the addicks and barker dams work
    The government acquired thousands of acres of land behind the dams 
to serve as reservoirs, but the dams can hold back more water than can 
fit on that land. Over the decades, tens of thousands of homes were 
built on the edges of the government-owned property.
    When the reservoir pools exceed the government-owned land--an 
extremely rare occurrence--water has nowhere to go but into adjacent 
neighborhoods. That's what happened during Harvey.
    As far back as 1995, the Corps studied ways to reduce this risk. 
The options included deepening the reservoirs, buying out thousands of 
properties and building more reservoirs. The Corps never acted on any 
of them.
   ignored: a fort bend engineer's warning, 25 years old, comes true 
                             during harvey
                            developing storm
    Hurricane Harvey was the most destructive storm in Houston's 
history. The late-August storm dumped up to 60 inches of rain on 
southeast Texas, but the resulting damage was multiplied by actions 
taken--and not taken--during the past 50 years. Our seven-part series 
explains why the storm's damage was both a natural and man-made 
disaster.
    Part 1: Nature ruled, man reacted. Hurricane Harvey was Houston's 
reckoning
    Part 2: Build, flood, rebuild: flood insurance's expensive cycle
    Part 3: What's in Houston's worst flood zones? Development worth 
$13.5 billion
    Part 4: Harvey overwhelmed some levee systems. Future storms could 
do worse
    Part 5: Officials patched and prayed while pressure built on 
Houston's dams
    Part 6: For buyers within ``flood pools,'' no warnings from 
officials
    Part 7: In ``eternal struggle'' with water, Dutch have much to 
teach
                                 ______
                                 
                   Article Submitted by Hon. Al Green
  U.S. Army Corps of Engineers to release water from two Houston-area 
                            dams: statement
David Gaffen; Reuters, August 28, 2017.
    The U.S. Army Corps of Engineers is starting to release water from 
two Houston-area reservoirs, which will cause flooding of homes in the 
surrounding communities, because the reservoirs have risen too quickly 
due to Tropical Storm Harvey, the agency said in a statement.
    The Corps of Engineers said it needs to release water now to 
prevent uncontrolled water flowing from the dams. Water is being 
released from the Addicks and Barker into Buffalo Bayou, the primary 
body of water running through Houston.
    ``If we don't begin releasing now, the volume of uncontrolled water 
around the dams will be higher and have a greater impact on the 
surrounding communities,'' said Col. Lars Zetterstrom, Galveston 
District commander of the Corps.
    The release is expected to start flooding homes around the Addicks 
and Barker reservoirs on Monday morning, the Harris County Flood 
Control District said.
                                 ______
                                 
                   Article Submitted by Hon. Al Green
$500 million in Ike relief is still unspent. Will Texas do better after 
                                Harvey?
Morgan Smith and Brandon Formby, Texas Tribune, Nov. 3, 2017.
    U.S. Air Force member conducted search and rescue operations on 
Galveston Island after Hurricane Ike on Sept. 13, 2008. Staff Sgt. 
James L. Harper Jr.
    The billions in long-term disaster relief dollars that will fund 
Texans' recovery from Hurricane Harvey's devastating blow are still far 
from reaching state coffers. But there's already tension brewing over 
how much federal money should be spent to fix flood victims' homes and 
how much should go toward repairing government buildings and launching 
new flood control projects.
    Those critical choices will hinge on a key decision: Who will 
control how the money is spent, the federal government or Texas?
    State leaders want as few limitations as possible on what could be 
the biggest influx of federal recovery money to ever hit the state, 
arguing that officials in cities and counties battered by the storm 
know best whether money should go to individual households or public 
works projects.
    The state's requests for flexibility--followed by Gov. Greg 
Abbott's Tuesday trip to Washington to deliver a $61 billion wish list 
predominantly made up of Harvey-related infrastructure projects--have 
sparked alarm from veterans of previous battles over long-term recovery 
funding.
    With the recent past as their guide, they fear homeowners and 
impoverished communities will get shortchanged in favor of large-scale 
infrastructure projects that could have little connection to disaster 
recovery.
    They point to Hurricane Ike, which struck Galveston in 2008 and 
flooded an estimated 100,000 homes along the Texas coastline not long 
after Hurricane Dolly hit the Rio Grande Valley.
    At the time, the state received $3 billion from the Department of 
Housing and Urban Development, the federal agency that oversees long-
term rebuilding from natural disasters. A Texas Tribune review of 
projects funded with that money found it went to a wide range of 
purposes that local officials tied to disaster recovery, including 
building new community centers in at least eight different counties, 
replacing lights at a Little League baseball field, putting a new roof 
on a sports stadium, and restoring a beach pavilion.
    Yet almost 10 years later, more than $500 million--most of it 
earmarked for housing-related projects--for Ike and Dolly recovery 
still hasn't been spent.
    ``The hard truth of this is there aren't going to be enough 
resources to make everyone whole, there aren't going to be enough 
resources to harden all the infrastructure, there just aren't,'' said 
Maddie Sloan, a lawyer for Texas Appleseed, an advocacy nonprofit. ``So 
there have to be priorities set, and how priorities get set is a big 
deal.''
    Some local officials have already begun to push for using long-term 
recovery money from the federal housing department for infrastructure 
projects.
    At a meeting in Houston's flood-prone Meyerland neighborhood last 
month, the city's chief resilience officer told a crowd of hundreds 
that officials are ``actively pursuing'' HUD money to use as the local 
contribution toward flood control projects that would also be funded 
through other federal sources.
    ``We can use HUD money for local shares of other stuff,'' Stephen 
Costello said.
    Meanwhile, more than 51,000 southeast Texans are still displaced 
and living in hotel rooms, more than two months after Harvey slammed 
into the coast, dumped more than 50 inches of rain in some areas and 
damaged more than 563,000 homes. More than 149,000 people have 
qualified for rental assistance while they wait out repairs or look for 
a long-term place to call home. An unknown number are living with 
family or friends or paying for their own short-term housing needs.
    ``It's often the case that the needs of Texans to rebuild and 
recover don't rise to the same level of some of those government 
projects that people have in mind,'' said John Henneberger, co-director 
of the Texas Low Income Housing Information Service.
                        how the money will flow
    Abbott split long-term disaster recovery efforts between the land 
office and a commission headed by Texas A&M University Chancellor John 
Sharp. The two entities have told federal officials they need a 
collective $121 billion to help cities, counties and families recover, 
though it's still unclear how much overlap there could be in the two 
requests. State leaders have also been clear that they aren't expecting 
to get all they ask for.
    The land office is overseeing housing assistance programs, 
including long-term recovery dollars that typically go toward 
rebuilding houses or repairing damaged apartments. But the land office 
is also overseeing infrastructure projects that could be funded from 
the same pot of money.
    The commission Sharp leads is focusing on flood control, roadways, 
water services projects and buying out or elevating flood-prone houses. 
While Sharp's commission compiled a 301-page report detailing money 
needed for public works projects across the Texas coast, no state or 
federal agency has put together a comprehensive account of the damage 
Harvey did to Texans' homes.
    Instead, state officials' request for long-term housing money is an 
estimate based on the number of households requesting immediate 
emergency aid, the average cost of a Texas house and how much money it 
cost to rebuild houses in previous disasters.
    Land office leaders readily admit that many Texans may not receive 
federal assistance to cover their losses from Harvey. They also say 
that for the cost of rebuilding a handful of damaged homes, they can 
pay for projects that can protect many more homes from future floods.
    ``So the locals need the ability to make that determination on 
what's the best way to benefit that particular area,'' said Pete 
Phillips, a senior director with the state's General Land Office.
    But giving local elected leaders that level of discretion is what 
has some housing advocates worried.
    ``That's absolutely what created the problems before,'' Henneberger 
said.
              state priorities challenged after ike, dolly
    In many ways, concerns about the rebuilding process are rooted in 
Texas' problematic history of disaster relief spending.
    The lump-sum relief funds HUD gives states and local governments 
comes with some restrictions on how the money can be used. Those 
stipulations usually include how long the public has to weigh in on 
state and local plans for the funds, thresholds for how much must go 
toward housing rather than infrastructure and a minimum amount that 
must be spent to help low- and moderate-income disaster victims.
    ``The goal is not to hand everybody a little bit of money,'' 
Henneberger said. ``The goal is to make sure that the limited amount of 
money can help those who could not otherwise recover.''
    After Ike and Dolly, the state put two separate agencies--one for 
housing and one for non-housing projects--in charge of overseeing local 
governments' use of the money.
    Local officials quickly used that money to rebuild infrastructure, 
while a large portion of the money that should have gone to help Texans 
rebuild their homes remains unspent nearly a decade later.
    At the time, monitoring reports from the federal housing department 
blamed that slow trickle of money for housing on bureaucratic chaos at 
the state level. Gov. Rick Perry blamed the delays on the federal 
government.
    A year after Ike and Dolly hit, Henneberger's and Sloan's 
nonprofits accused Texas officials of violating fair housing laws and 
HUD's own rules for spending disaster funds.
    The advocacy groups said in a complaint to HUD that the state used 
flawed data in deciding how to split relief money between public works 
projects and Texans whose homes were damaged by the hurricanes. They 
also said the state effectively ``steered resources away'' from 
hurricane victims by awarding a $16.6 million contract to a consulting 
firm that helped local governments understand how disaster grants work 
and identify infrastructure projects that would qualify.
    In a May 2010 agreement between the state and the nonprofits, the 
federal housing department forced Texas to rework its plan for the 
relief funds. The department also increased the amount of money that 
Texas was required to spend on lower-income residents and ordered the 
state to use more than $200 million to rebuild, replace, buy out or 
construct housing for lower-income Texans.
    Today, $297 million of unspent Ike and Dolly money is earmarked for 
housing recovery. That includes money set aside for public housing in 
Galveston, where plans for affordable units have been mired in 
opposition from other residents, politics and federal complaints for 
years.
    While the state holds the money and ensures recipients spend it 
according to HUD's parameters, it's up to local governments like cities 
and counties to turn those dollars into construction projects. The 
General Land Office has managed the funds since 2011, and officials 
there say they plan to close out remaining projects by the end of 2019.
    Sloan, with the Texas Appleseed Project, said the state's 
performance has improved since the state land office began overseeing 
the second round of hurricane relief funding.
    ``There've been dramatic increases in the amount of home repair 
money going to low-income households, better benefits to renters of 
different income levels, and the state has said every infrastructure 
project needs to benefit low- and moderate-income people,'' she said.
    But Henneberger said the lack of a comprehensive plan to help 
Texans put their lives back together after Harvey--and the overwhelming 
focus on infrastructure in the state's wish list released this week--is 
frustrating and worrisome.
    ``We want to see that the money is targeted fairly between 
infrastructure and individual benefits to disaster survivors who need 
to recover their lives and rebuild their homes,'' Henneberger said.
                           worry in meyerland
    In the past two months, Congress has agreed to spend more than 
$51.8 billion on disaster relief following a string of natural 
calamities including three hurricanes and California's deadly 
wildfires.
    The federal housing department has yet to determine how to divide 
the money among the affected states and territories, but the agency 
said it will do so based on which areas have the greatest ``unmet 
need,'' said spokesman Brian Sullivan. They make that evaluation using 
data from insurance claims, FEMA, and the Small Business 
Administration, which provides disaster relief loans to homeowners.
    ``Everybody is collecting information about the places that were 
hit the hardest, who suffered the greatest degree of serious or maybe 
even severe housing damage, how many families were insured or 
uninsured, it's like you've got to untangle this ball of yarn,'' 
Sullivan said.
    While government officials continue taking stock of the overall 
impact, hundreds of thousands of Texans are still slogging through 
their individual recoveries. At last month's meeting in Meyerland about 
flood control projects, tensions boiled over inside a church packed 
with hundreds of residents listening to officials discuss 
infrastructure and federal funding.
    The houses in that neighborhood straddling Houston's Brays Bayou 
were inundated with feet of water after Harvey battered southeast 
Texas--some for the third time in as many years. Many residents are 
waiting to see if their repeatedly-flooded homes will be targeted for 
buyouts, while others who flooded for the first time this year are 
months or years from learning if there will be federal money to help 
them fully rebuild.
    Some Meyerland residents asked officials about particular flood-
control projects during the meeting's question-and-answer portion. 
Others had more immediate needs on their mind.
    ``Some people don't care about long-term plans,'' Larry Zomper said 
once he got a turn at a microphone. ``We wanna know how to live now, 
what decisions to make now.''
Disclosure.--Texas Appleseed and Texas A&M University have been 
financial supporters of The Texas Tribune. A complete list of Tribune 
donors and sponsors is available here.
                                 ______
                                 
                   Article Submitted by Hon. Al Green
Climate change displacement is becoming the new gentrification--here's 
                             how to stop it
Stephen Zacks, December 6, 2016.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Nathan Weyiouanna's house falls victim to climate-change-related 
coastal erosion in Shishmaref, Alaska, from the series The Last Days of 
Shishmaref (2008). (Dana Lixenberg )

    Partisan political discourse still pretends as if there's a climate 
change ``debate,'' yet the government is already acting extensively to 
prevent crises from rising global temperatures. Across the country, 
local and Federal agencies are working with architects and planners to 
protect communities and redevelop neighborhoods in the aftermath of 
climate-related natural disasters. But what happens to residents who 
are too poor to get out of the way of storms--and too poor to return--
and why is anyone rushing to live in disaster zones?
    Catastrophic natural disasters share a common feature with 
accelerated processes of economic development: at vastly different 
rates, both can result in large-scale displacement. An article by 
Brentin Mock on environmental news site Grist uses a pithy phrase for 
the disparate impact climate change can have on lower-income residents: 
it's the ``ultimate gentrifier,'' he wrote, citing the exodus of more 
than 300,000 low-income residents from New Orleans after Hurricane 
Katrina.
    The description may be provocative, but studies by environmental 
scientists at the EPA's Climate Change Division partly support the 
notion. Within the 6,000-square-mile area at high risk of flooding by 
2100 due to a mid-range two-foot sea-level rise, almost 750,000 
residents belong to the most socially vulnerable groups. These are most 
likely to be disproportionately impacted by storms and least likely to 
have the resources to move.
    But are rich people really moving into areas where low-income 
residents are being displaced by storms? Sadly, in some cases, yes. A 
New York Times story on high-rise condo construction in Sheepshead Bay, 
Brooklyn, reports that, far from retreating from flooded areas, a 
building boom is driving up prices.
    Currently, local and Federal agencies only spottily provide the 
necessary infrastructure and policy frameworks to protect against 
climate-related catastrophes ranging from forest fires in Southern 
California, earthquakes along the Pacific Coast, tornados and flash 
flooding in the Midwest, and hurricanes in the Gulf of Mexico. Adequate 
planning, Federal aid, and environmental regulations can and should 
prevent disparate impacts of climate-change related severe weather 
events on low-income residents. In practice, prioritizing where to 
improve infrastructure falls to local governments that have worse 
financial constraints and often carry an implicit economic bias toward 
the most financially important areas.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Shishmaref. (Courtesy Bering Land Bridge National Preserve)

    In Alaska, higher temperatures are increasing erosion and thawing 
the permafrost, causing homes to sink in the mud. More than a dozen 
Inuit towns have already voted to move, including Newtok, which has 
acquired a relocation site through an act of Congress, and the 650-
person Bering Sea village of Shishmaref, which commissioned AECOM's 
Anchorage office to study the feasibility of relocation sites. Yet the 
cost of these moves, estimated at $214 million for Shishmaref alone, is 
far beyond the means of the inhabitants; a U.N. report on climate 
change and displacement notes the lack of State and Federal governance 
structures to support these moves.
    Some low-lying neighborhoods in New Orleans are undergoing a 
similar policy of unofficial abandonment, swallowed up by nature 
through neglect. These places are not gentrifying--they're simply 
disappearing.
    The Federal Emergency Management Agency (FEMA), reorganized in 2003 
under the Department of Homeland Security and reformed since 2009 by 
Obama Administration appointee Craig Fulgate, now talks about what it 
calls a ``whole community'' approach, emphasizing participation and 
engagement of a wide range of stakeholders. It needs to do more.
    ``FEMA has changed its rhetoric,'' said Deborah Gans, who has 
conducted planning studies for low-lying neighborhoods in New Orleans 
and Red Hook, Brooklyn, most of which flooded in 2012 during Hurricane 
Sandy. ``They don't really know how to do it yet, but at least they're 
talking the talk.''
    In 2008, Homeland Security established the Regional Catastrophic 
Preparedness Grant program to encourage collaborative emergency 
planning in America's ten largest urban regions. In New York's combined 
statistical area, which includes New York, New Jersey, Pennsylvania, 
and Connecticut, the Regional Catastrophic Planning Team coordinated a 
series of Participatory Urban Planning workshops that included city and 
State agencies, nonprofits, community groups, private-sector 
representatives, and even local Occupy affiliates to streamline 
emergency preparedness, housing recovery plans, and recovery processes 
in five types of communities.
    In the New York area, Hurricane Sandy has increased the sense of 
urgency. ``In New York, about a third of our housing is within our six 
evacuation zones,'' said Cynthia Barton, who participated in the 
workshops as manager of the Housing Recovery Program for the New York 
City Office of Emergency Management.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Urban Post-Disaster Housing Prototype. (Courtesy Andrew Rugge/
Archphoto/Open House New York)

    Barton leads the FEMA-supported initiative to prototype interim 
housing units, designed by James Garrison, which would substitute for 
the improvised mesh of hotels that sheltered displaced low-income 
residents in the aftermath of Sandy. The interim housing units, IKEA-
like prefab condo boxes that stack up to three stories high in various 
configurations, facilitate an urban density allowing vulnerable 
residents to remain within their neighborhoods in the aftermath of 
severe storms.
    ``The basis for the project has always been that none of the 
Federal temporary housing options would work in cities and that it's 
very important to keep people close to home after a disaster,'' Barton 
said. ``In terms of economic stability for people and for 
neighborhoods, it's important to keep people close to their jobs. It's 
important for mental health reasons to keep people close to schools and 
close to their support networks.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

In 2015, DLANDstudio was selected to develop a green infrastructure 
master plan for the St. Roch neighborhood of New Orleans. (Courtesy 
DLANDstudio)

    But on the Federal level, long-term infrastructure improvements are 
not adequately funded. In New Orleans, landscape architect Susannah 
Drake of DLANDstudio is working on a gray and green streetscape program 
for 20 blocks of the St. Roch neighborhood. ``The issue is that the 
base condition was low in terms of the infrastructure that existed,'' 
Drake said. ``We're adding basic amenities for what would be a normal 
streetscape in New York, but we're also dealing with the challenge of 
having very little infiltration and having a lot of water to manage . . 
. They're not things the Federal Government is necessarily willing to 
pay for.''
    Without Federal insurance and public investment in infrastructure, 
wealthy homeowners don't tend to move into flood zones. But storm 
protection, unevenly funded by Federal grants, frequently has to be 
supported by local real-estate development tax revenues that provide 
lopsided advantages to upper-income residents.
    ``There's a historical inequity environmentally in a lot of these 
neighborhoods in need, and it's exacerbated by climate change,'' said 
Gans, who led a Pratt Institute planning study on how to locate 
emergency housing in low-lying Red Hook, Brooklyn. ``New York City 
Housing Authority projects were generally located on land that wasn't 
that valuable, and guess what? It tended to be low-lying and out of the 
way.''
    The problem centers on whether to save the threatened neighborhoods 
or rezone them to exclude residential use. Shoring up a city's flood 
defenses can become an opportunity to improve a neighborhood's 
environmental equity, but using the prevailing market-based model, 
focusing stormwater infrastructure in a waterfront community will only 
push more housing into vulnerable areas.
    ``As long as we keep allowing people to build market-rate 
waterfront property, there will be gentrification,'' Gans said. ``Any 
development that takes place on the water will be so expensive that it 
will necessarily gentrify the waterfront. There's just no doubt about 
it.''
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

AECOM's plan for Red Hook. (Courtesy AECOM)

    In Red Hook and Sunset Park, AECOM recently released a plan to 
place 30-50,000 units of new housing on the waterfront--25 percent of 
it affordable--as well as subsidize a new subway stop, and implement 
green and gray infrastructure for coastal protection and flood 
management. Arguing for the plan as a boost to Mayor de Blasio's OneNYC 
ambition to build 200,000 affordable units by 2020, the proposal also 
runs counter to the idea of limiting exposure to areas of growing risk.
    ``Why would you build more housing in an area that's underserved by 
transportation and that's in a really dangerous zone, a flood area,'' 
asked Drake, who designed the Sponge Park concept as a green 
infrastructure element for the Gowanus Canal. ``I'm not an economist, 
but I'm very pragmatic and down on building in flood plains.''
    Officially, there is no means testing of emergency planning or 
recovery aid. Eligibility for the National Flood Insurance Program and 
high insurance rates affect individual decisionmakers. Not so for 
public housing, where residents' lack of access to resources makes 
issues of planning that much more grave. Because of its 6,500 public 
housing residents, two-thirds of the Red Hook is below the poverty 
line. Economically, the light-manufacturing industries scattered among 
its low-rises generate relatively little revenue for the city to 
justify hundreds of millions in flood protection.
    The conflict between access to revenues and local needs seems to 
underlie the rapidly advancing East Side and Lower Manhattan Coastal 
Resiliency projects, sections of Bjarke Ingels Group's winning Rebuild 
by Design competition proposal for the protection of Lower Manhattan up 
to 59th Street. The projects essentially erect a wall adorned with 
parks as a bulwark against the sea. They implicitly prioritize the 
centrally important economic drivers of New York City.
    ``Ultimately there's a cost-benefit analysis,'' said Drake. ``I'm 
not saying that lives are less valuable in other parts of the city, but 
when you do an economic cost-benefit analysis between Lower Manhattan 
and Red Hook, and you're looking on purely financial terms, then Lower 
Manhattan wins because it's an economic driver of the city.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Rendering of the Stuyvesant Cove section of the East Side Coastal 
Resiliency Project (ESCR). (Courtesy city of New York)

    If it can really be done for that amount, the estimated cost for 
the Lower Manhattan projects is negligible in comparison to the 
economic benefit. The Office of Recovery and Resiliency and the 
Economic Development Corporation of New York have dedicated $100 
million to an integrated flood protection system (IFPS) for Red Hook. 
City capital is supporting a $109 million Raise Shorelines City-wide 
project that would mitigate sea level rise in Old Howard Beach, Gowanus 
Canal, East River Esplanade, Mott Basin, Canarsie, Norton Basin, and 
the North Shore of Coney Island Creek.
    ``Emergency planning should really be about future planning,'' Gans 
said. ``The way you avert an emergency is by making sure you have 
integrative future plans that don't put people in harm's way and 
mitigate all of the bad decisions you made historically.''
    In contrast to the oblivious political climate change ``debate,'' 
local governments have already learned from recent extreme weather 
events that they need to act to improve their planning capacity and 
infrastructure. Federal agencies are also acting, putting limited 
resources into protecting against climate change-related disasters. 
Highly engineered solutions are possible, but they're unwise as a long-
term strategy in the absence of a leveling off of global temperatures 
and will be cost-prohibitive for low-income communities. Unless the 
next Congress is prepared to fund a national infrastructure program, 
the best way to equitably protect low-income residents will be to 
downzone vulnerable areas and build new public housing on higher 
ground. Otherwise, we'll need to accept the fact that our celebrated 
revitalized waterfront is mainly for the rich.
                                 ______
                                 
                   Article Submitted by Hon. Al Green
  Federal housing agency announces $57.8 million to Texas for Harvey 
                                recovery
Morgan Smith and Brandon Formby, Texas Tribune, October 20, 2017.
    Federal housing officials announced Friday what they called 
``another down payment''--an additional $57.8 million--to support long-
term recovery efforts from Hurricane Harvey in Texas.
    The new funding from the U.S. Department of Housing and Urban 
Development is separate from the State's yet-to-be-determined share of 
the $7.4 billion in HUD disaster recovery dollars Congress appropriated 
in September. Federal housing officials are currently deciding how to 
divide that sum among the U.S. States and territories hit by hurricanes 
Harvey, Irma and Maria. It is unclear how long it that will take.
    ``We are literally poring over this information right now with the 
hope that we can allocate that $7.4 billion as quickly as possible. The 
challenge of course is that data don't become available immediately,'' 
said Neal Rackleff, the department's assistant secretary for community 
planning and development, who added that there was still ``virtually 
no'' damage assessment available for Puerto Rico.
    The $57.8 million will go to Texas as early as mid-December. The 
State will then administer the grants at the local level. This process 
will allow money to reach families in need faster than if it went 
directly to county or city governments, Rackleff said, because the 
State already has an action plan in place.
    Rackleff said the Federal housing department had identified 13 
Texas counties where housing needs were going unmet by either private 
insurance or various sources of Federal aid. Those needs were 
``especially severe'' in Harris, Galveston, and Jefferson counties.
    The Federal housing funds, which are a specialized form of 
community block development grants aimed at disaster recovery, can go 
toward rebuilding houses, businesses, roads, other buildings and 
infrastructure. But Rackleff said Federal officials hoped the money 
would primarily go toward housing.
    ``While these funds can support a variety of recovery activities,'' 
he said, ``we believe and would strongly encourage the State of Texas 
to use these resources in a manner that helps families with their 
housing needs.''
                                 ______
                                 
                   Article Submitted by Hon. Al Green
Four months after Hurricane Harvey, four major questions about recovery 
                                for 2018
By Dave Harmon, Jan. 4, 2018 Updated: 8 PM.
    Clarification: This story was updated to more accurately explain 
the Army Corps of Engineers' assessment of the integrity of the Addicks 
and Barker reservoirs.

    Houston and the Gulf Coast are learning hard lessons about their 
vulnerability to flooding after Hurricane Harvey--which was the latest 
and by far the biggest in a 3-year stretch of major inundations for 
Houston that included the Memorial Day and Tax Day floods.
    People who didn't think they needed flood insurance--because they 
weren't in a designated flood zone--have learned that the flood maps 
are increasingly irrelevant. Local leaders and flood control planners 
are learning that 500-year floods may become regular occurrences.
    Four months after Harvey stormed ashore and dumped historic rains 
on the coastal flatlands, major questions remain. The Tribune has 
reported on each of these (you can read all of our Harvey coverage 
here), and we'll keep following these storylines in 2018:
   how will texas spend billions in federal long-term recovery money?
    So far, the State is leaning hard on the Federal Government to fix 
what Harvey broke. Despite enduring the rainiest day in recorded 
history--up to 50 inches fell in parts of Houston at Harvey's peak--
Texas' top leaders have resisted tapping the so-called Rainy Day Fund 
(which currently stands at about $10 billion) to help with the 
recovery.
    The U.S. Department of Housing and Urban Development has announced 
Texas will receive just over $5 billion for long-term rebuilding 
efforts. Texas leaders would like more. They have estimated the State 
needs as much as $121 billion--and they want as few limitations on how 
to spend that money as possible.
    They argue that officials in cities and counties battered by the 
storm know best whether money should go to individual households or 
public works projects. But the State's requests for flexibility--along 
with an infrastructure-heavy wish list--have sparked alarm among 
housing advocates who fear homeowners and impoverished communities will 
get shortchanged in favor of large-scale infrastructure projects that 
could have little connection to disaster recovery.
    A bigger question: How long will it take the money to get where 
it's supposed to go? After Hurricanes Ike and Dolly struck the Texas 
coast, the State received $3 billion in 2008 from the U.S. Department 
of Housing and Urban Development for long-term rebuilding.
         when will houston's justice system get back to normal?
    After Harvey hit in late August, trials in one of the country's 
busiest criminal justice systems were delayed for months. Damage from 
the storm left the city's Criminal Justice Center--a 20-story building 
that houses 40 courtrooms, the district attorney's office and enough 
holding cells to accommodate 900 inmates--out of commission for months, 
and swamped its jury assembly building perhaps beyond repair.
    Jury trials resumed October 16, but the backlog in pending cases 
persists. Judges continue to double up on courtrooms, with trial courts 
allocated on a rotating basis. The system is churning--but haltingly. 
And that will be the status ``for the foreseeable future,'' said Judge 
Bob Schaffer, administrative judge for the Harris County district 
courts.
    Court officials said proceedings are not likely to return to normal 
until the facilities are restored to full occupancy, which could take 
as long as another year and will cost tens of millions of dollars.
    But the justice system is slowly coming back to life: Cases are 
being heard, albeit slowly, and verdicts are being handed down. Well 
over 5,000 people already have reported for jury duty.
    ``Things aren't back to normal yet,'' Harris County Court Manager 
Ed Wells said. ``But we're making the best of what we have available 
and moving forward.''
  how will the gulf coast address the flood risks that harvey exposed?
    The State has a list of big-ticket infrastructure projects for 
flood mitigation and prevention. And officials are hoping the feds will 
pay for all or most of it.
    Reservoir improvements.--The Addicks and Barker reservoirs west of 
downtown Houston--which are essentially earthen berms designed to 
temporarily hold back floodwaters before releasing them into Buffalo 
Bayou--are considered ``high risk'' by the U.S. Army Corps of 
Engineers, which maintains and operates them (the Army Corps says the 
dams are structurally sound, and that designation reflects the dams' 
proximity to a major population center). To make matters worse, 
developers have plopped about 14,000 homes inside their flood basins 
(many of those homes flooded during Harvey) and all that new 
development is sending more runoff into the reservoirs during storms. 
The reservoirs need major upgrades, and there's serious talk of 
building another one to take the pressure off Addicks and Barker. 
That'll take a lot of land and a lot of money--and years of work to 
complete.
    Buyouts.--After three flood events in 3 years, lots of Houstonians 
are talking about buyouts. But as we discovered through our 
investigation with ProPublica in November, buyouts aren't likely to be 
a large-scale solution to the city's flooding problems, mainly because 
of a lack of money and narrow criteria that disqualify many homeowners 
who are willing to sell.
    The Ike Dike.--A coastal barrier built just off the coast to blunt 
a hurricane storm surge remains the holy grail for protecting Houston, 
Galveston and the area's vast and vulnerable refineries and 
petrochemical plants. But the price tag could run as high as $11 
billion to protect a six-county stretch of coastline--and it wouldn't 
help in a major rain event like Harvey.
       how long will it take for displaced people to return home?
    This is probably the most pressing question for the people whose 
lives have been uprooted by Harvey--and the most difficult to answer 
because it plays out one home at a time. About a month after Harvey 
struck, more than 24,000 families were living in FEMA-funded hotel 
rooms; that number dropped to about 11,300 families by mid-December as 
homes were repaired, renters found new apartments and others found 
better long-term housing options.
    But the FEMA hotel statistics don't capture the full extent of the 
need, because they don't include countless people still living with 
family or friends, in tents, in recreational vehicles or in rented 
apartments or rooms.
    More than 90,000 people have filed insurance claims through the 
National Flood Insurance Program, also managed by FEMA. That's 
equivalent to the entire population of Sugar Land.
    How long it takes for that many people to get back to normal 
involves a complicated calculus--the amount of damage, whether they 
rented or owned their home, whether they had flood insurance, and how 
long it takes for insurance adjustors, demolition crews and contractors 
to do their work. But for many Harvey victims, recovery will be 
measured in years.

                                 <all>
</pre></body></html>
